<html>
<title> - RACIAL PROFILING WITHIN LAW ENFORCEMENT AGENCIES</title>
<body><pre>[Senate Hearing 106-996]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-996

            RACIAL PROFILING WITHIN LAW ENFORCEMENT AGENCIES

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON THE CONSTITUTION, FEDERALISM, AND PROPERTY RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 30, 2000

                               __________

                          Serial No. J-106-74

                               __________

         Printed for the use of the Committee on the Judiciary


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
72-780                     WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel
                                 ------                                

   Subcommittee on the Constitution, Federalism, and Property Rights

                   JOHN ASHCROFT, Missouri, Chairman
ORRIN G. HATCH, Utah                 RUSSELL D. FEINGOLD, Wisconsin
BOB SMITH, New Hampshire             EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          PATRICK J. LEAHY, Vermont
STROM THURMOND, South Carolina
                      Paul Clement,  Chief Counsel
               Robert F. Schiff,  Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Ashcroft, Hon. John, a U.S. Senator from the State of Missouri...     1
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................     3
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     6
Torricelli, Hon. Robert G., a U.S. Senator from the State of New 
  Jersey.........................................................    54

                               WITNESSES

Conyers, Hon. John, Jr., a U.S. Representative from the State of 
  Michigan.......................................................     8
Gerald, Rossano, Master Sergeant, U.S. Army......................    11
Harris, David, Balk Professor of Law and Values, University of 
  Toledo College of Law..........................................    32
Hughes, Johnny L., National Troopers Coalition...................    41
Jones, Hon. Leroy J., Jr., State Assemblyman, State of New Jersey    55
Lautenberg, Hon. Frank, a U.S. Senator from the State of New 
  Jersey.........................................................     9
Rodriguez, Curtis V., Attorney, Member of the California State 
  Bar............................................................    21
Watt, Rodney, Patrol Officer, Highland Park, IL..................    50
Welter, John, Assistant Chief of Police, San Diego Police 
  Department.....................................................    44
Wilkins, Robert L., Attorney, Washington, DC.....................    16

                                APPENDIX
                          Proposed Legislation

Bill S. 821......................................................    65

                 Additional Submissions for the Record

Cohen, John, Director, Community Crime Fighting Project, 
  Progressive Policy Institute...................................    70
Hampton, Ronald E., Executive Director, National Black Police 
  Association....................................................    79
Jackson, Kelly, Oregon, WI, letter...............................    76
Murphy-Smith, Karen, letter......................................    77
Shelton, Hilary O., Director, Washington Bureau of the National 
  Association for the Advancement of Colored People..............    69

 
            RACIAL PROFILING WITHIN LAW ENFORCEMENT AGENCIES

                              ----------                              


                        THURSDAY, MARCH 30, 2000

                           U.S. Senate,    
  Subcommittee on the Constitution, Federalism,    
                                   and Property Rights,    
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. John Ashcroft 
(chairman of the subcommittee) presiding.
    Also present: Senators Feingold, Kennedy, and Torricelli 
[ex officio].

 OPENING STATEMENT OF HON. JOHN ASHCROFT, A U.S. SENATOR FROM 
                     THE STATE OF MISSOURI

    Senator Ashcroft. Good afternoon. Let me thank all of you 
for coming. It is a pleasure to call this meeting of the 
Constitution Subcommittee of the Senate Judiciary Committee to 
order. I want to thank every one of you for attending this 
hearing on the subject of racial profiling by law enforcement.
    Racial profiling is the use of race either as the sole 
predictor or one element in a group of predictors of potential 
illegal or criminal activity that justify traffic stops or 
border searches or airport detentions. It is a subject of 
growing public debate, particularly in recent months.
    It is appropriate for this subcommittee to hold a hearing 
on this subject because it has clear constitutional 
implications. Our Constitution's 14th Amendment guarantees all 
persons the equal protection of the law, and the Supreme Court 
has made clear that any consideration of race by government 
officials, except in the narrowest of circumstances, is 
inconsistent with the 14th Amendment's guarantee of equal 
protection.
    As applied to today's inquiry, while it is undoubtedly 
permissible to use a particular criminal suspect's race as an 
identifier, using race broadly as a profiler in lieu of 
individualized suspicion is, I believe, an unconstitutional 
practice. In other words, if I am mugged by a caucasian male 6 
foot 7 and 230 pounds, the police consider that, and they are 
entitled to and should consider that suspect's race in looking 
for the man who mugged me. What they cannot constitutionally 
do, in my judgment, is to start pulling over all caucasians in 
the future because they believe that they commit a 
disproportionate number of muggings.
    Today, we will hear testimony about various serious 
allegations that traffic stops and other detentions happen on 
the basis of race, though there are differing points of view 
about the prevalence of the practice. Some will provide 
evidence that the practice is very prevalent and others that it 
is the result of random misdeeds in the law enforcement 
community.
    We will also hear about the proposed legislation, the 
Traffic Stops Statistics Study Act, which is designed to try 
and find out exactly the extent or how large the problem is. 
That legislation is sponsored in the Senate by the ranking 
member of this subcommittee, my friend Senator Feingold, and 
Senator Lautenberg, who I am pleased is on our first panel 
today, and by Congressman Conyers in the House.
    We do need to find out how big the issue is, and I think 
the concepts included in the Traffic Stops Statistics Study Act 
represent a good start. I have some suggestions on how I think 
it could be improved. In particular, I would respectfully 
suggest that the statute make clear that the Attorney General's 
study of State and local law enforcement traffic stop data 
would be made from data collected voluntarily by those 
departments. It is my understanding that it is the intent of 
the bill, but I think the legislation would be well served to 
make that explicit by way of clarification.
    Second, there are a few areas where I think that the data 
collected by the Attorney General should be expanded in order 
to get as full a picture as possible of what is happening on 
our highways and streets. In addition to the current provision 
that the Attorney General collect data about the traffic 
infraction alleged to have been committed that led to the stop, 
the Attorney General should consider any other factors 
supporting the officer's decision to make a traffic stop.
    In addition, I think that it would be useful for the 
Attorney General to consider factors such as the race of the 
officer making the stop, the racial composition of the area in 
which the stop was made, and any other factors that will give 
us as full a picture as possible as to how officers are 
conducting traffic stops.
    Finally, I think it would be beneficial to explain that 
nothing in this bill changes any burdens of proof for parties 
in litigation. It is my hope that Senator Feingold and the 
other Senate cosponsors will consider these suggestions because 
I think that with these changes, I could have the opportunity 
to completely support the measure.
    In any event, regardless of the prevalence of racial 
profiling, the mere fact that these allegations exist troubles 
me greatly. It troubles me not only for the constitutional 
implications that it raises, but also for the extraordinarily 
destructive effect that such allegations would have on the 
confidence of people in Government.
    A necessary component of our system of Government is public 
trust. No system of government, of the people, by the people, 
and for the people can long endure if some of the people have 
no confidence in the fairness of that government. So long as 
whole groups of our citizens believe that there is a two-tiered 
system of treatment by Government officials arbitrarily divided 
by race, they won't have confidence in that system. They will 
understandably conclude that if Government is improperly 
motivated by race in some circumstances, it might be improperly 
motivated by race in all circumstances.
    This is particularly true if that perception is held of law 
enforcement, the very Government agency entrusted with 
protecting citizens from injustice. Such an erosion of trust 
would not only undermine the ability of law enforcement 
officers to do their jobs, it would undermine any efforts that 
we in Government make to try and improve the lives of all 
Americans through Government.
    With this in mind, the purpose of this hearing today is 
threefold: first, to raise public awareness of the issue 
regarding racial profiling; second, to discuss what we might do 
legislatively to understand more fully the extent of that 
problem; and, third, and most importantly, to try to restore 
some of the lost confidence and trust of some Americans by 
demonstrating that Government can work to correct any abuses 
that are even its own.
    I will now turn the floor over to the ranking member of the 
subcommittee, Senator Feingold, and thank him for his concern 
in this respect.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman, and welcome to 
all of our witnesses and those in the audience. Mr. Chairman, 
we always say thanks at these moments and we always mean it, 
but I especially mean it today because this is a very 
significant thing that you are willing to hold this hearing.
    I know that it is sometimes unusual around here for 
Democrats and Republicans to work together, but I am grateful 
for the collegial working relationship we have had over the 
years and for the constructive efforts of you and your staff to 
discuss this issue today. This is exceptional, as I have said.
    I am pleased and I am not at all surprised to hear that you 
share my concern that racial profiling is an unacceptable law 
enforcement tool. In fact, I am told that this is the first 
time this has ever happened, that there has never been a 
hearing on this in the Congress before, until you consented to 
this. And I appreciate the strength of your statement, the 
passion of it, and also your reference to the constitutional 
issues.
    At first glance, the changes you have outlined to S. 821, 
the Traffic Stops Statistics Study Act, appear reasonable and 
helpful. I am confident that we can work out the details 
quickly, and once that is done I look forward to welcoming you 
as a cosponsor to the bill. I believe your support is crucial 
to getting this bill through the Senate and enacted into law 
this year, and I am very pleased that you have been willing to 
roll up your sleeves and get this done. So I thank you very, 
very much.
    I also, of course, thank Representative Conyers, who helped 
initiate this issue in the Congress, and, of course, my good 
friend Frank Lautenberg, who is the principal author of this 
legislation. I am the second name on the bill. He has taken a 
real lead role. A good part of my week has been praising 
Senator Lautenberg for his work on the Budget Committee, his 
work on the environment, his work on transportation and many 
other issues during his career. But this is a very important 
one to add to the list and I thank him for his leadership.
    Mr. Chairman, our Nation has faced many difficult struggles 
involving issues of race, justice and equality. Fortunately, we 
have made great advances this century in ensuring that all 
Americans receive equal justice under the law. But we still 
face significant problems of racial injustice and 
discrimination. There are serious questions about whether 
African-American and other minority juveniles receive prison 
sentences at a disproportionately higher rate than white 
juveniles.
    There are serious questions about whether African-Americans 
and Hispanic-Americans are subject to the death penalty 
disproportionately compared to whites. And for the millions of 
African-Americans, Hispanic-Americans and other Americans of 
racial or ethnic minority backgrounds who drive on our Nation's 
streets and highways, there is the fear of being stopped for no 
apparent reason other than the color of their skin.
    This law enforcement tool, known as racial profiling, 
targets drivers for heightened scrutiny or harassment because 
of the color of their skin, with an alleged traffic violation 
used as a pretext. Parroting the well-known acronym for drunk 
driving, DWI, racial profiling has been called DWB, or driving 
while black or driving while brown.
    I want to emphasize that I don't believe that all or even 
most law enforcement officers engage in this terrible practice. 
I believe that the vast majority of our men and women in blue 
are honorable people who fulfil their duties without engaging 
in racial profiling. But as we will hear today, the experience 
of many African-Americans and Hispanic-Americans is very real. 
There is simply no doubt that some officers unfortunately do 
engage in this practice.
    There are some--and I stress only some--law enforcement 
agencies or officers in our country who have decided that if 
you are African-American or Latino, you are more likely to be 
trafficking drugs or engaged in other illegal activities than a 
white person, despite statistical evidence to the contrary.
    In a May 1999 report, the American Civil Liberties Union 
described a study that found that along I-95 in Maryland, while 
only roughly 17 percent of the total drivers and traffic 
violators are African-American, an astonishing 73 percent of 
the drivers searched are African-American. We are going to hear 
more today about the scope of this problem, including from the 
principal author of the ACLU report. Of course, the legislation 
that Senator Lautenberg and I have sponsored will allow us to 
get a clearer picture of what is happening.
    Mr. Chairman, whether in Maryland, Wisconsin, or Missouri, 
all Americans must have the right to travel from place to place 
free of harassment, especially from harassment by their own 
Government. No one in America should be considered suspicious 
and have to live in fear of being pulled over, detained and 
searched because of the color of his or her skin.
    As we will hear today, victims of racial profiling are 
forced to endure an incredibly humiliating experience, 
sometimes even a physically threatening one, on roadsides or in 
the back seat of police cruisers. Why? Because of the color of 
their skin. Not just African-Americans and Latinos, but all 
Americans should feel threatened when any one of us is denied 
our personal liberty in such an insidious and humiliating way. 
In 21st century America, racial profiling is not only 
indefensible, it is an affront to our Nation's fundamental 
principles of justice, liberty and equality.
    Mr. Chairman, this practice has another significant 
negative impact that I would like to just touch on here, and 
that is the damage it does--and you have focused on this 
already--to the trust between law enforcement and the community 
and to our criminal justice system. Racial profiling leaves a 
scar not only on those Americans who are harassed, but on 
relations between law enforcement and the community that police 
officers have pledged to protect and serve.
    Where can African-Americans and Latinos turn for help when 
they believe that the men and women in uniform cannot be 
trusted? As an Hispanic American testified recently in Glencoe, 
IL, on his family's experience with being profiled repeatedly, 
``who is there left to protect us? The police just violated 
us.''
    This is profoundly disturbing to me and I hope to all 
Americans. Racial profiling chips away at the important trust 
that law enforcement agencies take great pains to develop with 
the community, and we have seen when that trust is broken that 
it can lead to an escalation of tensions between the police and 
the community, as well as detrimental effects on our criminal 
justice system, like jury nullification and the failure to 
convict criminals because the community no longer believes the 
police officer on the witness stand.
    Racial profiling is clearly bad policing, and it has a 
ripple effect whose consequences we are only beginning to feel. 
In just the last year since the traffic stops statistics study 
bill was introduced, we have already seen increased awareness 
of this problem in the law enforcement community and an 
increased willingness to address it. As we will hear today, 
there are a growing number of police departments that have 
already begun collecting traffic stops data voluntarily. In 
fact, over 100 State and local police departments have now 
committed to compiling data. In addition, a number of States 
have passed or are considering legislation requiring their 
police departments to collect this data.
    These are very positive developments. These State and local 
efforts underscore the need for a Federal role in collecting 
and analyzing traffic stops data to give Congress and the 
public a national picture of the extent of the racial profiling 
problem and lay the groundwork for national solutions to end 
this horrendous practice.
    I am pleased to have joined my distinguish colleague, 
Senator Lautenberg, in introducing this legislation. The bill 
would require the Attorney General to conduct an initial 
analysis of existing data on racial profiling and then design a 
study to gather data from a nationwide sampling of 
jurisdictions.
    This is a straightforward bill. It only requires the 
Attorney General to conduct a study, plain and simple. It 
doesn't tell police officers how to do their jobs and it 
doesn't mandate data collection by police departments. The 
Attorney General's sampling study would be based on data 
collected from police departments that voluntarily agree to 
participate in the Justice Department study.
    President Clinton has endorsed S. 821, and last June he 
directed Federal law enforcement agencies to begin collecting 
and reporting data on the race, ethnicity and gender of the 
people they stop and search at our Nation's borders and 
airports. A coalition of civil rights groups and law 
enforcement organizations also support this legislation, and I 
am pleased that Senator Torricelli and Senator Kennedy, who is 
here, have joined as cosponsors. I am hopeful that more of our 
colleagues on the full committee will agree to be cosponsors of 
this important initiative. The House of Representatives passed 
a similar bill in the 105th Congress, and just a few weeks ago 
the House Judiciary Committee passed a bill without amendment.
    So I hope that with your great help, Mr. Chairman, we can 
move the bill through the committee promptly. Thank you for 
your being patient with my long statement. I do care about this 
issue deeply, and I again thank you and I think the Senate and 
public will benefit from the light that we are shining on this 
problem today.
    Thank you, Mr. Chairman.
    Senator Ashcroft. Thank you very much.
    The Senator from Massachusetts is recognized.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Well, thank you, Mr. Chairman. I will put 
my statement in the record and just commend you for having the 
hearings, and my colleagues, Senators Lautenberg and Feingold, 
and John Conyers, for going ahead.
    It appears to me--and I would be interested when Senator 
Lautenberg makes his comments--that this is an extremely modest 
proposal. What we are basically talking about is the collection 
of information and statistics. It seems to me that given the 
kind or reality of this situation and the modesty but the 
importance of this kind of program, unlike so many of the other 
things that we have before us in the Congress, we ought to be 
able to take action on this.
    I was interested in Senator Feingold, who is a real expert 
on the particular legislation, commenting upon your own 
observations and suggestions, at how reasonable those were and 
that there would be a real opportunity to move forward in this 
area.
    Just finally, I would hope that maybe Senator Lautenberg 
would also give us his own best judgment--and this will come 
out in the questions--about what steps he thinks are going to 
be necessary to follow on if we were able to implement this. We 
have got a number of the States that are collecting some 
information, but what he really thinks can be done after we get 
this information. I know that is not directly the subject of 
it, but I think it is important that we hear it.
    I would just say finally, Mr. Chairman, I was mindful of 
that excellent statement that was made by, I think, Anna 
Quindlen on March 13. She said, ``Police officers are just us 
wearing uniforms. The assumptions they make and the prejudices 
they carry with them are the assumptions and prejudices of 
their roots, their neighborhoods and their society.'' She went 
on to write that, ``This is the way in which race changes 
everything, often in a subtle or unconscious fashion.''
    So this is enormously important, even though it is a modest 
program, and an enormously important hearing, a very important 
initiative. I am delighted that we are having the hearing and 
hopefully it will result in action.
    I thank the Chair.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    Thank you, Mr. Chairman, I commend you and Senator Feingold for 
working together to schedule this hearing. Racial profiling by law 
enforcement officers is a disgraceful practice, and it is high time 
that the Senate addresses this issue.
    I pay particular tribute to our distinguished colleague from the 
House, Representative John Conyers, the Ranking Member of the House 
Judiciary Committee. For several years, Representative Conyers has led 
the fight for legislation on racial profiling, and it was successfully 
passed by the House in the last Congress. Thank you for being here 
today, and I look forward to your testimony.
    Traffic and vehicle codes are highly detailed and complex and 
almost everyone is violating some part of them. That means that law 
enforcement officers can choose to stop almost anyone, and that 
officers who have biased attitudes and unscrupulous officers have a 
free hand to discriminate. Some try to justify racial profiling by 
claiming that it is efficient and necessary to fight drugs and guns. 
That argument is flatly wrong. It is based on the shameful and bigoted 
assumption that minorities are likely to be law breakers.
    Professor John Lamberth of Temple University conducted a detailed 
study of the New Jersey Turnpike and the percentage of drivers 
violating the law. Over 98 percent of the cars were speeding and 
therefor subject to being stopped by the state police. Obviously, the 
police have the power to pull over anyone they choose. African-
Americans made up 15 percent of the speeders, not statistically 
different from their proportion of the driving population.
    But 35 percent of the drivers pulled over were black. The average 
black driver was almost four times more likely to be pulled over than a 
non-black driver.
    On Interstate 95 in Maryland, a similar study was conducted. In 
fact, we have one of our witnesses today to thank for it. Robert 
Wilkins and his family were the victims of a discriminatory stop by the 
Maryland State Police. But they picked the wrong family to stop that 
day. He had the courage, determination and legal skills to defend his 
constitutional rights and hold the police accountable.
    The Maryland study showed that for every 1,000 searches by the 
Maryland State Police, exactly 28 percent of the drivers the police 
chose to search were carrying some kind of contraband that warranted an 
arrest. And there was no difference between black drivers and white 
drivers--none, at all--28 percent of blacks and 28 percent of whites.
    That result is no surprise. National Institute of Drug Abuse 
statistics show that African-Americans are no more likely to abuse 
drugs than whites, and the Maryland study shows that they are no more 
likely to transport drugs than whites. Yet, they are still targeted for 
a disproportionate number of stops and searches, and are over 12 times 
more likely to be arrested than white drivers.
    The lesson is obvious. If you enforce the law against blacks, 
you'll find and arrest more black offenders and it will look like 
blacks are the ones violating the law. If you enforce the law against 
whites--or against people with blond hair, or against people driving 
green cars--you'll get the same results. The group you target will look 
like they're the principal offenders violating the law.
    The problem is just as serious for Hispanic drivers. Operation 
Pipeline is an attempt to use the traffic laws as a tool for drug 
interdiction, and it is clearly targeting Hispanic drivers. An 
examination of over 30,000 Operation Pipeline stops in California 
showed only a 2 percent success rate. That means 29,400 people were 
pulled over for no valid reason at all--and a disproportionately high 
percentage of them were Hispanic.
    The conclusions are clear. Racial profiling is an abomination. DWB 
or DWH--Driving While Black or Driving While Hispanic--is not an 
offense, or America isn't America. It's time we stopped racial 
profiling--now and for good.

    Senator Ashcroft. Thank you.
    Now, it is my pleasure to turn to Senator Lautenberg, who 
is a cosponsor of this measure, who has introduced the Traffic 
Stops Statistics Study Act in the Senate.
    Congressman Conyers was scheduled to be here with us today, 
but he had a scheduling conflict arise this morning. I just 
want to note now before the Senator begins his remarks that we 
will keep the record open for any statement that Representative 
Conyers chooses to submit.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of Hon. John Conyers, Jr., a U.S. Representative in 
                  Congress From the State of Michigan

    Race-based traffic stops turn driving, one of our most ordinary and 
fundamentally American activities, into an experience fraught with 
danger and risk for people of color. The offense of ``D.W.B.'' or 
``driving while black and brown'' is well-known to African-Americans 
and Hispanics across the country. There are virtually no African-
American males--including Congressmen, actors, athletes and office 
workers--who have not been stopped for a pretextual traffic violation.
    Because traffic stops can happen anywhere and anytime, millions of 
African-Americans and Latinos alter their driving habits in ways that 
would never occur to most white Americans. Some intentionally drive 
bland cars or change the way they dress. Others who drive long 
distances factor in extra time for the traffic stops that seem 
inevitable. Some completely avoid places like all-white suburbs, where 
they fear police harassment for looking ``out of place.''
    This very fear was confirmed by a group of police officers from 
Highland Park, Illinois. These officers had the courage to confirm a 
fact that minority drivers across the nation have known for years: 
police departments routinely employ discriminatory racial profiling 
tactics designed to ambush innocent minority drivers.
    In sworn affidavits, the officers detailed shocking incidents of 
race related traffic stops and police policies that clearly warrant 
federal investigation. The allegations of the Highland Park officers 
are unique in the fact that white law abiding officers have advanced 
the profiling claim and broken the wall of silence that has hindered 
other investigations.
    The courage shown by these officers in coming forward will send a 
tremor through the law enforcement community. In the face of tremendous 
anecdotal and quantitative evidence to the contrary, some national 
police groups have consistently denied the existence of racial 
profiling. Because these officers have broken the wall of silence, 
never again can there be a denial of the stories of the minority 
community concerning their treatment at the hands of the police.
    The traffic stops bill is intended to provide a comprehensive 
analysis of the scope and magnitude of the racial profiling problem by 
requiring the Department of Justice to conduct a nationwide study of 
traffic code violation stops by law enforcement officers.
    This legislation is a recognition of the manifest complaints by 
minority drivers nationwide. The legislation is not punitive, nor does 
it indict the conduct of individual police officers--most of whom are 
simply trying to do their jobs.
    While the catch phrase ``driving while black'' captures the 
perception of the minority community, the definition and legal 
implications of racial profiling defy such simplification.
    The most sound definition of racial profiling embraces the 
widespread police practice of using race as a factor in deciding whom 
to target for law enforcement. Properly understood, racial profiling 
occurs whenever police routinely use race as a negative signal that, 
along with an accumulation of other signals, causes an officer to react 
with suspicion.
    Some commentators define racial profiling as occurring when a 
police officer stops, questions or arrests someone solely on the basis 
of race or ethnicity. This crude definition evokes the completely 
discredited exercise of power by bigoted law enforcement officers 
intent on harassment.
    To condemn police officers who engage in such tactics, however, 
requires no real confrontation with the complex intersection between 
race, crime and law enforcement because few would defend police 
surveillance triggered solely by race. Such a definition diverts 
attention from the more complex use of race as trigger for suspicion 
that captures a disproportionate number of minorities.
    Media coverage of the phenomenon of racial profiling has produced 
an abundance of anecdotal evidence concerning abusive practices. The 
stories in the press, combined with statistics, lawsuits and recent 
legislative action, make a powerful argument that ``driving while 
black'' is not just an occasional problem.
    Statistical evidence gathered in the course of litigation shows a 
clear pattern of racially discriminatory traffic stops and searches. 
Although African-Americans make up only 14 percent of the population 
nationwide, they account for 72 percent of all routine traffic stops.
    An ACLU analysis of Maryland State Police data showed that 73 
percent of cars stopped and searched on Interstate 95 between Baltimore 
and Delaware from January 1995 through September 1997 were those of 
African-Americans, despite the fact that only 14 percent of those 
driving along that stretch were black. Similarly, in Florida, 70 
percent of the persons stopped on I-95 were African-American, even 
though they made up less than 10 percent of the driving population.
    Hispanics are similarly targeted for a disproportionate law 
enforcement focus. An ACLU analysis of Illinois State Police data found 
that, while Hispanics comprise less than eight percent of the 
population and take fewer than three percent of all personal vehicle 
trips, they comprise approximately 30 percent of the motorists stopped 
by state police drug interdiction officers for discretionary offenses 
and comprised 27 percent of all searches.
    These dramatic statistics have formed the basis for legal findings 
against the practice of racial profiling across the nation. Lawsuits 
challenging racial profiling have been filed all across the country. 
Most recently, New Jersey settled the first ever racial profiling case 
brought by the Justice Department under 42 U.S.C.A. 14141. The consent 
decree in that case appoints an independent monitor, requires the state 
to collect traffic stop data and to create new citizen complaint, 
training and early warning procedures for the state police.
    While racial profiling practices by law enforcement have been 
expanding, the Supreme Court's sensitivity to Fourth Amendment rights 
has been contracting. In Whren v. United States, the Supreme Court 
declared that any traffic offense committed by a driver was a 
legitimate legal basis for a stop, regardless of the officer's 
subjective state of mind.
    In practice, the Whren decision has given the police virtually 
unlimited authority to stop and search any vehicle. Because state 
traffic codes identify so many different infractions, every driver 
probably violates some provision of the vehicle code at some time, 
during even a short drive. As a result, the controversy around racial 
profiling will continue to grow.
    Widespread racial profiling practices deeply undermine the 
legitimacy and effectiveness of the criminal justice system, making 
police work much more difficult and dangerous. As we have seen in 
Highland Park, police officers themselves recognize the injustice of 
these practices and are beginning to speak out in favor of change.
    While it does not regulate traffic stops, set standards for them, 
or require implementation of particular policies, the Traffic Stops 
Bill does require the gathering of solid, comprehensive information, so 
that discussion of racial profiling might move beyond the question of 
whether or not the problem exists, to the question of how to find a 
solution.

    Senator Ashcroft. It is a pleasure to welcome the Senator 
from New Jersey, Senator Lautenberg.

  STATEMENT OF HON. FRANK LAUTENBERG, A U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman, and allow me 
to convey particular thanks to Senator Feingold and Senator 
Kennedy, both of whom have had an active interest in this 
issue, and Senator Feingold for urging us forward, and thanking 
you, Mr. Chairman, for holding this hearing. It has obviously 
attracted attention because it is such an important issue.
    To Senator Kennedy's remarks about this being a relatively 
modest proposal, it is true that this is a first step, but when 
the first step is such a departure from existing practice, it 
is a giant step. We just ask the Attorney General to do the 
study and then help us prepare a way over the next couple of 
years to get grants to communities to make sure that we get the 
data that we need to have to make intelligent decisions and to 
cure what I think is an epidemic of injustice.
    Senator Feingold and I spent the morning with the budget, 
and I thank him for his nice comments. This is kind of a swan 
song period for me. But I will continue to work hard, to 
demonstate that lame ducks can fly.
    There has been an ugly practice across the country and it 
has emerged over some time. So many motorists live with the 
fear that they are going to be pulled over for nothing more 
than the color of their skin. The problem is that occasionally 
some law enforcement officers have inappropriately engaged in a 
practice called racial profiling.
    Senator Feingold said it very clearly: the men and women in 
uniform doing law enforcement work are people that we can 
generally be very proud of. They do a good job and are an 
integral part of having a society of laws. But there are some 
who overstep their bounds, and we have to be very careful about 
that. These people unfairly assume that drivers of a particular 
race are more likely to be criminals, and this discrimination 
is wrong and it has got to stop.
    When patrolling our Nation's highways and streets, the only 
colors that police officers ought to be concerned about are red 
and green lights and yellow stripes. But they ought to be 
color-blind when it comes to a driver's race, and any 
violation, as we all here know, of civil rights is 
unacceptable.
    But it is particularly disturbing when alleged violations 
involve law enforcement officers. No one is safe when those who 
are hired to uphold the law treat it with contempt. As we 
consider this issue, we have to remember that lots of law 
enforcement officers--and I have heard it personally and seen 
it--have spoken out against racial profiling. They don't want 
to be tainted by the errant actions of some of their fellow 
officers.
    Racial profiling has been a serious problem in my home 
State of New Jersey, and would that it was only New Jersey that 
had the problem and we could fix it right away. But we learned 
as we began to examine the problem that this is a serious 
problem all across our country.
    In New Jersey, we had a State judge find that some State 
troopers engaged in the practice of racial profiling. We have 
had testimony that some troopers were trained to use profiling, 
and we have had a shooting at a van with some athletes 
traveling down the New Jersey Turnpike. Fortunately, nobody was 
killed. And we have seen other unwarranted physical 
intimidation of minority motorists on the New Jersey Turnpike 
and other State roads.
    As a result of a Department of Justice investigation, the 
New Jersey Police admitted that some of their officers had 
engaged in racial profiling, and agreed to comprehensive 
reform. But while New Jersey is working to end racial 
profiling, we need to address the problem on a national basis, 
and that is why I joined with Representative Conyers in 
introducing the Traffic Stops Statistics Study Act.
    By requiring the Attorney General to complete a study on 
racial profiling, this legislation will give us a better 
understanding of the scope of the problem and give us ideas on 
how to end discrimination in any communities where it is 
occurring. Representative Conyers has always been a strong 
leader on civil rights, and I am pleased to be working with him 
on this issue. But I again pay special thanks to my initial 
cosponsor, Senator Feingold, for his important contribution on 
the effort to end this ugly practice.
    We now have 17 Senate cosponsors, and I hope that all of 
the members of this subcommittee will work to pass this bill 
and pass it quickly. Again, to go back to Senator Kennedy's 
remarks, it is a modest proposal. It shouldn't take an awful 
lot of effort to get this in place, to show people that we are 
serious about it, that this Government of ours will not accept 
racial profiling or practices similar to that where people are 
discriminated against because of their skin color.
    So I thank you once again, Mr. Chairman, and I hope that we 
will be able to expeditiously move this legislation.
    Senator Ashcroft. I thank you, Senator. Your testimony is 
helpful.
    Our next panel is comprised of three individuals to tell 
about their own experiences in regard to this issue.
    And as I thank the Senator, I welcome you to supplement 
your testimony with written materials, if you choose to. But I 
would invite the next panel to come forward. Members of the 
next panel include U.S. Army Master Sergeant Rossano Gerald, 
from Fort Hood, TX; Mr. Robert Wilkins, an attorney from 
Washington, DC; and Curtis Rodriquez, also an attorney from San 
Jose, CA. I thank you for being here today and am grateful for 
your attendance.
    Master Sergeant Gerald, it is a pleasure to have you here. 
Thank you for being here. It is my understanding that you have 
asked to supplement your testimony with a very short video at 
the end of your testimony. Is that the way you would like to 
handle it?
    Sgt. Gerald. Mr. Chairman, you could do it either at the 
beginning or the end.
    Senator Ashcroft. Well, why don't you give us your 
testimony first and then if you don't mind, we will watch the 
video. It is my understanding it is just 2 minutes long, so 
don't put anybody to sleep with your testimony or they will 
miss the video.
    Please, just speak up. I am having a little trouble hearing 
you. Just please make yourself heard. It is important that we 
get the facts as you would bring them to us.
    Would you please proceed?

 PANEL CONSISTING OF ROSSANO GERALD, FORT HOOD, TX; ROBERT L. 
 WILKINS, WASHINGTON, DC; AND CURTIS V. RODRIGUEZ, SAN JOSE, CA

                  STATEMENT OF ROSSANO GERALD

    Sergeant Gerald. Good afternoon, Chairman Ashcroft, Senator 
Feingold, and the members of the committee. My name is Master 
Sergeant Gerald. I am glad to have an opportunity today to talk 
to you about an experience I had in Oklahoma.
    The issue of racial profiling is a serious problem in this 
country today. I am glad to see that the Senate is beginning to 
take a look at it. I am coming forward today to tell my story 
to prevent this from happening again. I don't want anything 
like this to happen again to my son.
    In August 1998, I was driving to Oklahoma on a family 
reunion. At the time, I was a sergeant first class stationed in 
Fort Ritchie, MD. My 12-year-old son Gregory was with me. As 
soon as we crossed the border from Arkansas, I noticed patrol 
cars in the area and began driving even more carefully than 
usual. Within minutes, an officer pulled me over, saying that I 
was following the other car too closely. He did not give me a 
citation.
    Soon after that, we stopped to get gas and went to the 
restroom. After our break, we continued driving. After being 
stopped once already, I was driving particularly carefully. I 
was in the right lane, when I saw two patrol cars approaching 
the ramp. I signaled, pulled over to the left and let them in. 
I said to my son, watch this, I bet they stop me again. Sure 
enough, I was pulled over again.
    An officer walked to the rear of the car and told me to get 
into the patrol car. I later learned that his name was Trooper 
Perry. Once he had me in the car, he started questioning me. I 
told him that my son was still in the car, and left and got my 
son, frisked him, and brought him back to the patrol car.
    He told me that I had changed lanes without using my turn 
signal. I told him I used my signals and I asked him how he was 
able to see from his vantage point on the ramp.
    The trooper started writing me a warning ticket and asked 
me questions. He asked me was I nervous. I told him, no, I was 
not nervous, but I was upset. I had just been stopped by other 
troopers. Then he asked me more questions about my destination, 
my point of origin, and my military assignment.
    Trooper Perry informed me that he had just made a drug 
bust, and asked to search my car. I said no. I asked him to 
call my company commander, Captain Rhodes, because it is the 
standard operating procedure for the Army. He refused. He would 
not let me call my company commander, Captain Rhodes, on my 
cell phone. I asked him again later to call my company 
commander. Again, he refused.
    Trooper Perry gave me a warning ticket, but told me that I 
was not free to go. Trooper Perry continued to ask me questions 
and badgering me about why I wouldn't let him search my car if 
I had nothing to hide. I said politely, no, and he said if I 
was carrying any weapons or contraband? I informed him that I 
was not.
    Trooper Perry then stated that it was legal for him to 
search my car without my consent. Trooper Perry called for the 
K-9 unit from the second patrol car. I said I wanted to watch 
the search, so I got out of the car. The dog walked around 
outside the vehicle. The dog did not alert, did not bark, did 
not scratch, did not whimper, did not sit, although the trooper 
kept patting certain areas of the car and would not let the dog 
walk away.
    Even though the dog did not alert, the second trooper 
patted the right wheel well and claimed that the dog had 
alerted. He said he would conduct a full-scale search now. I 
have been training in using dogs and I thought the search was 
highly improper and unusually leading.
    Trooper Perry ordered Gregory and me to get back in the 
car. At this point, I was really worried that the troopers were 
going to plant illegal contraband in my car. Trooper Perry then 
got the drill and took over the search. He began drilling 
underneath the carpet at the feet of the passenger side. 
Trooper Perry came back to the car and stated that he found 
something. The troopers spoke privately. I was accused of 
having a secret compartment in my car containing drug residue. 
The compartment was actually a footrest that was a feature of 
the car.
    I was handcuffed by Trooper Perry, who manhandled me, 
thrust me into the car and strapped me in. He turned off the 
on-board camera and took out the tape. The second trooper 
searched my car. At this point, Trooper Perry and the other 
trooper left the hood of the patrol cars up. The action had no 
obvious purpose. I was worried that they were trying to 
obstruct my view so they could plant contraband in my car.
    During the search, we overheard Trooper Perry on the radio 
talking to his headquarters. He told them that he couldn't find 
anything; nothing turned up. The other trooper told him to keep 
searching. He asked if he needed backup. By this point, a third 
unit showed up at the site. The K-9 trooper moved my son into 
the car with the dog and asked him questions without my being 
present. The second trooper asked the same questions. The dog 
kept barking at Gregory, who was afraid he would get bitten.
    The trooper put our luggage on the ground and had the dog 
sniff it. They found airline tickets, one of which was to 
Chicago. The trooper asked me about it. I answered that Gregory 
had flown out of Chicago. And he asked me again about drugs. I 
informed him that my car had passed inspection and received 
military clearance, and because of my military assignment, I 
was subject to random urinalysis tests and would never do 
drugs. Trooper Perry was angry that I would not give him 
details about my classified assignment. I suggested that he 
contact my commander again.
    After 2 hours, the troopers let me go with nothing more 
than a warning ticket. I was told that I was being let go 
because I was behaving myself. I claimed the car and the 
baggage were a mess, and Trooper Perry said we ain't good at 
repacking. Trooper Perry had removed parts of my headliner, 
floor boards, carpet, and other areas. There was over $1,000 
worth of damage.
    As soon as I was released, I called Captain Rhodes, my 
company commander. He advised me to go to Fort Sill, OK, where 
the Director of Public Safety searched my vehicle in case drugs 
were planted in my car. An Army-certified narcotics working dog 
did not find any drugs or any contraband in my car.
    This experience was very traumatic for Gregory. Throughout 
the interrogation, he was frightened and crying. Even before he 
was removed from my presence, he was nervous, crying, and he 
was hyperventilating. I had to watch my son suffer tremendous 
physical discomfort from the heat. Trooper Perry had turned off 
the air conditioning when he put us in the car, despite the 95-
degree heat.
    Before he released us, one of the troopers asked who would 
come get Gregory if I was arrested. This remark made my son 
more nervous and upset. He was crying. He was wondering what 
would happen to him and I tried to calm him down. He was scared 
for the rest of the trip. My son has since become afraid of 
dogs. He continues to ask his mother why he was treated this 
way.
    I was very humiliated by this experience. I was 
embarrassed. I was ashamed that people driving by would think I 
had committed a crime. It was particularly hard to be treated 
like a criminal in front of my impressionable young son. I 
never thought I would find myself in the position of suing 
police officers. I am an authority figure myself. I served our 
country in Somalia and in the Gulf War. I don't want my son to 
think that this kind of behavior of anyone in uniform is 
acceptable. I hope that coming forward to tell my story might 
prevent other people of color from being treated this way.
    That is it, sir.
    Senator Ashcroft. Thank you, Master Sergeant Gerald.
    [Videotape shown.]
    Senator Ashcroft. Thank you, Master Sergeant Gerald. I hope 
that your son gets an opportunity to see your appearance here 
because frankly I know it won't repair the problem, but I think 
he should know that there are people who care and that you are 
doing something more than just fix a blame, you are trying to 
fix a problem, and I think that is very important.
    I thank you very much for coming.
    Sergeant Gerald. Thank you, sir.
    [The prepared statement of Sergeant Gerald follows:]

                  Prepared Statement of Rossano Gerald

    Good afternoon Chairman Ashcroft, Senator Feingold and other 
members of the Committee. My name is Master Sergeant Rossano Gerald. I 
am glad to have an opportunity to talk with you today about my 
experience in Oklahoma. The issue of racial profiling is a serious 
problem in this country today and I am glad to see that the Senate is 
beginning to take a look at it. I am coming forward to tell my story to 
try to prevent this from happening again. I don't want anything like 
this to happen to my son again.
    In August of 1998, I was driving in Oklahoma on my way to a family 
reunion. At that time I was a Sergeant First class in the Army 
stationed in Fort Richie. My 12-year-old son Gregory was with me. As 
soon as we crossed the border from Arkansas, I noticed patrol cars in 
the area and began driving even more carefully than usual. Within 
minutes, an officer pulled me over for ``following another car too 
closely.'' He did not give me a citation. Soon after, we stopped to buy 
gas and use the restroom.
    After our break we continued driving. Having been stopped once 
already, I was driving particularly carefully. I was in the right hand 
lane when I saw two patrol cars approach on the ramp. I signaled, then 
pulled over to let them in. I said to my son, ``Watch this, I bet 
they'll stop me again.'' Sure enough, I was pulled over again.
    An officer walked to the rear of my car and told me to get in the 
patrol car. I later learned that his name was Trooper Perry. Once he 
had me in the car and started questioning me, I told him that my son 
was still in my car. He left and got Gregory and frisked him before 
putting him in the back of the patrol car. He told me that I had 
changed lanes without signaling. I told him that I had signaled, and 
asked how he would have been able to see from his vantage point on the 
ramp.
    Trooper Perry started writing me a warning ticket and asking me 
questions. He asked me why I was nervous. I told him that I was not 
nervous, but upset because I had just been stopped by another trooper. 
He then asked me more questions about my destination, my point of 
origin and my military assignment.
    Trooper Perry informed me that he had just made a drug bust and 
asked to search my car, and I said no. I asked him to call my 
Commanding Officer, Captain Rhodes, because it is standard operating 
procedure for the army. He refused. He would not let me call Captain 
Rhodes on my cell phone. I asked him again later to call my Commanding 
Officer and again he refused. Trooper Perry gave me the warning ticket 
but told me that I was not free to go.
    Trooper Perry continued asking me questions. He badgered me about 
why I would not let him search my car if I had nothing to hide. I was 
polite but would not let him search my car. He asked me if I was 
carrying any weapons or contraband and I informed him that I was not. 
Trooper Perry then stated that it was legal for him to search my car 
without my consent.
    Trooper Perry called for the K-9 unit from the second patrol car. I 
said I wanted to watch the search and we got out of the car. The dog 
walked around the outside of the vehicle. The dog did not ``alert.'' He 
did not bark, scratch, whimper or sit down, although the trooper kept 
patting certain areas of the car and would not let the dog walk away. 
Even though the dog did not alert, the second trooper patted the right 
wheel well and claimed that the dog had alerted. He said he would 
conduct a full scale search now. I have been trained in using dogs and 
thought that the search was highly improper and unusually suggestive.
    Trooper Perry ordered Gregory and me to get back into the car. At 
this point, I became really worried that the Troopers were gong to 
plant illegal contraband in my car. Trooper Perry then got the drill 
and took over the search. He began drilling under the carpet at the 
feet of the passenger side. Trooper Perry came back to the car and 
stated that he had found ``something.'' The two troopers spoke 
privately. I was then accused of having a secret compartment in my car 
that had drug residue in it. This compartment was actually a footrest 
that was a feature of the car.
    I was then handcuffed by Trooper Perry who manhandled me, thrust me 
into his car and then strapped me in. He turned off the on-board camera 
and took out the tape. The second trooper continued the search of my 
car. At one point, Trooper Perry and the other officer lifted the hoods 
of their patrol cars, an action that had no obvious purpose. I was 
worried that they were trying to obstruct my view so that they could 
plant contraband in my car.
    During the search we overheard Trooper Perry on the radio with 
another trooper. He told the other trooper that he was turning up 
nothing. The other trooper told him to keep searching and asked if he 
needed back up. By this point a third unit had appeared.
    This trooper moved Gregory into his car and asked him questions 
without me being present. The second trooper brought the drug dog to 
the car that Gregory was in and asked him some of the same questions. 
The dog kept barking at Gregory, who was afraid it would bite him.
    The troopers put our luggage on the ground and had the dogs sniff 
it. They found airline tickets, one of which was to Chicago. When the 
trooper asked me about it, I answered that Gregory had flown out of 
Chicago. Because he had again asked me about drugs, I informed him that 
my car had passed inspection and received military clearance and that 
because of my military assignment, I was subject to random urinalysis 
tests and would never do drugs. Trooper Perry was angry that I would 
not give him details about my classified assignment. I suggested that 
he contact my Commanding Officer.
    At 3:45 p.m. the Troopers let me go with nothing more than a 
warning ticket. I was told that I was being let go because I was 
``behaving myself now.'' I complained that my car and baggage were a 
mess and Trooper Perry said, ``We ain't good at repacking.'' Trooper 
Perry had removed parts of the headliner, floorboards, carpet and other 
areas. There was over one thousand dollars of damage.
    As soon as we were released, I called Captain Rhodes. He advised me 
to go to Fort Sill where the Director of Public Safety searched my 
vehicle in case drugs were planted in my car. An Army-certified 
narcotic working dog did not find any drugs or contraband.
    This experience was very traumatic for Gregory. Throughout the 
interrogation, he was frightened and crying. Even before he was removed 
from my presence he was nervous, crying and hyperventilating. I had to 
watch while my son suffered tremendous physical discomfort from the 
heat. Trooper Perry had turned off the air conditioning when he put us 
in his car, despite the ninety degree heat.
    Before we were finally released, one of the troopers asked who 
would come get Gregory if they arrested me. This remark made Gregory 
more nervous and upset. He was crying and wondering what would happen 
to him and I tried to calm him down. He was scared for the rest of the 
trip. My son has since become afraid of dogs. He continues to ask his 
mother why his father was treated this way.
    I was very humiliated by this experience. I was embarrassed and 
ashamed that people driving by would think I had committed a serious 
crime. It was particularly horrible to be treated like a criminal in 
front of my impressionable young son.
    I never thought I would find myself in the position of suing police 
officers. I am an authority figure myself. I don't want my son thinking 
that this kind of behavior by anyone in uniform is acceptable. I hope 
that by coming forward to tell my story it might prevent other people 
of color from being treated this way.

    Senator Ashcroft. It is my pleasure now to call upon Mr. 
Robert Wilkins, who is an attorney from Washington, DC.
    Mr. Wilkins, please.

                 STATEMENT OF ROBERT L. WILKINS

    Mr. Wilkins. Thank you, Senator Ashcroft.
    Senator Ashcroft. Please pull that in close. We need to be 
able to hear you, and for the record we need your voice to be 
accurately recorded.
    Mr. Wilkins. Thank you, Senator Ashcroft, Ranking Member 
Feingold, and Senator Kennedy. It is a great pleasure and honor 
for me to be here today and to appear before this distinguished 
group on this very important issue, the Traffic Stops 
Statistics Study Act.
    I am here to tell you a little bit about my own personal 
experience and the experience that members of my family and I 
unfortunately had to go through back in May 1992.
    My grandfather died and, of course, I wanted to go to his 
funeral. My uncle lives here in the Washington area. His son, 
my first cousin, does as well. And so my uncle, his wife, my 
cousin and I decided we would drive to Chicago for the funeral, 
and we rented a car to be comfortable for the trip.
    On our way driving back, we were stopped in Cumberland, MD, 
on Interstate 68. My cousin was driving. Instead of just 
writing my cousin a ticket, the trooper took my cousin out of 
the car and was questioning him at the rear of the vehicle for 
a few minutes. And at some point it became clear to us that 
there was something going on, and we found out that the trooper 
was trying to get my cousin to sign a consent to search form.
    At that point, my uncle and I got out of the car and began 
to discuss this matter with the trooper. I identified myself as 
an attorney from Washington, DC. I explained to the trooper 
that I was actually a public defender, so I was very familiar 
with the law of search and seizure and what his rights were and 
what our rights were, and that we didn't want to sign any form, 
but that if he was placing my cousin under arrest, then 
certainly he could do a search of the car incident to that 
arrest. But it didn't appear that there were any grounds for 
him to be arresting my cousin, so the trooper at that point 
said, well, if you have got nothing to hide, then what is your 
problem?
    I thought this was an extremely troubling response because 
asserting your rights and not wanting to be searched 
unnecessarily and without reason shouldn't be suspicious. But 
for some reason, the trooper didn't take that point of view. He 
persisted. He said this was routine, nobody ever objects. We 
explained that we couldn't speak for other people and whether 
they objected or not, but we certainly didn't want to have to 
undergo this search.
    Now, mind you, it was raining. It was just around dawn. We 
had been driving all night because it had been a very emotional 
weekend. My grandmother buried her husband of 58 years, and 
there were family members from all over the country, some of 
whom I had never met. We tarried much longer than we really 
intended to, and as a result we had to drive all night to be 
back to our jobs. All of us were working. In fact, I had a 
court appearance that morning, and the last thing we wanted was 
to be delayed or detained or searched unnecessarily.
    None of that seemed to matter to the trooper. He said that 
if we weren't going to consent to a search that we would have 
to wait for a drug-sniffing dog to be brought to the scene. I 
explained to the trooper that that was not legal, that wasn't 
proper, and that, in fact, there was a 1985 Supreme Court 
decision called United States v. Sharpe that said that he 
needed to have reasonable, articulable suspicion to detain us 
for this type of a search.
    And I asked him what he thought that there could be to 
justify this. He said that they had a lot of problems with 
rental cars and drugs. It didn't make sense to me because 
having a rental car shouldn't be suspicious and I didn't think 
that they were stopping every rental car coming up and down the 
highway.
    At any rate, we were forced to wait for the drug-sniffing 
dog and we were forced to stand outside lined up alongside the 
road in the rain as the handler and his German shepherd went 
over literally every inch of the exterior of our car. The dog 
jumped on top of the hood to sniff the area where the 
windshield recedes underneath the hood. It jumped onto the side 
of the car so that it could sniff the window areas and where 
the windows recede down into the door panels, the headlights, 
the tail lights, the front grill, underneath the car, the 
tires.
    And this whole time it was raining. We were lined up there. 
There were the police lights flashing from the cars there and 
people were driving past looking at us, looking at the dogs, 
looking at the police lights, and concluding that we must be 
doing something wrong and we must be criminals. Why else would 
the police be doing this to us?
    And I distinctly remember a car driving past with two young 
white children in the back seat, probably about 6 or 7 years 
old, with their noses pressed against the window, as kids are 
apt to do, looking at us and looking at the police as their 
parents or whomever had slowed down as they were driving past. 
And I was wondering to myself what kind of miseducation are 
they getting about me. I mean, I am not a saint. I haven't 
lived a perfect life, as no one has, but I have never used 
illegal drugs in my life, in any form, just because I have seen 
what they have done to people. And it was greatly offensive to 
me to be treated this way.
    When we decided to take legal action against the Maryland 
State Police after this was over, we learned that they had a 
profile that had been drafted actually 2 weeks before we were 
stopped that was in writing, and it is attached to my 
testimony, that directed their troopers to target young 
African-American men and women in rental cars from Virginia 
because they believed that they were bringing crack cocaine 
into the area.
    Well, we fit the profile to a tee. We were in a rental car 
from Virginia, and at that time Virginia rental cars had ``R'' 
as the first letter of their license plate. So the trooper 
watching our car drive past could immediately know that this 
was a rental car from Virginia. He saw my cousin and I in the 
front seat. And when I questioned him, why are we suspicious or 
why are you doing this, he said, well, because of the problem 
with rental cars and drugs.
    So this was going to be the one time where we had a smoking 
gun that we could connect to an actual incident, and so we had 
a lot of leverage. It didn't hurt, too, to have a lead 
plaintiff who was a Harvard Law graduate who had cited a 
Supreme Court case to the trooper during the incident. We used 
that to negotiate a settlement with the Maryland State Police 
which required them to start gathering data and to adopt a non-
discrimination policy and to train their troopers in that 
policy. And we would receive that data on a quarterly basis and 
look at it and monitor it.
    Unfortunately, the data showed a disturbing pattern. Along 
I-95, 70 to 75 percent of the people being searched were 
African-American, even though when we did studies of who was 
driving and who was violating the traffic laws on I-95, it was 
only 17 percent African-American.
    What was interesting about the data is that we saw that if 
you looked at 100 whites being searched and 100 blacks being 
searched, they found drugs the exact same number of times. But 
for every 100 whites that were searched, 400 blacks were 
searched, and so the aggregate numbers were completely 
disproportionate. The percentage of people being arrested was 
70 to 75 percent African-American, based on these searches 
after traffic stops. But you could, with the data, link it back 
to the disparity in the law enforcement practices and the 
targeting.
    That is why we think that the data was so important, and 
that is why I think that this bill is so important and I 
commend you all for holding this hearing and hopefully 
supporting this legislation so that it will pass so that we can 
really get the proper data to get behind this problem.
    I was taught in Sunday school, and I believe very 
seriously, to whom much is given much is required. A lot is 
given to our law enforcement officers. They have a lot of 
responsibility, and for the most part they exercise that 
responsibility very honorably. But it is also required of them, 
I think, to have some accountability and to have the public be 
able to look at what they are doing so that we can uncover any 
problems that need to be uncovered.
    Thank you.
    Senator Ashcroft. Thank you very much, Mr. Wilkins.
    [The prepared statement of Mr. Wilkins follows:]

                Prepared Statement of Robert L. Wilkins

    Chairman Ashcoft, Ranking Member Feingold, Members of the 
Committee. Thank you for the opportunity to appear before you today to 
testify regarding S. 821, ``The Traffic Stops Statistics Study Act Of 
1999.'' I believe that I speak for many others all over the country in 
thanking and congratulating this Committee for holding hearings on this 
very important piece of legislation. Unfortunately, the problem of 
``racial profiling'' is a real one. Furthermore, the perception among 
many in communities across the nation is that racial profiling results 
in unfair and discriminatory treatment in some areas of law 
enforcement, particularly in traffic stops. For those reasons, I 
strongly believe that these issues deserve further study. Therefore, I 
urge you to give Bill S. 821 favorable consideration.

                            I. THE INCIDENT

    Regrettably, I can only speak about racial profiling firsthand, 
because I have confronted it face to face.
    On May 8, 1982 at approximately 5:55 a.m., myself, my cousin Norman 
Scott Wilkins, my uncle (Scott's father) Nu'man El-Amin, and his wife 
Aquilah Abdullah were eastbound on I-68 coming through downtown 
Cumberland, Maryland. We were returning from my grandfather's funeral 
in Chicago. We had left Chicago the previous afternoon and driven all 
night, because we were all due back at our jobs; I even had a court 
appearance in Washington that morning. Scott was driving; I was in the 
front passenger seat, and my uncle and his wife were in the back. I 
should also add that myself and my family are African-American, while 
all of the police officers involved were white.
    Officer V.W. Hughes, from Maryland State Police stopped our car and 
told my cousin that he has ``paced him'' doing 60 in a 40 mph zone. 
Ofr. Hughes took Scott's license and the rental car contract and 
returned to his marked scout car. (The car, a Cadillac, was rented by 
my uncle for the trip.) Approximately five minutes later, Hughes 
returned and asked Scott to step out of the car. After a brief 
discussion between the two of them, Scott leaned toward the car and 
said ``Daddy, they want to search the car.''
    At that time, Uncle Nu'man and I got out of the car. I politely 
explained to Hughes that I was a public defender, and I asked what was 
going on. Hughes showed me a ``Consent to Search'' form that he had 
asked Scott to sign. Scott had not signed it, and I told Hughes that we 
did not consent to him searching anything and that my understanding of 
the law was that he could not search our car unless he was arresting 
Scott and was making a search incident to that arrest. Hughes informed 
me that such searches were routine, that he had never had any problems 
before with people refusing consent, and that ``if we had nothing to 
hide, then what was the problem.'' I responded we had a right not to be 
searched and that this is not a police state. My uncle told him that he 
was not going to allow him to search all of our things out there in the 
rain. I asked Hughes what justification he had for this request, and he 
simply replied that ``he wanted to search the car.'' He also mumbled 
something about ``problems with rental cars coming up and down the 
highway with drugs.'' I told him that we were coming from the funeral 
of my grandfather, the late Rev. G.R. Wilkins, Sr., in Chicago and that 
we were driving all night so that I could make a court appearance in 
D.C. I told Hughes that if he did not believe me, I would get a copy of 
the obituary from the trunk. He responded that ``he did not want to see 
any obituary, he wanted to search the car.'' We continued to refuse, so 
he informed us that we would have to wait for a narcotics dog to 
arrive. We got back inside the car.
    At 6:15, about fifteen minutes after we got back into the car, my 
uncle and I got out to speak with Hughes. By this time, Officer 
Syracuse, another Maryland State trooper, had joined him. My uncle 
asked Hughes whether he was going to write Scott a ticket, and he 
responded that he was going to give him a warning. My uncle asked him 
how much longer for the dog, and Hughes said probably about five more 
minutes. My uncle asked him to write the warning now so that we could 
be on our way. Hughes refused, stating that we would have to wait for 
the dog. I told Hughes that what we was doing was wrong, because the 
United States Supreme Court had ruled, in a 1985 decision called United 
States versus Sharpe, that he could not detain us for a dog search 
unless he had reasonable, articulable suspicion that we were carrying 
drugs and that he has no such reasonable suspicion in this case. I also 
told that he was supposed to detain us for as brief of a time as 
possible, that it had already been at least twenty minutes, and that 
the detention was therefore too long. Hughes pretty much ignored my 
citation to legal authority and informed me again that this was 
``routine,'' that they did it all the time, and that we would just have 
to wait.
    At 6:26, Sergeant Brown from the Allegheny County Sheriff's 
Department came to the car and informed us that he was going to be 
taking a dog trained in the detection of narcotics around the car. 
Brown told us that we had to step out of the car to the curb. We told 
him that we were not getting out of the car, because it was unnecessary 
and it was raining. When I ask Brown why we had to get out of the car, 
he said that it was procedure and that it was for our safety from the 
dog. We informed him that we felt a lot safer inside the car, with his 
dog outside. Hughes then told us that if we did not cooperate, ``we 
could not get through this.'' Brown took my uncle's driver's license at 
that time, and we got out of the car.
    The four of us stood outside in the rain while Brown slowly and 
thoroughly took his German shepherd around the Cadillac. The dog 
sniffed everything, but it never barked or did anything unusual. 
Several cars passed us along the highway during this time. When Brown 
finished, we were told that we could get back inside the car.
    So there we were. Standing outside the car in the rain, lined up 
along the road, with police lights flashing, officers standing guard, 
and a German Shepherd jumping on top of, underneath, and sniffing every 
inch of our vehicle. We were criminal suspects; yet we were just trying 
to use the interstate highway to travel from our homes to a funeral. It 
is hard to describe the frustration and pain you feel when people 
presume you to be guilty for no good reason and you know that you are 
innocent. I particularly remember a car driving past with two young 
white children in the back seat, noses pressed against the window. They 
were looking at the policemen, the flashing lights, the German 
Shepherd, and us. In this moment of education that each of us receives 
through real world experiences, those children were putting two and two 
together and getting five. They saw some black people standing along 
the road who certainly must have been bad people who had done something 
wrong, for why else would the police have then there? They were getting 
an untrue, negative picture of me, and there was nothing in the world 
that I could do about it.
    A few minutes later, Hughes returned to the care with the two 
driver's licenses and a $105 ticket for Scott. At 6:34 a.m., we finally 
continued on our way. In addition to the anger, frustration and 
embarrassment, the detention caused us to hit the peak of rush hour 
traffic on I-270 and the beltway, and I missed my 9:30 court 
appearance.

                            II. THE PROFILE

    After such a humiliating and degrading experience, my family and I 
were determined to take whatever action we could to ensure that 
something like this would never happen to anyone else. We decided to 
take legal action, and were fortunate to obtain the services of the 
Maryland Chapter of the American Civil Liberties Union and the law firm 
of Hogan & Hartson. Once we begin the legal process, one of the first 
documents we received from the Maryland State Police was the now 
infamous ``Criminal Intelligence Report,'' a blatant racial profile.
    The Criminal Intelligence Report discussed the crack cocaine 
problem in the Cumberland, Maryland area, and recklessly and 
indiscriminately advised state troopers that the traffickers ``were 
predominately black males and black females'' and that these dangerous 
armed traffickers generally traveled early in the morning or late at 
night along interstate 68, and that they favored rental cars with 
Virginia registration. (Attached as Exhibit 1.) Well, we fit the 
profile to a tee. We were traveling on I-68, early in the morning, in a 
Virginia rental car. And, my cousin and I, the front seat passengers 
were young black males. The only problem was that we were not dangerous 
and armed drug traffickers.
    It should not be suspicious to travel on I-68, early in the 
morning, in a Virginia rental car. And it should not be suspicious to 
be black. Yet the Criminal Intelligence Report, which was issued just 
two weeks prior to our incident and posted in the barracks to which 
these troopers were assigned, encouraged them to believe that they were 
justified in stopping and searching us ``because they had problems with 
drugs and rental cars,'' as Trooper Hughes related to me on the highway 
when I was imploring him for an explanation. These troopers had taken 
some information about a small number of individuals and generalized it 
to apply to any black person in a rental car. That simply was not 
right.
    And it wasn't even good police work either. The experts from the 
training academy of the Maryland State Police testified in depositions 
that profiles do not work well for highway drug interdiction. Drugs are 
found in all types of vehicles, driven by people of every race and age, 
and in various different circumstances. Thus, the experts testified, 
any profile developed would either be too narrow, excluding potential 
trafficking situations, or too broad, making nearly everyone a drug 
trafficking suspect.

                          III. THE SETTLEMENT

    In January 1995, we settled the lawsuit. (See Exhibit 2.) The 
Maryland State Police (MSP) agreed to, among other things:
    1. Pay a modest financial settlement of $50,000 in damages to the 
four of us who were in the car and $46,000 in attorneys fees for the 
three years of legal work done by our lawyers.
    2. Prohibit the use of race-based drug courier profiles as a law 
enforcement tool. The new MSP policy would ``specifically prohibit 
consideration of race as a factor for the development of policies for 
stopping, detaining, or searching motorists.''
    3. Train all new and previously hired troopers on the contents of 
the new policy.
    4. Maintain computer records of all traffic stops in which a 
consent to search is given by a motorist or a motorist is searched with 
a drug-sniffing dog. Information about the date, time, reason for the 
stop and race of the people stopped would be collected. This 
information would be collected for several years and be forwarded on a 
quarterly basis to the federal judge monitoring the lawsuit and us, the 
plaintiffs.
    5. Discipline troopers who violated the non-discrimination policy 
or failed to maintain proper documentation of stops and searches.
    6. Remain subject to the jurisdiction of the federal court if the 
computer records showed a pattern and practice of discrimination, so 
that we, if necessary, could seek further equitable relief.
    My family and I, with the help of the ACLU and Swidler, Berlin, 
Shereff Freedman, LLP., began to monitor the MSP with the hope that the 
suffering we endured would be stopped or minimized by the Settlement.

                            IV. THE OUTCOME

    I wish that I could report a happy ending, but that is not yet 
possible. Unfortunately, the MSP data began to show a disturbing trend 
immediately, which continued through 1997. During that period, MSP data 
showed that 70-75 percent of the people searched on I-95 were African-
American, though African-Americans were only 17% of the drivers on the 
highway and only 17 percent of the traffic violators.
    The disparities raised serious questions. Initially, the MSP 
responded by arguing that since 70-75% of the people who had illegal 
drugs or other contraband seized from them were African-American, there 
was actually no disparity at all.
    But those numbers told only half of the story. Because we had the 
more detailed computer records from the Settlement, we learned that:
    1. For every 100 blacks searched, and every 100 whites searched, 
the number of people found with drugs or contraband was almost exactly 
the same. Thus, if you used the practices of the MSP and searched 100 
blacks, you would find drugs just as many times as when you searched 
100 whites.
    2. However, for every 100 whites searched by the MSP, over 400 
blacks were searched. This disparity in law enforcement use of traffic 
stops and searches was therefore the sole explanation for the fact that 
70-75% of the people arrested for drug violations were African-
American.
    3. This disparity existed despite a lawsuit, a settlement, new 
policies, updated training, and the knowledge that MSP supervisors, the 
ACLU and a federal judge were monitoring traffic stops by MSP troopers.
    We were therefore forced to seek further court action against the 
MSP, because the data showed a serious violation of the Settlement 
Agreement. Indeed, we believe that the subsequent events have shown 
that while the MSP had issued a policy statement on paper, they had 
done little or nothing to enforce it. In addition, a new class action 
lawsuit was filed in 1998 on behalf of the Maryland NAACP and minority 
motorists who have been targeted for discriminatory stops and searches 
on I-95.
    Let me hasten to add that this problem is in no way unique to 
Maryland. On the contrary, it is a nation-wide problem, and the ACLU 
and other organizations have begun, or are developing, race-profiling 
litigation in about a half dozen states in addition to Maryland. 
Moreover, the Civil Rights Division of the U.S. Department of Justice 
in December 1999 entered a comprehensive consent decree with the State 
of New Jersey concerning profiling by the State Police there. (And, in 
just the last two months, the Justice Department entered a similarly 
comprehensive agreement with Montgomery County, Maryland.) 
Unfortunately, the limited statistical evidence and anecdotal 
information suggest that the problem most likely exists in many States.
    Also, it is not a problem with all or even most police officers. 
The statistics that the MSP gathered pursuant to the Settlement show 
enormous variation among troopers. A relative few singled out 
minorities consistently, while most did not, and many troopers seemed 
to be even-handed in terms of race. What is more, troopers who are 
even-handed seemed equally effective in locating contraband. We are 
convinced that effective policing does not require race-targeting, 
fairness is not at war with effective law enforcement.
    In conclusion, because this is a national problem, a national study 
is needed. And while a nationwide study of the issue is not a panacea, 
it is a good first step. Only through such a study can we obtain better 
knowledge, better understanding, and perhaps better solutions. I 
therefore urge you to vote in favor of S. 821.
    Thank you.

    Senator Ashcroft. It is now my pleasure to call upon Mr. 
Curtis Rodriguez, from San Jose, CA.
    Mr. Rodriguez, thank you for coming, and you will notice 
these lights are designed to coach you as to when your time is 
getting short. The yellow comes on, and when the red comes on, 
you should think about the next panel.

                STATEMENT OF CURTIS V. RODRIGUEZ

    Mr. Rodriguez. Good afternoon, Mr. Chairman, Senator 
Feingold, Senator Kennedy. I would like to thank you for the 
opportunity to convey to you the reality of racial profiling in 
the Latino community, and also for conducting these hearings.
    The practice of racial profiling is common knowledge in the 
Latino community. It is unfortunately common experience. My 
last experience occurred on June 6, 1998. I was traveling with 
an associate of mine, Arturo Hernandez. Both of us are criminal 
defense attorneys. We were traveling on highway 152, Pacheco 
Pass. It is a mountainous, rural area.
    As we were driving back into San Jose, we began to observe 
a number of stops taking place on Pacheco Pass. The first stop 
was of a dark-skinned Latino driver and it appeared that his 
vehicle was being searched, which doesn't really surprise us. 
We are both familiar with drug interdiction operations and it 
seemed fairly normal for that type of operation.
    But it wasn't too long afterwards that we ran across a 
second traffic stop occurring and it was the same pattern. It 
was another Latino driver. His vehicle was also being stopped. 
Shortly thereafter, we observed a third stop, the same pattern 
of a dark-skinned Latino driver. One of these drivers appeared 
to be in the process of moving. He had a pickup truck with a 
mattress, box spring, a chest of drawers in the back, and 
basically anybody who has ever moved knows that it is a big 
hassle. And this guy was outside of his vehicle and the 
driver's side door was open and an officer was searching his 
vehicle.
    Well, at this time Arturo and I basically came to the same 
conclusion that it appeared that they were targeting Latinos, 
and Latinos only. As we continued westbound on 152, we 
encountered a fourth stop in the same pattern, and a fifth 
stop. By now, it struck us as very, very strange that with the 
percentage of Latinos in California, basically we had run 
across five stops, all Latinos, within the space of about 5 to 
10 minutes, maybe 15 minutes. And given the length of the stops 
where an officer interrogates and does whatever else he does, 
they were basically occurring simultaneously. We counted 
between 10 and 12 CHP and law enforcement vehicles on Pacheco 
Pass, which is usually patrolled by maybe one or two at most.
    At that point, of course, I was very intent on just getting 
out of there without being stopped. So I made sure my 
speedometer was right at the six and five, and made sure that 
my vehicle was tracking properly because I didn't want to give 
anybody a reason to stop me. Well, that proved to be a failure; 
it made no difference. I was pulled over probably a minute 
after we observed the last stop.
    The CHP unit came upon me in a bend in the freeway, in the 
highway there, and he was coming so fast he almost rear-ended 
me. Then he kind of pulled back a little bit and followed me 
for about 20 to 30 seconds and then pulled me over. When I 
asked him why he had stopped me, he indicated to me that my 
vehicle had touched the sideline of the lane and that I had 
turned my lights on.
    Now, on this particular section of the highway it is a 
headlight testing area where you are supposed to turn your 
headlights on. I believe that is to prevent accidents because 
it is a single lane in each direction at that point. So I 
indeed had turned my headlights on, but I at no time touched 
the sideline of the lane that I was traveling in. So, to me, 
that was a fabrication; it was a fiat stop. I said you did 
something, so you are being stopped.
    At that point, he asked for license, registration, 
insurance papers. I produced those for him, and then he 
proceeded to ask us if we had any weapons in the vehicle, and I 
responded to him, no, we don't have any weapons. His reply was, 
well, I am going to search your vehicle for weapons. And at 
that point, I objected. I said I don't want you to search my 
vehicle for weapons. I am not giving you permission to do so. 
And his reply to me was essentially, I don't need your 
permission, I am in fear for my personal safety.
    At that point, we advised him that he was dealing with two 
criminal defense attorneys who were well-versed in criminal 
procedure and search and seizure law, to which he basically 
responded that he was ordering us out of the vehicle and he 
would be conducting a search. But the scope of the search 
changed somewhat. Before, he was going to search the vehicle 
for weapons; after he found out that we were lawyers, he took 
his two index fingers and delineated an area around my 
passenger, Arturo Hernandez, and said, I am going to search the 
area around your passenger, indicating that he had observed 
Arturo to have made suspicious movements.
    I found this unbelievable for a number of reasons, the 
first being that my vehicle, a 1995 Mazda Millennia, has a 
tinted rear windshield and I don't think he saw inside the 
traffic compartment. And if he had truly believed that he 
feared for his personal safety, I think he would have patted 
down Arturo to make sure he didn't have weapons. He never did 
that.
    He ordered us out of the vehicle and searched that area 
around the passenger, after which he ordered us back into the 
vehicle, where we sat for about 15, 20 minutes while he and his 
associate, an agent with the Bureau of Narcotics Enforcement, 
appeared to discuss what was going on. They also had a canine 
in the back seat of this patrol unit that they were in. They 
took our papers, my license, Arturo's license, and showed it to 
the drug-sniffing dog, who did not alert on them in any 
fashion. So we were handed these back and sat there and watched 
through the sideview mirror these two officers discuss the 
matter.
    I have watched cops many times, and after an arrest or 
during a stop it seems police officers are often in a very good 
mood. But these officers were very, very serious; they weren't 
laughing, they weren't joking. They were having a very, very 
serious discussion, and I have always suspected the reason that 
that was so was due to the fact that they were dealing with two 
attorneys here and they were trying to figure out the best way 
to save face. So after a return to the vehicle, they told us we 
could go and that they were sorry for the delay, but the system 
was down. I am not sure what exactly that meant, but thereafter 
we left.
    While talking with this officer, we did question him about 
the pattern that we had observed, and his response was a total 
non-sequitur. His response was, yesterday I arrested a person 
who wasn't a Latino, which was the most vague of denials.
    When I was given the opportunity to present my testimony 
about this proposed legislation, I would just encourage to make 
this legislation as broad as possible and the gathering of 
information mandatory, because it occurs to me if only 
information gathered is gathered voluntarily that those 
officers out there who are involved in racial profiling will 
choose not to participate.
    I would thank the Senators for their attention, and I would 
also thank the National Council of La Raza for their efforts in 
making my presence here possible.
    Thank you.
    [The prepared statement of Mr. Rodriguez follows:]

               Prepared Statement of Curtis V. Rodriguez

    Mr. Chairman, Senator Feingold and Members of the Subcommittee, 
thank you for holding this hearing on this very important issue, and 
for allowing me to testify.
    I am a practicing attorney and member of the California State bar. 
I am married and the father of two children, ages 3 and 7. I was raised 
in a middle class neighborhood in south San Jose, Santa Clara County in 
the San Francisco bay area. I graduated from Santa Clara University 
with a Bachelor's degree in history in 1980. I graduated from UCLA 
School of Law in 1983. I have been in private practice since that time, 
for the majority of that time in solo practice.
    I have had the unfortunate experience of having been the victim of 
racial profiling conducted by law enforcement agencies throughout my 
life.
    The first time I was a victim of racial profiling was when I was 17 
years old. I was driving my father's Mercedes Benz when two 
plainclothes police officers stopped me. They proceeded to interrogate 
me for about 10 minutes, asking the name of the owner of the vehicle, 
the address, what I was doing with cash, where I was coming from, where 
I was going. When I asked them why they stopped me, they said that I 
didn't go with the car. Not having yet graduated law school, I did not 
know that this was not a legal cause to stop me. I was not under 
suspicion of having committed any crime. But because I was not white, 
those officers exercised their authority to unlawfully detain me and 
question me.
    The second time I was a victim of racial profiling was when a 
California Highway Patrol (CHP) unit on Highway 152 by the reservoir 
stopped me as I was driving home from UCLA with my personal belongings. 
I had just completed my first year of law school. This CHP officer did 
not cite me for speeding or any other infraction. Neither did he give 
me any warnings. He merely pulled me over and proceeded to interrogate 
me. He then let me go.
    For me, three strikes and you're out applies to racial profiling. 
The third time occurred on June 6, 1998. I was driving back from doing 
some investigation on a criminal case in the San Joaquin Valley. In the 
car with me was Arturo Hernandez, another criminal defense attorney. I 
was driving back into Santa Clara valley in the late afternoon.
    While on the drive back, we began to notice a large number of law 
enforcement vehicles, between 10 and 12 units. We also noticed that it 
appeared that only Latinos were being stopped and searched. We observed 
3 separate stops being conducted of eastbound vehicles. Each vehicle 
had Latino occupants who were being stopped and searched.
    We then observed two more stops of westbound traffic. The same 
pattern asserted itself. Again Latinos were being pulled over and 
searched.
    Not wanting to be one of the unlucky people who were getting pulled 
over, I made sure that I was not exceeding the speed limit and that my 
vehicle was tracking properly. However, my efforts failed.
    Shortly after observing this fifth stop, I was pulled over by a CHP 
unit with a CHP officer and a Bureau of Narcotics Enforcement (BNE) 
officer inside. The CHP officer told me that I had turned on my lights 
and had touched the line marking the side of the lane. I had turned on 
my lights but on that stretch of highway 152 it was required. I did not 
touch or cross over the side line as the officer asserted.
    The CHP officer then proceeded to ask if we had any weapons in the 
vehicle. I responded that we did not. He then told me that he was going 
to search the vehicle. I objected to this stating that I was not giving 
him my permission to search. He responded that he did not need any 
permission as he was in fear for his personal safety. At that point, we 
advised him that we were lawyers and that he was essentially ordering 
us from the vehicle. He agreed and ordered us from the vehicle. But he 
changed the scope of his search saying that he would be searching only 
the area around my passenger, outlining the area with his two index 
fingers. He then searched. Afterwards he permitted us to return to the 
vehicle and had a long discussion with his BNE associate.
    While we were stopped, he took my driver's license, my passenger's 
driver's license, my registration, and other papers and took them back 
to his patrol vehicle. He then showed them to the occupant of the rear 
of his unit, a canine. It was clearly a drug-sniffing dog.
    We were detained for about 20 minutes and then released with no 
ticket, no warning, and only a vague apology about the delay, claiming 
some technical snafu was responsible.
    What occurred that day was an outrage and an offense to every 
person who believes in equal treatment under the law. Every stop I 
witnessed that afternoon on Pacheco Pass was of Latinos. They appeared 
to be the only ethnic group that was targeted for stops and searches. I 
believe that such practices have gone on long enough and that it is 
time for such practices to stop.
    I have since filed an action in federal court to put an end to such 
racist and illegal practices. As far as I know, no such legal challenge 
has been raised in the civil context because the only ones raising the 
issues are criminal defendants. I do support any legislation, such as 
the ``Traffic Stops Statistics Act'' sponsored by Senator Feingold, 
that would assist in the gathering of information concerning racial 
profiling and would encourage such legislation so that the scope of the 
problem can be fully measured.
    This action is not a case of minorities against the police. This is 
an action about the equal treatment of all people. This is about law 
abiding citizens who believe in the Constitution, who believe in equal 
protection, taking a stand against a small clique within the legal 
community who believe it is okay to target people on the basis of their 
skin color.
    Please understand that I have no bias against law enforcement. I 
have close friends and relatives who are deputy sheriffs, San Jose 
Police Officers and even agents in the DEA. These are people whom I 
would trust with my life. These are good, honest, hardworking people 
like the majority of law enforcement officers. Unfortunately, there are 
others within law enforcement who insist on conducting racially based 
methods of operation or who insist on making stops on the basis of race 
and conducting illegal searches on the same basis. These people 
undermine the confidence that the community has that their law 
enforcement agencies will match their conduct to the requirements of 
the law they are supposed to enforce.

    Senator Ashcroft. It is our practice now to have some 
questions from the members of the subcommittee, and I would 
turn first to the ranking member.
    Senator Feingold. With your permission, Mr. Chairman, 
Senator Kennedy needs to get to a hearing on the patient's bill 
of rights. I would love it if we could let him go ahead of me.
    Senator Ashcroft. Without objection.
    Senator Kennedy. Thank you.
    Sergeant, I understand you were in the service for 17 
years. Is that right?
    Sergeant Gerald. Eighteen years now, sir.
    Senator Kennedy. Eighteen years?
    Sergeant Gerald. Yes, sir, 18 years now.
    Senator Kennedy. And you have received meritorious 
citations, have you?
    Sergeant Gerald. Yes, sir. The highest award I have is the 
Bronze Star, sir.
    Senator Kennedy. And as you mentioned, you have served in 
Somalia?
    Sergeant Gerald. Somalia and the Gulf War, sir.
    Senator Kennedy. How long were you in Somalia?
    Sergeant Gerald. In Somalia, at least 4 months, sir.
    Senator Kennedy. Four months?
    Sergeant Gerald. Four to 5 months, sir.
    Senator Kennedy. And in the Gulf War for how long?
    Sergeant Gerald. For the entire 6 months, sir.
    Senator Kennedy. Now, you are in a continuing education 
program?
    Sergeant Gerald. Yes, sir. I graduated from the University 
of Maryland last semester with a business marketing degree. 
Right now, I am working on my graduate program through Towson 
State University on my M.B.A. As a matter of fact, I have got a 
class tomorrow night and Saturday morning.
    Senator Kennedy. I guess you were trained earlier to 
perform what function in the military?
    Sergeant Gerald. Well, I am a logistician, and like I said 
before, my company commander--we do health and welfare 
inspections of our troops, and the MPI, the CID and military 
police----
    Senator Kennedy. Is that competitive in order to get 
selected for that responsibility?
    Sergeant Gerald. Well, what it is, sir, is a company 
commander will request for assistance from his logisticians 
because we are in charge of the billets, and so forth, and the 
property that belongs to the company commander, sir. And it 
shows how the dogs react when they are looking for contraband 
and narcotics, sir.
    Senator Kennedy. As I understand it, just from your own 
record, you haven't had any problems with the law.
    Sergeant Gerald. No, sir. As a matter of fact, when they 
stopped me, they were kind of confused. They couldn't find any 
traffic tickets or any outstanding warrants at all for both 
identifications, sir.
    Senator Kennedy. Well, it shouldn't happen to anyone what 
happened to you, but here is an example of someone who is in 
the service of the country and has been someone whose record in 
the military is exemplary, has been selected for important 
responsibilities, and certainly by disposition and nature and 
bearing is someone whom the country has to be proud of.
    Sergeant Gerald. Thank you, sir.
    Senator Kennedy. And this kind of humiliation and activity, 
I think, is just an enormous disservice. And we hope you will 
extend that to your son.
    Sergeant Gerald. Yes, sir.
    Senator Kennedy. Let me just ask our final two witnesses, 
Mr. Chairman, there will be those who will say, well, you could 
go out there and find these two witnesses; you know, we are a 
big country and a lot of things happen. Since you have 
experienced the incidents that you did, have you found out that 
this is something that is happening out there in the real 
world?
    I mean, will there be those who will watch these hearings 
and say, look, you have got three people there and it has 
happened, but it really isn't a problem in the United States 
today, and they just happened to get the wrong people and they 
came forward and have been willing to challenge the system?
    How would you respond or react to whether this is something 
that we as a society ought to be willing to face up to, because 
basically that is what we are talking about with the 
legislation? We have got to be able to say that this is 
something of concern to all Americans. Could you help me out on 
that, each of you, please?
    Mr. Wilkins. Well, Senator Kennedy, I can speak most 
directly and personally about Maryland because we have been 
gathering data there since 1995 now. You know, there is really 
no way that I see that you can dispute what that data shows 
that there are scores of people who are stopped. And when you 
look at the reasons for why they were stopped and searched, you 
know, nervous, just really no articulable manners or anything 
that was suspicious at all.
    And there is this huge disparity and there is really no way 
that it can be explained. Unfortunately, because of the 
continuing problems in Maryland--and think about it, we settled 
the case in 1995. All the troopers went through new training. 
They knew that these reports were being done. They knew that 
they were being sent to a Federal judge, they knew that they 
were being sent to the ACLU, and we still had all of these 
disparities in Maryland over the course of the years after the 
settlement. And so I think that the only thing you could 
conclude from that is it is a huge problem.
    Senator Kennedy. Mr. Rodriguez.
    Mr. Rodriguez. Yes. Senator Kennedy, I do believe that the 
problem is widespread. While I don't have any particular 
information, statistical studies, from California, we are in 
the process of gathering that now. But from my own experience 
and just speaking with the large extended family that I have--
we are talking about 12, 13 sets of aunts and uncles and 
cousins that I have. I have an uncle who worked at IBM and 
drove a Porsche, and although I am sure some of those stops 
were because he might have been driving a little too fast, a 
number of those stops were very close to his own home, for no 
particular reason.
    I can speak to the experience of some of my younger cousins 
who will tell me that they were stopped for no reason. They 
were searched and they were hassled by police officers or 
highway patrolmen. So this is something, as I said, that is a 
very common experience in the Latino community and is something 
that we are very concerned about. And I think the reason that 
there are not more people available is that the reality at 
least in law enforcement is that you have two classes of people 
who get stopped.
    The one class of people who are doing nothing and are 
completely innocent of any infraction are let go or given some 
minor ticket, and they would just as soon forget the whole 
matter. The other class of people are the ones that get caught 
with dope, with narcotics, and they go into court and they say, 
hey, these guys were targeting Latinos. But it becomes a 
question of credibility as to whether you believe the law 
enforcement agent or you believe the narcotics trafficker. 
Either way, I believe that is what has contributed to 
permitting this type of practice to go on for so long and to be 
unchallenged for so long.
    Senator Kennedy. Thank you. I want to thank our witnesses 
for very powerful, powerful testimony.
    Thank you, Mr. Chairman.
    Senator Ashcroft. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I want to also 
thank all the witnesses on this panel for your extraordinary 
testimony. It can't be very easy for you to talk about these 
experiences. If something like this happened to me or a member 
of my family, I suppose I would want to erase it from my 
memory.
    But you are doing a great service to your community and to 
the country by speaking about it openly. Only by shining a 
spotlight on this horrible problem can we build the political 
consensus necessary to do something about it. And I assure you, 
I don't think there is anybody who could listen to what you 
have said who wouldn't be disgusted by the events you describe.
    So I would like to focus for a minute on one aspect of what 
I call the ripple effect of racial profiling that I find 
particularly saddening, even chilling, and that is the effect 
on children and young people. There can't be any doubt that 
this kind of experience can scar a young person permanently. I 
have also heard many times from parents in minority communities 
that they feel compelled to educate and warn their youngsters 
about the possibility that they will be stopped for no reason, 
and instruct them on how to behave to avoid escalating the 
situation.
    I have had a lot of difficult conversations with my sons 
and daughter, but I have never had to warn them that there is a 
good chance they are going to be stopped and harassed by police 
officers. So as a parent, it makes me enormously sad to hear 
that this kind of conversation has to take place in many 
families.
    I wonder if each of you could comment briefly on the impact 
that racial profiling has on young people, either with regard 
to your own experience or that that you have heard from others. 
I would start with Mr. Rodriguez.
    Mr. Rodriguez. Yes, thank you. For my part, my children are 
fairly young. They are 3 and 7 years old, and we haven't really 
gotten to the point where they are in any position where they 
would experience this kind of encounter. However, I do believe 
it is necessary that they understand that for the most part 
people in law enforcement are hard-working, honest people, but 
there will always be an element, or at least there is presently 
an element that will conduct their activities on the basis of 
race.
    Fortunately, I have a sister who is a deputy sheriff, I 
have a cousin who works in the DEA, and so these are positive 
role models for them. But I do have to make them aware that, 
yes, you have to be aware that there may come some point where 
you will be stopped by an officer based upon your race. And 
your only options out there on the street are to obey the 
officer, do what he tells you, because failure to do so could 
lead to your being arrested or even being hurt in some fashion.
    And that is, of course, always a danger. If you are dealing 
with officers who take it upon themselves to deal with you on a 
racial basis, you have the possibility that it could escalate 
into something violent. And I believe what has happened in the 
past is when those incidents do escalate into violence, usually 
it is violence committed by the law enforcement officer against 
the victim of the racial profiling.
    I don't think I have heard of an incident yet where one of 
these people has taken to attacking a police officer. And that 
is fortunate, but that is not something we should really have 
to worry about or have to deal with in our everyday lives. We 
are not looking for special treatment. We just wanted to be 
treated like everybody else, and if I am driving 85 miles an 
hour down Highway 5, I should be stopped and I should be 
ticketed. And if I do that and I get ticketed, I deserve what I 
get. But I don't expect to be driving down the street and get 
stopped and interrogated because they tell me I don't look like 
I go with my car.
    Senator Feingold. Thank you, Mr. Rodriguez.
    Mr. Wilkins.
    Mr. Wilkins. Well, my son is only 17 months old and I hope 
that I never have to have this conversation with him, but 
unfortunately I probably will at some point. From the young 
people that I talk to, I think that this is very corrosive. 
Just the perception that it exists is very corrosive, and in 
reality when incidents do happen and people talk about them and 
the word spreads, it just really feeds on that and causes 
people unnecessarily to look at all police officers or the 
whole judicial system or the whole legal system askance, you 
know, with disrespect or suspicion.
    And that is not good, and it is very scary when I look back 
at the written profile that the State of Maryland had that led 
to our stop, it really set up a dangerous situation by talking 
about how these were armed traffickers. There was even a line 
in there where it was said they are quoted as saying they won't 
even hesitate to kill a police officer, if necessary. And I was 
lumped in with these people, my family and I, in the mind of 
this trooper who dealt with us.
    I will have to make sure that my son someday understands 
that that can happen, that no matter what he does or no matter 
what is in his mind, if he were to object or to speak out with 
a police officer and might not intend to follow that up with 
violence, they may have a whole different perception. So he 
should be very careful in how he interacts in any situations 
like that.
    Senator Feingold. Master Sergeant Gerald, it was the 
testimony about your son that sort of led to this question, so 
I am curious about your response.
    Sergeant Gerald. Senator, I spoke to my son about this the 
day it happened. I was trying to keep a positive about 
everything, no matter what happened to me, and I spoke to my 
son about this. He is 14 right now. He was 12 back then when it 
happened. I explained to him I am an authority figure myself. I 
took an oath to protect the Constitution and defend this 
country against foreign and domestic enemies.
    And I told my son that I don't want you to stereotype law 
enforcement agencies because we only have a few bad apples who 
are doing this in the system. And he knows from my point of 
view and from his point of view that these officers that did 
this heinous crime were breaking the law, breaking the rules 
and regulations. That is why I explained to him that we need to 
do something about this as parents, as citizens, just to pass 
some kind of bill or law to monitor this kind of stuff.
    He really believes that the incident that happened out 
there in Oklahoma was an incident that shouldn't have happened 
for his future and for the other kids' futures. And I am glad 
that he went on the program a couple of weeks back because he 
was holding this inside for the longest time, and you just 
don't know how he feels now about it knowing that people are 
hearing his story.
    I am just glad to be here to express my feelings as a 
parent. But I just try and teach my son the right thing to do, 
and I think the right thing to do for us as citizens is to make 
sure this doesn't happen again.
    Senator Feingold. I hope you tell him that he is only 14 
years old, but he has already helped pass a law a lot earlier 
than I ever did.
    Sergeant Gerald. Thank you, sir.
    Senator Feingold. Thank you, Mr. Chairman.
    Senator Ashcroft. Let me, first of all, thank each of you 
for coming. I think this is a story that needs to be told and 
needs to be understood, and you each bring a unique perspective 
to this, so thank you very much.
    Master Sergeant Gerald, I wasn't clear. Did they alter your 
car? Did you say they drilled holes in your car?
    Sergeant Gerald. Yes, sir. As a matter of fact, the 
passenger side seat or floor board--he cut open the carpet to 
get to the floor board. So before he could drill into the floor 
board, he had to cut the carpet, take it apart, drill into the 
floor board. And after he drilled into the floor board, what 
really he did is he came to me, to my son and I--and since I am 
a logistician and I am in charge of property for the U.S. Army, 
he came to me and told me that I had military bolts in the 
floor board, which meant I had a secret compartment.
    Well, there is no such thing as military bolts in the Army, 
and I explained that to the officer. I order property for the 
Army and there is no such thing as that. But he still insisted 
that I had a secret compartment. So I explained to him that he 
needed to call my commander, and he didn't.
    Senator Ashcroft. Was anything ever done to repair or 
otherwise----
    Sergeant Gerald. No, sir. Everything that could not be 
taken apart with a drill, he tore it apart. My car is a two-
seater car, and anything that could not be taken apart, he tore 
it apart. I mean, he ripped it apart completely. In the back of 
the hatchback, some of the panel was just dangling there. The 
carpet was ripped up. Everything in the back under the trunk 
was ripped apart, and so forth.
    He laid everything on the ground. I asked him politely to 
put the floor board back, and at that point he said I called 
the officer a boy. And I said, no, I did not call the officer a 
boy; I asked if you are going to put the floor board back the 
way you found it. And then he kept saying, did you call Officer 
Perry a boy, in front of my son? And I said, no, I didn't, sir; 
I am asking if you are going to put everything back the way you 
found it.
    So the intimidation factor was still there and he made sure 
that he made an example of me by destroying most of my 
property. And what I did after that is I just called GEICO. I 
had to pay the bill myself. I made sure that my vehicle was 
back up to standards, sir, because I am going to pass that 
vehicle to my son and he knows that.
    Senator Ashcroft. So there was about $1,000 of damage, you 
said?
    Sergeant Gerald. Yes, sir; yes, sir. I took it straight to 
GEICO----
    Senator Ashcroft. Not counting the damage to your son?
    Sergeant Gerald. The emotional damage to my son and I is 
uncountable, sir. There is no measure for that, sir.
    Senator Ashcroft. Now, Mr. Wilkins has followed up and has 
an opportunity to sort of shape what happens in some respect by 
gathering data. Are you aware of anything that has happened as 
a result of your situation to change the operations in the 
settings where you were stopped, Mr. Rodriguez and Master 
Sergeant Gerald?
    Mr. Rodriguez. Mr. Chairman, I did file an action in 
Federal court last June and we are presently in the discovery 
stage of the litigation. We are also, as I said, in the process 
of gathering statistics, very, very interested, of course, in 
the records created and kept by the California Highway Patrol 
for the events of June 6. And basically we are seeking 
injunctive relief, first and foremost, to prevent the conduct 
of such operations in the future, but it will be a while still 
before we have an outcome.
    Senator Ashcroft. Master Sergeant Gerald, are you aware 
whether the situation and the situation in which you found 
yourself has occasioned any change in behavior or development 
of data or the like?
    Sergeant Gerald. Yes, I have. I have my lawyer representing 
me and has information dealing with that, sir, and he has all 
the facts, sir.
    Senator Ashcroft. Well, we have another panel and I want to 
personally thank you.
    We will take about a 6- or 8-minute break and then we will 
start with the next panel. I again want to, on behalf of the 
other Senators who are here today, thank you for coming and 
sharing your circumstances with us. Thank you.
    Mr. Rodriguez. You are very welcome.
    Mr. Wilkins. Thank you.
    Sergeant Gerald. Thank you, sir.
    [The subcommittee was recessed from 3:24 p.m. to 3:31 p.m.]
    Senator Ashcroft. Ladies and gentlemen, if we could 
reconvene the hearing, we have five more witnesses. We really 
have until about 4 p.m., and there are other pressing 
responsibilities, unless something happens with a vote and then 
we will be in a problem.
    I would like to call the remaining witnesses--Professor 
Harris, Mr. Johnny Hughes, Mr. John Welter, Mr. Rodney Watt, 
and the Honorable Leroy Jones--to the witness area and see if 
we can resume the hearing.
    Let me say to you that I would hope that you can try and 
confine your remarks to 5 minutes. I think we are going to have 
to be a little stricter on that than we have been, and I beg 
your pardon for running over a little with the first panel.
    But with that in mind, I want to also mention that we 
sought to have a number of folks available for contribution 
today who were unable to come. The Fraternal Order of Police, 
the International Association of Chiefs of Police, and other 
organizations that have expressed their opposition to the 
legislation were, due to scheduling difficulties, unable to 
attend. We have invited them to submit written testimony to 
ensure that all views on the legislation are fully represented, 
and we will keep the record open in order to accommodate them 
and any of you. If you are like me, I am driving away from the 
place and say, oh, I should have said this or that. We want you 
to have an opportunity for the next few days in order to submit 
testimony.
    With us today are Professor David Harris, Professor of Law 
at the University of Toledo College of Law, who has authored a 
report on this subject; Trooper Johnny Hughes, Director of 
Governmental Affairs for the National Troopers Coalition; 
Assistant Chief of Police John Welter from the San Diego Police 
Department; Officer Rodney Watt from the Highland Park Police 
Department, in Illinois; and the Honorable Leroy Jones, Jr., a 
New Jersey State Assemblyman.
    With that in mind, I would like to ask you to begin your 
testimony, Professor Harris.

  PANEL CONSISTING OF DAVID HARRIS, BALK PROFESSOR OF LAW AND 
VALUES, UNIVERSITY OF TOLEDO COLLEGE OF LAW, TOLEDO, OH; JOHNNY 
  L. HUGHES, NATIONAL TROOPERS COALITION, ANNAPOLIS, MD; JOHN 
WELTER, ASSISTANT CHIEF OF POLICE, SAN DIEGO, CA; RODNEY WATT, 
  PATROL OFFICER, HIGHLAND PARK, IL; AND HON. LEROY T. JONES, 
          JR., STATE ASSEMBLYMAN, STATE OF NEW JERSEY

                   STATEMENT OF DAVID HARRIS

    Mr. Harris. Thank you, Mr. Chairman, Senator Feingold, 
distinguished ladies and gentlemen. I thank you very, very much 
for holding this hearing and for inviting me to participate. I 
found your remarks at the beginning of the hearing strong and I 
applaud them greatly. I think that the changes that you look 
for in the bill are things that can strengthen it and make it a 
good piece of legislation, and I look forward to working with 
anybody on the committee to advance an important bill like 
this, S. 821.
    I want to spend my few minutes with you going to what I 
believe is the core of the issue here. You heard in the last 
panel from three gentlemen who had experienced racial profiling 
on a very personal level. We know that it is angering, we know 
that it is humiliating, we know that it can even be physically 
dangerous. And on the individual level, it causes a cynicism 
that eats into the fabric of our institutions and that has us 
all in its power because we all depend on the legitimacy of our 
police and our courts in order that our civil society be the 
great country that it is.
    But it goes beyond the individual level, too. This practice 
of racial profiling is important because it is a window, if you 
will, a manifestation of all of the most difficult and 
intractable issues that we face now as a country where race and 
criminal justice come together.
    If we can begin the process today of coming to grips with 
racial profiling and beginning to understand it, we can also 
begin to understand some of the other very difficult problems 
of race and criminal justice that we have, such as the fact 
that our prison populations are disproportionately minority, 
such as the fact that stereotypes pervade not just our civil 
life but law enforcement, too. All of those can begin with this 
bill today.
    This bill--I agree with Senator Kennedy--is a modest bill 
indeed. But every long journey begins with a first step, and 
this can be the first step along the path to understanding this 
practice and to making progress on these critical issues 
altogether.
    Let me make one point. The rest of my points I will leave 
for my written remarks which I ask be incorporated into the 
record. The one point I want to make here today is to echo 
Senator Feingold's comment earlier. Racial profiling is not 
good law enforcement. It is bad law enforcement, for a host of 
reasons, but let me give you a few.
    When I speak to groups, as I do, police groups, groups of 
all kinds of people, what I often hear is that racial profiling 
is a rational response to arrest statistics, that it is simply 
an unintended consequence of rational law enforcement policy 
because arrest statistics show that blacks and Latinos are 
disproportionately arrested and disproportionately involved 
with drugs. These arrest statistics are what is used to justify 
this practice.
    Well, I want to tell you today that that is wrong on the 
facts. The inferences drawn from it are wrong. It exposes this 
reasoning as the creature of stereotypes, and I believe it is 
nothing in the end but a self-fulfilling prophecy. Let me 
explain.
    Is it true that arrest statistics are higher for blacks and 
Latinos for drug crimes? Yes, it is true, but we have to think 
carefully about what that means. Arrest statistics for drugs 
are not like statistics for arrests for other crimes. Arrest 
statistics for drugs don't measure the incidence of those 
crimes; they measure law enforcement activity itself.
    There may be very good reasons why we decide to make drug 
arrests here rather than there, why we decide to deploy 
officers here rather than there. But what those arrest 
statistics measure are those policy decisions, those decisions 
on who we go after. Arrest statistics do not measure who is 
involved with drugs as users or who is involved with drugs as 
traffickers, and we do have some good information about those 
two things.
    There are 30 years of statistics on who is using drugs, at 
what rate, in what age groups, and so forth. And overall, over 
time, those statistics show very clearly that blacks do not use 
drugs in numbers that are out of proportion to their presence 
in the population. They are roughly 12 percent of the 
population and roughly 13 percent of the drug users.
    We also have numbers on drug trafficking. We get some of 
that from Mr. Wilkins' Maryland statistics where, as he has 
told you, the hit rates, the rates at which contraband is found 
in the cars of those who are searched, are the same for blacks 
and whites, statistically indistinguishable, belying the 
stereotypes.
    We also have data for the Customs Service. The Customs 
Service is the agency that searches people when they come into 
airports who might be suspected of carrying drugs. They use 
intrusive search techniques of one type or another ranging from 
pat-downs to body searches, and what those statistics show us 
is really stark: the hit rates for whites, 6.8 percent; hit 
rates for blacks, 6.2 percent; the hit rates for Latinos, 2.8 
percent--in other words, exactly the reverse of what the 
stereotypes would tell us.
    Well, what is the upshot here? The upshot is this: 12 
percent of the population, 13 percent of the drug users, yet 
blacks are 38 percent of all those arrested for drug crimes. 
That is why I say the arrest statistics measure law 
enforcement. Blacks are more likely to go to prison for drug 
crimes and they go for longer sentences. So the effect of 
racial profiling may be on the front end of the system, but it 
reverberates all the way through into the prisons.
    Now, why is this really bad law enforcement beyond what I 
have already told you? Because at the same time that we are 
paying too much attention to blacks and Latinos, white people 
are getting a free pass. The white traffickers and users are 
getting less attention than their numbers in the population 
would suggest. That is why I say it is a self-fulfilling 
prophecy.
    What this committee can do as a first step is to bring this 
legislation forward to begin the process of addressing this 
problem through collecting solid data that will tell us about 
the scope of the problem, the depth of the problem, and then we 
will have the information we need to make the correct policy 
decisions.
    Thank you very much.
    Senator Ashcroft. Thank you, Professor Harris.
    [The prepared statement of Mr. Harris follows:]

                 Prepared Statement of David A. Harris

    Good morning, distinguished ladies and gentleman. My subject this 
morning could not be more timely or--unfortunately--more familiar. I am 
here today to talk about racial profiling: the use of traffic offenses 
as an excuse--a pretext--to stop, question and search African-American 
and other minority drivers in numbers far out of proportion to their 
presence on the road. Police use this practice because there are 
officers who believe that having black or brown skin is an indication 
of a greater risk of criminality, and they therefore view all 
minorities as potential criminals. Skin color becomes evidence; the 
upshot is that all African-Americans and Hispanics become suspects 
every time they engage in the most common and prototypically American 
act: driving. Law enforcement officials try to explain profiling away 
as a rational response to crime, or as an efficient approach to 
policing. But the down and dirty of profiling is this: skin color used 
as evidence against thousands of innocent people every day.
    African-Americans, Hispanics, and other minorities have complained 
about this police practice for years. Yet some still deny that it 
happens, in the face of strong statistical evidence to the contrary. In 
New Jersey, a rigorous statistical study showed that race was the only 
variable that could explain which drivers were stopped by the New 
Jersey State Police. The statistician who performed the analysis 
described these numbers as ``literally off the charts'' in terms of 
their statistical significance. In April of 1999, after five years of 
bitter struggle, New Jersey officials from Governor Whitman on down 
finally admitted what had long been obvious to people of color: 
troopers were engaged in profiling on the Turnpike. In Maryland, 
statistics turned over to a federal court by the Maryland State Police 
after the settlement of a major public civil rights lawsuit challenging 
profiling showed that on Interstate 95, where 17 percent of the drivers 
were black, more than 75 percent of those stopped and searched were 
black. In my own study of four cities in Ohio, completed just last 
year, police were roughly twice as likely to ticket black drivers as 
they were to ticket nonblack drivers. When lower vehicle ownership by 
blacks was factored in, the ratio rose to two and a half to three times 
as likely. The Ohio results dovetail with the results of ticketing 
studies in Texas, North Carolina, and other states.
    The Traffic Stops Statistics Act, S.B. 821, can be the beginning of 
a serious discussion, and perhaps a resolution, of these issues. That 
bill, the first of its kind, proposes a study that would include the 
collection of statistics on all routine traffic stops in a national 
sample of jurisdictions. It would give us the first chance to get a 
firm and comprehensive grip on the scope and scale of the problem known 
to many as ``driving while black.'' The idea behind the bill is to take 
a first step on the road toward addressing these practices by gathering 
the necessary evidence to lay the denials to rest once and for all. 
With data collection of all kinds becoming a standard practice in many 
aspects of law enforcement (New York's ``COMPSTAT'' program for mapping 
crime comes to mind), it seems odd that as of the beginning of last 
year, no state or major city had any mechanism in place for systematic 
collection of data on all traffic stops, a key law enforcement tactic 
that had been used for years. There were no numbers collected anywhere 
that would allow one to see the patterns of which drivers were stopped, 
how often, and for what. I argued in an article I published in 1997 
that I had the privilege of presenting to the Congressional Black 
Caucus that legislation should require the collection of such 
statistics. S.B. 821, the bill we are here to discuss today, does just 
that. S.B. 821 requires participating police departments to collect 
comprehensive statistics for each and every routine traffic stop. 
Police would collect crucial data for analysis--age, race, and 
ethnicity of the driver, the reason for the stop, whether or not a 
search was conducted, the legal rationale for the search, whether any 
contraband was found, and what it was. The Justice Department would 
perform an initial analysis on currently available data within 120 days 
of the bill's passage; after two years of data collection, the 
Department would issue a comprehensive report containing a study of all 
the information collected.
 state and local data collection legislative proposals and initiatives
    The Traffic Stops Statistics Study Act has already had an 
important, perhaps unforeseen impact, beyond the Congress. The bill has 
inspired a host of similar measures at the state level. It has also 
become the catalyst and the template for data collection by local law 
enforcement agencies all across the country. These include police 
departments in Houston, San Diego, San Jose, Salt Lake City, San 
Francisco, and more than a hundred other municipalities, as well as 
state police departments in Florida, Washington State, Michigan, and 
other states. This past April, North Carolina became the first state to 
pass a bill requiring data collection. The head of the North Carolina 
Highway Patrol, Colonel Richard Holden, has said that he was glad to 
support this effort because, quite simply, ``it was the right thing to 
do.'' In June, Connecticut became the second state to pass such a law. 
It is even more comprehensive than North Carolina's, since it covers 
every police agency in the state. (North Carolina's legislation applies 
only to stops by the Highway Patrol.) In just the last twelve months, 
the number of state legislative proposals to begin data collection on 
traffic stops grew from just a few to twenty, with new efforts 
sprouting all the time. There are now or have been bills pending in, 
among other states, California, Pennsylvania, Washington State, Utah, 
Missouri, Massachusetts, South Carolina, Illinois, Florida, Ohio, 
Maryland, New Jersey, Virginia, Rhode Island, and Oklahoma. Almost all 
of these bills are variations on the theme of comprehensive data 
collection first put forth in the Conyers bill. Most are customized, in 
some sense, to their individual states.
    These actions and initiative manifest a real desire to begin 
correcting what people of color everywhere know to be a long-standing 
problem in their relationship with police and the entire criminal 
justice system. Bills requiring data collection (and, in the case of 
Connecticut, requiring anti-profiling policies) have become the way to 
focus this energy and begin the long journey toward addressing this 
civil rights issue on the state level.

   SIX REASONS THAT COMING TO GRIPS WITH RACIAL PROFILING IS IN THE 
                      INTEREST OF LAW ENFORCEMENT

    It is easy to understand why those immediately affected by 
profiling would want the country to confront the problem and root it 
out. It is an experience that produces fear, anger, humiliation, and 
can at times be physically dangerous. Perhaps less well understood is 
the fact that law enforcement itself has a huge stake in coming to 
grips with the problem. Simply put, police officers and law enforcement 
agencies have a tremendous amount to lose if profiling continues. 
Conversely, they have much to gain by addressing the problem 
forthrightly and directly.
1. Profiling as Poor Policing: The Rational Discrimination Argument
    When one hears the most common justification offered for the making 
of disproportionate numbers of traffic stops of African-Americans, it 
usually takes the form not of racism, but of rationality. Blacks commit 
a disproportionate share of certain crimes, the argument goes. 
Therefore, it only makes sense for police to focus their efforts on 
African-Americans. As a spokesman for the Maryland State Police said, 
this isn't racism--it is ``the unfortunate byproduct of sound police 
policies.'' It only makes sense to focus law enforcement efforts and 
resources where they will make the most difference. In other words, 
targeting blacks is the rational, sound policy choice; it is the 
efficient approach as well.
    This argument may sound appealing, but it ultimately fails. First, 
its underlying premise is wrong. Government statistics on arrests for 
drug crime (and drug crimes, not other offenses, are what the great 
majority of pretext traffic stops are about) tell us virtually nothing 
about the racial breakdown of those involved in drug crime. Think for a 
moment about arrest data in general. These statistics show that blacks 
are indeed over represented among those arrested for homicide, rape, 
robbery, aggravated assault, larceny/theft, and simple assault crimes. 
Note that all of these crimes are at least somewhat likely (much more 
likely in the case of homicide, less likely in the case of rape) to be 
reported to police and may then result in arrest; these crimes have 
victims, people directly affected by the crimes, who may do the 
reporting. By contrast, drug offenses are much less likely to be 
reported, since possessors, buyers, and sellers of narcotics are all 
willing participants in these crimes. This makes arrest data for drug 
crimes highly suspect. These data do not measure the extent of drug 
crimes. Rather, they measure law enforcement activity and the policy 
choices of many of the institutions and actors involved in the criminal 
justice system. Similarly, looking at the racial composition of prison 
and jail populations or the racial breakdown of sentences for these 
crimes only measures the actions of those who run our penal 
institutions and the officials who put together our criminal law and 
sentencing systems.
    In point of fact, statistics on both drug use and drug crime belie 
the usual stereotypes: blacks may not, in fact, be more likely than 
whites to be involved with drugs. John Lamberth's study of traffic 
stops and searches in Maryland showed that among vehicles stopped and 
searched, the ``hit rates''--the percentage of vehicles searched in 
which drugs were found--were statistically indistinguishable for blacks 
and whites. In a related situation, the U.S. Customs Service, which is 
engaged in drug interdiction efforts at the nation's airports, has used 
various types of invasive searches from pat downs to body cavity 
searches against travelers suspected of drug smuggling. The Custom 
Service's own nationwide figures show that while over forty-three 
percent of those subjected to these searches were either black or 
Hispanic, ``hit rates'' for these searches were actually lower for both 
blacks and Hispanics than for whites--6.7 percent for whites, 6.3 
percent for blacks, and 2.8 percent for Hispanics. Similarly, it has 
long been established that most drug users are white, and that most 
users buy their drugs from people of their own race. This throws even 
more doubt on the usual stereotype of the drug dealer as a black or 
Latino.
    We find the same counter stereotypical information when we look at 
data on drug use. The percentage of drug users among blacks and whites 
is roughly the same as the presence of those groups in the population 
as a whole. For example, blacks are roughly twelve percent of the 
population of the country; in 1997, the most recent year for which 
statistics are available, thirteen percent of all drug users were 
black. In fact, among black youths--a demographic group often portrayed 
as most likely to be involved with drugs--there is evidence that use of 
all illicit substances has actually been consistently lower than among 
white youths for twenty years running.
    Nevetheless, many continue to believe that African-Americans and 
members of other minority groups are responsible for most drug use and 
drug trafficking. Carl Williams, the head of the New Jersey State 
Police dismissed by the Governor in March of 1999, stated that ``mostly 
minorities'' trafficked in marijuana and cocaine, and pointed out that 
when senior American officials went overseas to discuss the drug 
problem, they went to Mexico, not Ireland. Even if he is wrong, if 
Williams and the many troopers who worked for him share these opinions, 
they will likely act accordingly. And they will do so by looking for 
drug criminals among black drivers. Blackness will become an indicator 
of suspicion of drug crime involvement. This, in turn, means that the 
belief that blacks are disproportionately involved in drug crimes will 
become a self-fulfilling prophecy. Because police will look for drug 
crime among black drivers, they will find it disproportionately among 
black drivers. This will means more blacks arrested, prosecuted, 
convicted, and jailed, which of course will reinforce the idea that 
blacks are disproportionately involved in drug crimes, resulting in a 
continuing motive and justification for stopping more black drivers as 
a rational way of using resources to catch the most criminals. At the 
same time, of course--and this may be the worst part of rational 
discrimination from a pure law enforcement point of view--because 
police focus on black drivers, white drivers will receive less 
attention than they otherwise might, and the drug dealers and 
possessors among them will be apprehended in proportionately smaller 
numbers than their presence in the population would predict. In other 
words, rational discrimination will result in white drug dealers and 
possessors escaping prosecution in huge numbers, even as 
disproportionately high numbers of blacks are stopped and searched.
    The upshot of this thinking is visible in the stark numbers that 
show what our criminal justice system does when it uses law enforcement 
practices like the racially-biased traffic stops to enforce drug laws. 
African-Americans are just twelve percent of the population and 
thirteen percent of the drug users, but they are about thirty-eight 
percent of all those arrested for drug offenses, fifty-nine percent of 
all those convicted of drug offenses, and sixty-three percent of all 
those convicted for drug trafficking. Only thirty-three percent of 
whites but fifty percent of blacks convicted of drug crimes have been 
sent to prison, and incarcerated blacks get longer sentences than white 
for the same crimes: for state drug defendants, the average maximum 
sentence length was fifty-one months for whites and sixty months for 
blacks.
2. The Creation of Corrosive Cynicism
    Without doubt, racially-targeted traffic stops cause deep cynicism 
among blacks about the fairness and legitimacy of law enforcement and 
courts. Thus it is no wonder that blacks view the criminal justice 
system in totally different terms than whites do; they have completely 
different experiences within the system than whites have, so they do 
not hold the same beliefs about it. Since traffic stops are among the 
most common encounters regular citizens have with police, it is hardly 
surprising that pretextual traffic stops might lead blacks to view the 
whole system differently. One need only think of the split screen 
television images that followed the acquittal in the O.J. Simpson 
case--stunned, disbelieving whites, juxtaposed with jubilant blacks 
literally jumping for joy--to understand how deep these divisions are.
    But this cynicism is now beginning to creep into the general 
population's perception of the system. Polling data have long shown 
that blacks believe that the justice system is biased against them. For 
example, in a Justice Department survey released in 1999, blacks were 
more than twice as likely as whites to say they are dissatisfied with 
their police. More recent data show that a majority of whites believe 
that police racism toward blacks is common; specifically, a majority of 
both blacks and whites believe that racial profiling is a widespread 
problem that must be rooted out. Thus the damage done to the legitimacy 
of the system has spread across racial groups, from those most 
immediately affected to others.
    Perhaps the most direct result of this cynicism is that there is 
considerably more skepticism about the testimony of police officers 
than there used to be. Predictably, this is especially true in minority 
communities, and pretextual traffic stops hammer this point home for 
these citizens. When a black driver asks a police officer why he has 
been stopped, the officer will probably explain that the driver 
committed a traffic violation. This may be literally true--a traffic 
offense probably has been committed, since virtually no driver can 
avoid committing one. But when the officer asks the driver whether he 
or she is carrying drugs or guns, and for consent to search the car, it 
becomes more than obvious that the traffic offense is not, in fact, the 
real reason that the officer stopped the driver. If the stop was really 
about enforcement of the traffic laws, there would be no need for these 
questions or any search. Of course, both the officer and the driver 
know this. It should surprise no one, then, that those subjected to 
this treatment regard the testimony and statements of police with 
suspicion. The result will likely be increasing difficulty for 
prosecutors when they go into court to try to convict the guilty in any 
case that depends upon police testimony, as so many cases do. The 
result may be more cases that end in acquittals or hung juries, even 
factually and legally strong ones.
3. Plunging Crime Rates: There's More Than One Way to Skin a Cat
    Over the last seven years, many cities in the United States have 
experienced steep and sustained drops in their crime rates, including 
homicide and other violent offenses. This is a national trend; it has 
happened in cities from one corner of the country to the other. Though 
experts are divided over what accounts for the drop--many say, 
candidly, that no one really knows what has caused it--one oft-
mentioned possibility is the role that policing and crime-fighting 
tactics may have played in bringing this about.
    No city has been more at the forefront of this debate than New 
York. Often thought of in the 1980's and early 1990's as a cesspool of 
crime, vice, and decay, New York has enjoyed rapid declines in all 
major categories of crimes. And New York's mayor, Rudolph Giulliani, 
has not been shy about taking credit for these developments and 
attributing them to his tough approach to policing: aggressive 
enforcement of laws against quality of life offenses like turnstile 
jumping, zero tolerance policies on offenses like putting graffiti on 
structures, and the use of hyper-aggressive squads like the Street 
Crimes Unit focused on stopping and frisking large numbers of people to 
look for guns and drugs. These measures may have been tough, but 
sometimes toughness is necessary, the mayor and his allies have argued. 
Judge us by our results. And by any measure, the results are 
impressive. Between 1991 and 1998, the number of homicides in New York 
City went from 29.31 to 8.60 per 100,000 citizens, a drop of 70.6 
percent. In the same period, robberies dropped from 1,340 to 535 per 
100,000 citizens, a 60 percent decline.
    But this progress has come at a steep price. Even as crime has come 
down, the perception has grown that the New York City Police Department 
is especially hard on minorities, especially blacks and Latinos, and 
that these groups are being sacrificed--in the form of frequent stops, 
frisks, traffic stops, arrests, and general rough treatment accorded 
suspects--for the greater good. Indeed, crime rates are down, but 
minorities in New York--precisely those people most in need of the help 
of the police, since they are disproportionately the victims of crime--
are more than twice as likely to express distrust of police than 
whites. Many express fear of the police. William J. Bratton, the 
Commissioner of Police during the first two years of the Giulliani 
administration, says that while the tough policing strategies may have 
been necessary at first, the next phase should have included reaching 
out and working with the black community and its leaders to build a 
solid foundation of cooperation. Failure to do so, he said, represents 
a lost chance to make progress not only on law and order in the city, 
but on race relations. And now, in the wake of the trial and acquittal 
of the four Street Crimes Unit officers who shot Amadou Diallo, the 
hidden costs of Giulliani's aggressive strategy have become apparent: 
ever greater distrust and poisoned relations between police and 
minority citizens that will take years to overcome. New York City will 
be living with the consequences of these policies for a long time after 
its current leadership has left the scene.
    But, as the old saying goes, there is more than one way to skin a 
cat. Contrast what has been happening in New York to events in the same 
time frame in two other cities: San Diego and Boston. Both have seen 
their crime rates plummet, but these cities have used very different 
approaches to policing from New York's. And in neither city will there 
be five, ten, or twenty years of poor relationships between police and 
citizens that will linger in the air like a noxious mist, as is likely 
to be the case in New York.
    San Diego took an almost polar opposite position to New York, In 
the early 1990's having already taken steps to improve training and 
statistical analysis of crime trends, San Diego looked for other 
promising approaches that might lead to further reductions in crime. 
Jerome Sanders, San Diego's police chief at the time, said that 
staffing realities--while New York has 5 officers per thousand 
citizens, San Diego had only 1.7 per thousand--dictated a different 
tack. New York's aggressive approach was simply out of the question. 
``Our basic premise was, we didn't have enough police officers to do it 
all, so we needed participation by the community,'' Sanders said. So 
San Diego's police force wholeheartedly adopted community policing, 
under which police and citizens become partners in the effort to make 
cities safer. The police divided the city into 99 neighborhoods, and 
assigned teams of officers to each. This allowed citizens to get to 
know their ``own'' officers; eventually, they began to give them 
information, cooperate with them, and help them solve problems in the 
neighborhood. San Diego also recruited and trained a force of 1,200 
volunteer citizens to patrol neighborhoods, serving as the Department's 
eyes and ears.
    Boston's approach has been different those used in both San Diego 
and New York. But like San Diego's initiative, Boston did not rely on 
New York-style hardball tactics. It began with careful study, in an 
effort to figure out what the key sources of crime, especially violent 
crime, were, and how to reduce it with the least possible racial 
consequences. The racial impact of any effort was an important 
ingredient in the plan, since Boston had seen a number of high-profile 
crimes grow into community confrontations with significant racial 
overtones in recent years. The results of this examination pointed 
toward a focus not on drugs or gangs, but on gun violence, and on a 
small cluster of ringleaders who were responsible for the presence of 
guns on the street. Then, instead of taking it upon themselves to 
handle the enforcement effort alone, the police appealed to a coalition 
of black ministers and leaders for help and cooperation in going after 
the real bad guys. They then held ``call-ins''--meetings between the 
ministers, the police and the individuals targeted for enforcement. 
These individuals were warned that if violence and the use of guns on 
the streets did not stop, they would be arrested and prosecuted in 
federal court, where they would face long sentences. Most heeded these 
warnings; those that did not were dealt with as promised. The focused 
nature of the program--both as to what problem to attack (guns and 
associated violence) and which people to target (the truly bad folks 
who refused to change their ways) alleviated the need to make 
widespread use of targeted traffic or pedestrian stops as New York did, 
with the racial antagonism that this brings. In the bargain, the Boston 
police built long-term cooperative relationships with the community 
that will allow them to approach other problems in the same way in the 
future, and at the very least to lessen the damaging ``us vs. them'' 
mentality so common in New York.
    The result in San Diego and Boston has been progress against 
serious crime as good or even better than police in New York City have 
achieved with their zero tolerance, sweep-the-streets tactics. While 
homicide in New York fell 70.6 percent between 1991 and 1998, it 
declined almost as much--69.3 percent--in Boston. And San Diego's 
results were even more impressive than New York's: a fall of 76.4 
percent, the best in the country. The pattern was the same for robbery: 
a 62.6 percent decline in San Diego (again, the nation's best), 
followed by New York at 60.1 percent. Boston's robbery rate declined 
50.2 percent. The lesson is obvious. There is no hard and fast tradeoff 
required between making headway on crime and the relationship between 
police and the communities they serve. Making the streets safer does 
not require the sacrifice of the civil liberties of those in areas with 
crime problems, generating a significant backlash against the police. 
Simply put, there are other ways.
4. The Undermining of Community Policing
    Another reason that it is in the interest of the police to come to 
grips with racial profiling follows directly from the discussion above 
of the successful efforts of the police in San Diego. Until recently, 
police departments have concentrated on answering distress calls. The 
idea was to have police respond to reports of crime relayed to them 
from a central dispatcher. In essence, these practices were reactive; 
the idea was to receive reports of crimes committed and respond to 
them.
    But over the past few years, modern policing has moved away from 
the response model, which was thought to be too slow and too likely to 
isolate officers from the places in which they worked and the people 
there. In community policing, used so successfully in San Diego, the 
idea is for the police to serve the community and become part of it, 
not to dominate it or occupy it. This is done by becoming known to and 
involved with residents, understanding their problems, and attacking 
crime in ways that help address those difficulties. The reasoning is 
that if the police become part of the community, members of the public 
will feel comfortable enough to talk freely to officers and tell them 
what the troubled spots--and who the trouble makers--are. This will 
make for better, more proactive policing, aimed at problems residents 
really care about, and will make for a greater degree of appreciation 
of police efforts by residents and more concern for neighborhood 
problems and concerns by the police.
    In many minority communities, the history of police community 
relations has been characterized not by trust, but by mutual distrust. 
In Terry v. Ohio, the 1968 case that is the fountainhead of modern 
street-level law enforcement, the Supreme Court candidly acknowledged 
this, saying that police had often used stop and frisk tactics to 
control and harass black communities. As one veteran African-American 
police officer put it, ``Black people used to call the police `the 
law.' They were the law . . . The Fourth Amendment didn't apply to 
black folks; it only applied to white folks.'' For blacks, trusting the 
police is difficult; it goes against the grain of years of accumulated 
distrust and wariness, and countless experiences in which blacks have 
learned that police aren't necessarily there to protect and serve them.
    Yet it is obvious that all of community policing--both its methods 
and its goals--depends on mutual trust. As difficult as it will be to 
build, given the many years of disrespect blacks have suffered at the 
hands of the police, the community must feel that it can trust the 
police to treat them as law-abiding citizens if community policing is 
to succeed. Using traffic stops in racially disproportionate ways works 
directly at cross purposes with this effort. Why should residents of 
these communities trust the police if, every time they go out for a 
drive, they are treated like criminals, even if this is done in an 
effort to catch wrongdoers? If the ``driving while black'' problem is 
not addressed, community policing will be made much more difficult or 
even fail. Thus, aside from the damage profiling inflicts on African-
Americans, there is another powerful reason to change this police 
behavior: It is in the interest of police departments themselves to 
correct it.
5. Keeping the Feds out
    Several months ago, I testified at a legislative hearing in 
Pennsylvania concerning a bill aimed at tackling racial profiling. 
Among the witnesses was John Timoney, the Commissioner of the 
Philadelphia Police Department. Commissioner Timoney is a former New 
York City police officer and administrator, and by all accounts a cop's 
cop. In his approximately two years at the helm of Philadelphia's 
department, he has made substantial changes and improvement, and enjoys 
widespread support among both the public and his own officers. I found 
him a personally engaging and well-informed man--tough, no nonsense, 
but knowledgable and ready with a joke, too. He advocated very 
effectively that day for law enforcement interests.
    Two things Commissioner Timoney said that day have stayed with me. 
Asked at one point about the issues of race and policing generally, 
Timoney gave an answer startling for its candor. ``You'd have to be 
brain dead,'' he said, to fail to recognize that police departments 
were going to have to deal with issues of race and law enforcement. 
Attempting to ignore the issue represented ostrich-like thinking, and 
it was clearly in the interest of law enforcement to meet these 
challenges head on, on its own terms. He also said something that 
pointed very strongly to the current headlines on racial profiling. He 
had, he said, a selfish reason of his own for wanting to deal with 
racial profiling and associated issues in his department: he wanted to 
keep the federal government away. Timoney reiterated this thought the 
next month in an interview with the New York Times. With an eye to 
federal consent decrees in New Jersey, Pittsburgh, Maryland, and 
elsewhere, as well as on a number of federal court orders governing the 
Philadelphia department when he began his stint as Commissioner, 
Timoney said ``right now, my selfish ancillary goal is to keep the feds 
out of Philadelphia.''
    I certainly intend no disrespect here toward the federal 
government's efforts to rein in troubled police departments. Indeed, 
the use of ``pattern and practice'' jurisdiction by the U.S. 
Department's Civil Rights Division represents one of the most promising 
developments in the battle to force change upon law enforcement 
agencies with records of violating the civil rights of their citizens 
and failing to address these problems. Cases brought by the department 
of Justice under these statutes have resulted in substantial reforms in 
a number of police departments at both the state and local level; the 
threat of litigation in these situations has acted as a stick to prod 
troubled police departments toward changes where in situations in which 
a carrot alone would have been ineffective. In the first six years 
after the statute was passed, there have been four consent decrees 
entered, and there is one active contested piece of litigation going on 
now in Columbus, Ohio. Timoney's comment shows just how effective a 
tool these actions and the possibility of federal court intervention 
can be. Timoney is right to want to avoid having federal officials or 
judges dictate the terms under which he runs his department. 
Presumably, he is the person responsible to Philadelphians and their 
elected officials for the quality of the police force and its work. And 
accountability requires authority. It is almost inconceivable that 
anyone would want such a demanding job--leader of a large police 
agency--without the ultimate authority to run the operation. 
Additionally, rules and directives imposed from the outside of a police 
department are less likely to be complied with by the rank and file 
than policies and orders generated from within. Timoney calls his 
desire to avoid federal intervention ``selfish,'' but one could just as 
easily view it as a desire to lead his department himself, without 
unaccountable outsiders who are less knowledgeable than he is telling 
him what to do. If he is influenced in making his choices by the 
possibility that the federal government will intervene, so be it. The 
central concern is what Timoney does, not his reasons for doing it. For 
example, Timoney has moved some modest actions on racial profiling. 
These actions include focusing officers who stop cars on arrests of 
criminals, not just the making of traffic stops for their own sake. 
``When I came here cops were getting credit for the number of people 
they simply stopped every month. Can you believe that nonsense? We've 
reduced our stops by 50 percent. You get credit when you lock them 
up.'' Reducing abusive practices such as these is good policing--even 
if the reason for them is simply avoiding federal intervention.
6. The Experience of Great Britain: Better Policing
    Some of you may know the name of Stephen Lawrence. Mr. Lawrence was 
a black citizen of Great Britain, living in the London area. Several 
years ago, he was murdered, a victim of racially motivated killing. By 
all accounts, London police, a force that has usually been seen as 
among the most professional and well trained in the world, not only 
bungled the investigation but did things that showed a truly startling 
degree of racial prejudice and insensitivity during the investigation. 
In the aftermath of the case, an official inquiry exposed this 
incompetence and outright racism, and this led to an examination of the 
relations between London police and racial minorities and to come 
concrete reforms. Among those reform were stricter regulations on when 
and how police could perform ``stops and searches'' including--in a 
parallel to our own current debate--collection of data and statistical 
analysis of the data to see any racial patterns. Police decried the 
data collection requirement almost uniformly, saying it would waste 
their time and divert them from the real task of crime fighting.
    Now, several years later, preliminary results are in, and they are 
striking. According to police officials, data collection and other 
reforms have had the effect of decreasing the number of pedestrian and 
traffic stops made by police. This was especially true initially; the 
effect is less dramatic now, but it still persists. But the upshot has 
been a much more effective use of these tactics than was previously the 
case. Police are using stops more judiciously and cautiously, focusing 
on those most worthy of police attention instead of using stops in a 
wholesale, dragnet fashion. The result has been better policing--more 
focused, better crime fighting, better use of resources, and 
interactions with the public that are much less likely to produce 
cynicism and long-term damage to police community relations.

                               CONCLUSION

    There is still some denial that racial profiling exists. But. S.B. 
821, the Traffic Stops Study Statistics Act, has begun a transformation 
in both the public's thinking and the public discourse about this 
problem. That change has now percolated down to the state and local 
level, as evidenced by the many state legislative proposals and local 
initiatives that have now begun. There is movement on this problem; 
there is momentum. And what we must realize is that while S.B. 821 
shows us the right direction, it is up to every one of us to begin to 
do the heavy lifting that is ahead. Data collection on all traffic 
stops is surely the first step on this long road.

    Senator Ashcroft. Mr. Hughes, please proceed with your 
testimony.

                 STATEMENT OF JOHNNY L. HUGHES

    Mr. Hughes. Mr. Chairman, the Missouri troopers send their 
warm regards and thank you for the great work and support.
    Mr. Chairman and honorable members of this distinguished 
committee, I would like to thank you for giving me the 
opportunity to speak on this matter of great interest.
    I am a 29-year veteran of the Maryland State Police, a 
retired major. I commanded five barracks there and ended up 
commanding the Maryland State Police Aviation Division. I have 
been doing legislative and congressional affairs work since 
1982. I have two sons that were Maryland troopers that worked 
drug interdiction on the I-95 corridor since 1996. One was 
shot, disabled by drug traffickers. There was a $45,000 
contract put out on both of them. The other one has since 
resigned from the State police. He is with DEA up in 
Philadelphia.
    The National Troopers Coalition is composed of State police 
and highway patrol agencies throughout our great United States 
and has a membership of approximately 45,000 troopers of all 
ranks, trooper through colonel. We would be opposed to S. 821 
or any legislation of this nature.
    I would like to comment that criminal profiling--and, 
again, criminal profiling, not racial profiling--criminal 
profiling is an effective tool for law enforcement. Local, 
State and Federal law enforcement agencies have been utilizing 
criminal profiling as a proven and valuable technique to 
identify criminals for decades. An example: criminal profiling 
is used by the Federal Bureau of Investigation's Behavioral 
Science Unit. This developed the criminal profile of serial 
murderers as predominately white male loners.
    It is no secret that the arrest of specific ethnic groups 
is dependent upon demographics. The Interstate I-95 corridor 
from New York to Washington, DC, connects inner-city to inner-
city. Primarily, minorities populate these inner cities. The 
majority of arrests involving smuggling in crack cocaine, 
powder cocaine and heroin along the I-95 New York to 
Washington, DC, corridor usually involves African-Americans, 
whereas on Interstate 81, passing through the States of 
Pennsylvania, Maryland, West Virginia, Virginia, Tennessee, 
most of these arrests are caucasians trafficking in marijuana. 
Further, along the southwest border, the States of California, 
Texas, New Mexico, Arizona, the majority of drug traffickers 
are Hispanics. Out west, in Kansas City and Missouri, we are 
showing that caucasians are dealing in designed drugs, mainly 
meth, PCP, LSD.
    Drugs are trafficked and used by people indigenous to an 
area. They employ people known as ``mules'' to transport these 
drugs. They are usually from the lower wrung of the socio-
economic ladder and they are often the same ethnicity as the 
traffickers because that is who they trust.
    Those who are angry that specific ethnic groups are 
arrested more than they are represented in the general 
population for drug smuggling activities are not grasping 
reality. In criminal drug interdiction, you will find it is not 
a secret that arrests will not reflect the same percentage of 
ethnic groups as they are represented in the general population 
of the United States. It is also not a secret that certain 
ethnic groups are arrested for a disproportionate amount of 
crime as compared to the general population.
    Recently, the term ``racial profiling'' has been at the 
forefront of some news broadcasts and a hot topic for some 
government leaders. Some politicians and government leaders 
have wrongly used this term. Racial profiling is a street term, 
and only a street term. It is not a textbook or law enforcement 
concept. No law enforcement agency teaches or condones racial 
profiling.
    On the other hand, criminal drug interdiction profiling and 
criminal profiling is a good law enforcement practice. This 
method of identifying drug traffickers is an essential 
component of an officer's training. Police officers are, in 
fact, taught to observe the individual for characteristics or 
indicators of drug-carrier activity. It is reason, not race, 
that directs the attention of police officers to drug 
smugglers. Criminal drug interdiction profiling is rooted in 
statistical reality.
    Thomas Constantine, a personal friend and former 
Superintendent of the New York State Police, a very proud 
department, and former Administrator of the U.S. Drug 
Enforcement Administration, created the DEA Global Enforcement 
Teams to assist local police with the arrest of violent drug 
offenders.
    Within the Rampart area of L.A., the Mobile Enforcement 
Teams and LAPD were extremely effective in their operations. 
Eighty-five percent of the suspects arrested were minorities. 
Policing drugs in an area where 99 percent of crack cocaine is 
controlled by minorities will lead to the arrest of primarily 
minorities. Again, this is statistical reality, not racial 
profiling.
    If some misguided governors, politicians and police chiefs 
continue to attack the issue of legitimate criminal profiling 
and call it racial profiling, legitimate policing of this 
Nation's drug carriers will be dramatically reduced. Good 
police officers will be afraid to stop anyone for fear of being 
labeled a racist and facing retaliation by their police 
department and political rivals. Some police commissioners, 
superintendents and chiefs have already yielded and are not 
supporting their troopers and police officers on this 
particular issue.
    Overreaction to race rather than crime is a travesty, as 
troopers and police officers are in the direct line of fire. 
Numerous troopers and police officers have been killed or 
severely injured on drug interdiction traffic stops. The 
National Troopers Coalition represents 45,000 State police and 
highway patrol personnel. These fine troopers and officers of 
all ranks, trooper through colonel, support and utilize 
professional policing methods. Race-based traffic stops is not 
one of them.
    And I might add that Carl Williams is a fine man. He was 
the former Superintendent of the New Jersey State Police. In 
the circles of IACP State and provincial police and the 
National Troopers, he was known as Carl ``the truth'' Williams. 
He was sacrificed by Governor Whitman for telling the truth.
    I would be glad to answer questions on this issue when the 
time comes.
    Senator Ashcroft. Thank you very much, Mr. Hughes.
    [The prepared statement of Mr. Hughes follows:]

                 Prepared Statement of Johnny L. Hughes

    Johnny Hughes is a twenty-nine year veteran retired Major of the 
Maryland State Police. He is the director of government relations for 
the National Troopers Coalition. The National Troopers Coalition is 
composed of state police and highway patrol agencies throughout the 
United States and has a membership of approximately 45,000 troopers of 
all ranks, trooper through colonel.
    Mr. Chairman, honorable members of this distinguished committee, I 
would like to thank the committee for giving me this opportunity to 
speak on this matter of great public interest.
    Criminal profiling is an effective tool for law enforcement. Local, 
State, and Federal law enforcement agencies have been utilizing 
criminal profiling as a proven and valuable technique to identify 
criminals for decades. For example, criminal profiling is used by the 
Federal Bureau of Investigation's Behavioral-Science Unit, which 
developed the criminal profile of serial murderers as predominately 
White Male Loners.
    It is no secret that the arrest of specific ethnic groups is 
dependent upon demographics. The Interstate 95 (I-95) corridor from New 
York City to Washington, D.C., connects inner city to inner city. 
Primarily minorities populate these inner cities. The majority of 
arrests involving smuggling of crack cocaine, powder cocaine and heroin 
along the I-95 New York City to Washington, D.C. corridor usually 
involves African-Americans. Whereas on Interstate 81 (I-81) passing 
through the states of Pennsylvania, Maryland, West Virginia, Virginia 
and Tennessee, most of the arrestees are Caucasians trafficking in 
marijuana. Further, along the Southwest Border States of California, 
Texas, New Mexico and Arizona, the majority of drug traffickers are 
Hispanics.
    Drugs are trafficked and used by people indigenous to an area. They 
employ people known as ``Mules'' to transport drugs who are usually 
from the lower rung of the socio-economic ladder and who are often the 
same ethnicity as the traffickers or users.
    Those who are angry that specific ethnic groups are arrested more 
than they are represented in the general population for drug smuggling 
activities are not grasping reality. In criminal drug interdiction, you 
will find it is not a secret that arrests will not reflect the same 
percentage of ethnic groups as they are represented in the general 
population of the United States. It is also not a secret that certain 
ethnic groups are arrested for a disproportionate amount of crime as 
compared to the general population.
    Recently, the term ``Racial Profiling'' has been at the forefront 
of some news broadcasts and a hot topic for some government leaders. 
Some politicians and government leaders have wrongly used this term. 
Racial profiling is a street term and only a street term; it is not a 
textbook or law enforcement concept. No law enforcement agency teaches 
or condones racial profiling. On the other hand ``Criminal Drug 
Interdiction Profiling'' is a good law enforcement practice. This 
method of identifying drug traffickers is an essential component of an 
officer's training. Police officers are, in fact, taught to observe the 
individual for characteristics or indicators of drug courier activity. 
It is ``Reason not Race'' that directs the attention of police officers 
to drug smugglers. ``Criminal Drug Interdiction Profiling'' is rooted 
in statistical reality, not racism.
    Thomas Constantine, the former Administrator for the United States 
Drug Enforcement Administration, created the D.E.A. Mobile Enforcement 
Teams to assist local police with the arrest of violent drug offenders. 
Within the Rampart area of Los Angeles, California, the Mobile 
Enforcement Teams and L.A.P.D. were extremely effective. In their 
operations, 85 percent of the suspects arrested were minorities. 
Policing drugs in an area where 99 percent of the crack cocaine is 
controlled by minorities will lead to the arrest of primarily 
minorities. Again, that is statistical reality not racial profiling.
    If some misguided governors, politicians, and police chiefs 
continue to attack the issue of legitimate criminal profiling and call 
it racial profiling, legitimate policing of this nation's drug couriers 
will be dramatically reduced. Good police officers will be afraid to 
stop anyone for fear of being labeled a racist and facing retaliation 
by their police department and political rivals. Some police 
commissioners, superintendents and chiefs have already yielded and are 
not supporting their troopers and police officers on this particular 
issue. Overreaction to race rather than crime is a travesty as troopers 
and police officers are in the direct line of fire. Numerous troopers 
and police officers have been killed or severely injured on drug 
interdiction traffic stops. The National Troopers Coalition represents 
45,000 sworn State Police and Highway Patrol personnel. These fine 
troopers and officers of all ranks, Trooper through Colonel, support 
and utilize professional policing methods. Race based traffic stops is 
not one of them.
    Thank you.

    Senator Ashcroft. Mr. Welter.

                    STATEMENT OF JOHN WELTER

    Mr. Welter. Thank you, Mr. Chairman and Senators, for 
inviting me to come and speak. It is very powerful testimony I 
heard in the first panel and I want to echo the fact that I 
wish that all police officers could have heard that testimony, 
particularly the police officers with the San Diego P.D.
    Racial profiling, if practiced, does more damage to police-
community relations than almost any other form of police 
misconduct. Targeting law-abiding citizens for vehicle stops 
and searches based solely on race is a practice that must be 
stopped. I am going to discuss the San Diego Police 
Department's efforts to address this area of concern, and we 
are one of the few that took the lead early on, about a year-
and-a-half ago, to address this issue.
    For the past several years, police departments have been 
moving toward community policing and problem-oriented policing 
as a means of preventing crime, not just responding to the 
aftermath, and community policing practices have contributed to 
this dramatic drop in crime we have seen across the country.
    However, I think that the community policing movement is 
based upon the trust developed between the police and the 
community, trust that the police are going to work together to 
address social disorder, trust that the police and the 
community are going to respect each other, and trust in 
treating each other in a fair and unbiased way.
    I want to thank the Senators for recognizing that many 
police officers across this country do a great job at policing. 
And, in fact, racial profiling undermines all of the excellent 
work that hundreds of thousands of them are doing. 
Unfortunately, there are the few police officers who tarnish 
all of our badges by their individual behavior.
    For the past 12 years, the San Diego Police Department 
philosophy has encouraged and actively supported community 
empowerment and collaborative problem-solving, and this is no 
different. Taking this issue on voluntarily is the way to 
address it in the appropriate manner. The department has 
initiated numerous proactive efforts to improve our relations 
and interactions with the community we serve.
    Our voluntary study of vehicle stops and examination of 
potential racial profiling is an example of our community 
policing efforts, and in early 1999 the P.D. made the decision 
to begin collecting data on vehicle stops. We were responding 
to requests from community members, from the local ACLU, the 
Urban League, and the NAACP to examine the issue of racial 
profiling. And it had nothing to do with whether we agreed that 
it occurred or didn't occur. It had to do with the fact that 
the perception in the community was that it was there.
    There were several reasons the police department agreed to 
collect the data. First, the department wanted to address any 
community perception of racial profiling by San Diego police 
officers in the community. Second, the department is a national 
leader in community policing and we felt that data collection 
was viewed as a means of strengthening our police and community 
relationship.
    Third, the department command staff believed that the 
department personnel were not condoning or practicing racial 
profiling and were confident in the results of our evaluation. 
Finally, the department worked tirelessly over the past several 
years to build trust and credibility with community members and 
we felt that this effort seemed to be a logical move to retain 
that trust. In addition, the department had automated systems 
in place to assist in data collection and we consider ourselves 
a leader in automation and use of technology.
    Vehicle stop collection began in January 2000. We are going 
to continue it through this year. Approximately 150,000 vehicle 
stops are expected, based on the annual number of stops that we 
do every year. The city council will receive a mid-term 
preliminary report in July and complete results on the analysis 
will be provided in 2001.
    I am not going to spend a lot of time on the methodology. I 
did submit a report and that can be reviewed, but I think we 
need to talk about the use of technology in regard to this 
issue. It is initially hoped that our officers would capture 
data using laptop computers, transmit that data over a wireless 
system, capture the data, store it in a database, and then come 
to a point where we could start doing some analysis.
    Since a wireless solution is not yet possible, and we are 
right in the middle of developing our fully automated system, 
we began by having officers collect data on a 4-by-6 card. The 
ease of completing the form ensured that the officers were 
going to be fully cooperative with the project. In addition, we 
had the chief of police command staff personally work with each 
lineup, with each briefing, to talk about the reasons why we 
were doing what we were doing.
    Soon, we are going to begin the analysis stage. We are not 
aware of any published reports or research or any existing 
models for methodical control or comprehensive studies on this 
material. This will be the very difficult stage. As was 
mentioned earlier, this is a first step, and I think that it is 
the first step in a process that requires that we do some very 
thorough analysis and develop responses that both the community 
and the police can be a part of, not just the police.
    Therefore, the department plans to use the data it is 
collecting during the 1-year study to develop comprehensive, 
meaningful conclusions and do something about the issue in San 
Diego. The department has engaged prominent researchers and is 
seeking grants and other sources of funding in order to help us 
with the analysis phase.
    And I just want to point out in closing that San Diego P.D. 
supports the collection of data for the purpose of examining 
this issue. This is a very important issue as it relates to the 
relationship of the community and the police. If we are truly 
to get to what community policing is all about, then we have to 
have the trust of all of the community.
    We feel we owe it to our officers, our community, and the 
policing profession to take the lead in addressing this issue. 
Whether it is perceived or real, it stands in the way of true 
community policing practices. We have come too far in 
developing trusting relationships to see much of that thrown 
away or lost in the possible misconduct of a few officers.
    We also believe in the philosophy that the police need to 
work closer with the community to prevent crime and to find 
real solutions to social disorder. Police officers, in my 
opinion, and in the opinion of the San Diego P.D., must accept 
the challenge to prove their integrity, but they also must look 
for every opportunity to improve their performance.
    Thank you.
    Senator Ashcroft. Thank you very much.
    [The prepared statement of Mr. Welter follows:]

                   Prepared Statement of John Welter

                              INTRODUCTION

    Racial profiling, if practiced, does more damage to police/
community relations than almost any other form of police misconduct. 
Targeting law-abiding citizens for vehicle stops and searches based 
solely on race is a practice that must be stopped. I am going to 
discuss the San Diego Police Department's efforts to address this area 
of concern.
    For the past several years police departments have been moving 
toward community policing and problem oriented policing as a means of 
preventing crime, not just responding to the aftermath. Community 
policing practices have contributed to a dramatic drop in crime 
throughout the United States. The community policing movement is based 
upon the trust developed between the police and resident community. 
Police and community members must trust that they truly respect each 
other; they must trust in working together to address the social 
disorder that contributes to crime; and they must trust in treating 
each other in a fair and unbiased way.
    Racial profiling undermines all of the excellent work done by 
hundreds of thousands of police officers everyday. The vast majority of 
police officers respect the individual rights of community members they 
serve. Many police officers I speak to are offended someone would even 
allege they are violating people's constitutional rights, the very 
rights they are sworn to uphold.
    Unfortunately, there are those police officers who tarnish all of 
our badges by their behavior. Racial profiling does exist. However, 
through the efforts of community policing, the San Diego Police 
Department, under the direction of Chief David Bejarano, is positioning 
itself to better analyze and prevent any possible misconduct.

                     THE ROLE OF COMMUNITY POLICING

    For more than twelve years the San Diego Police Department 
philosophy has encouraged and actively supported community empowerment 
and collaborative problem solving. The Department initiated numerous, 
proactive efforts to improve police/community interaction, thus 
ensuring on-going, open dialogue which supports mutual respect and 
trust with all members of our communities.
    In the early 1990's, the Department completely restructured the 
organization to facilitate a transition to Neighborhood Policing, our 
version of a community policing philosophy coupled with problem 
oriented policing strategies. Based on community and town hall 
meetings, employee recommendations and intensive operational analysis, 
the following changes were made:
          The roles of Department staff were redefined to make problem 
        solving and neighborhood policing an expectation at all levels 
        and functions of the Department.
          The census-tract based beat system was completely converted 
        to a system based on residents' definitions of their actual 
        neighborhoods.
          A team policing structure was developed for all patrol 
        officers, eliminating specialized neighborhood policing teams.
          Problem solving principles were incorporated into all 
        investigative and family protection units, as well as patrol 
        practices.
          A neighborhood policing and problem solving trainer/mentor 
        program was developed to support line officers and first level 
        supervisors.
          Supervisory responsibilities, shift and assignment structures 
        were revised to support neighborhood policing and problem 
        solving practices and expectations.
          Civilian, volunteer and reserve officer duties were expanded, 
        giving the police department one of the largest community 
        volunteer programs in the nation.
          Neighborhood Watch was redefined and redesigned to 
        incorporate problem solving by community members.
          Crime Analysis resources and procedures were revised to 
        increase their usefulness to both officers and residents in 
        analyzing and solving community problems.
          Training curriculum and personnel performance evaluation 
        processes were modified to incorporate neighborhood policing 
        and problem solving into day to day activities.
          Dispatch and communications procedures were revised to free 
        up patrol time for problem solving activities in partnership 
        with community members.
          Department liaisons between area commands, volunteers and 
        community groups were appointed, and community forums were put 
        into place for direct community input into policing priorities 
        and practices.
    Throughout the process, particular attention was devoted to 
communities that traditionally have not seen law enforcement as allies. 
The Department's success is reflected in high citizen satisfaction 
ratings among all ethnic and racial groups. In the 1999 victimization 
study conducted by the Bureau of Justice Statistics, survey questions 
included citizen satisfaction with local police. Of the twelve major 
cities included in the study, San Diego scored second highest in 
citizen satisfaction, with a 93% satisfaction rating.
    This study of vehicle stops and examination of potential racial 
profiling is an example of our community policing efforts. We are 
demonstrating the Department's commitment to gather data, analyze the 
results and share them with the community in an effort to mutually 
solve perceived or real problems that inhibit a true working 
partnership.

                            PROJECT HISTORY

    In early 1999 the San Diego Police Department made the decision to 
begin collecting data relating to vehicle stops. The Department was 
responding to requests from the community, including the local ACLU, 
Urban League and NAACP, to examine the issue of potential racial 
profiling by police officers making vehicle stops. This issue was 
receiving Statewide and National attention.
    There were several reasons the Police Department agreed to collect 
vehicle stop information. First, the Department wanted to address any 
community perception of racial profiling by San Diego Police officers. 
Second, the Department is a national leader in community policing and 
this data collection effort was viewed as a means of strengthening the 
police/community relationship. Third, Department command staff believed 
that Department personnel were not condoning or practicing racial 
profiling and were confident in the results of this evaluation process. 
Finally, the Department worked tirelessly over the past several years 
to build trust and credibility with community members citizens and this 
effort seemed to be a logical move to retain that trust.
    In addition, the Department had automated systems in place to 
assist in the data collection and analysis phases of the project. These 
systems allowed the Department to implement the project at a reasonable 
cost, without the need for extensive system development and 
implementation, which other agencies might require. However, the 
Department's complete vision for automation is still in development. 
Once completed, it will permit collection and analysis of this, or any 
other type, of data in the future to be faster, easier and even less 
costly.
    Vehicle stop data collection began in January 2000 and will 
continue throughout the year. Approximately 150 thousand vehicle stops 
are expected this year, based upon the annual number of traffic stops 
the past few years. The San Diego City Council will receive mid term 
preliminary results of this data collection in a presentation in July 
2000. Complete results and analysis of data will be provided in early 
2001.
    Following is detailed information on project methodology, future 
plans, costs, and transferability of the process to other police 
agencies.

                              METHODOLOGY

    To begin the process of collecting vehicle stop information, a 
series of community meetings were held and an internal Implementation 
Committee was formed. Preliminary decisions were made regarding the 
data to be gathered and the format that should be used. An outside 
consultant was engaged to review the process, related issues and make 
recommendations.
Data Collection
    As a result of many community and departmental meetings, analysis 
and review of ongoing efforts, the Department decided to collect as 
much data as was feasible, without being burdensome to officers. The 
following data is collected for every vehicle stop:
          Date and time of the stop;
          Division where stop occurred;
          Primary reason for the stop (moving violation; equipment 
        violation; radio call, citizen contact; officer observation/
        knowledge; Investigative Supplement information on suspect, 
        Department Bulletin or Log);
          Driver's sex and age;
          Driver's race (DOJ categories);
          Action taken (citation, written warning, verbal warning, 
        field interrogation, other);
          Whether the driver was arrested;
          Whether the driver was searched, and if so:
                  Type of search (vehicle, driver, passengers);
                  Basis for search (visible contraband, contraband 
                odor, canine alert, consent search, 4th amendment 
                waiver, search incident to arrest, inventory search 
                prior to impound, observed evidence related to criminal 
                activity, other);
                  Whether a ``Consent Search'' was obtained;
                  Whether contraband was found;
                  Whether property was seized.
Collection Methodology
    Another area of concern was the method of collecting data. It was 
initially hoped that officers would collect data in a ``wireless'' mode 
using the developing laptop computer system. That is, officers would be 
able to enter the data into laptops mounted in their patrol vehicles, 
electronically transmit the information into a database in the 
Department's computer system, and then begin the process of separating 
data for the analysis process. However, the development of the 
Department automation is not at the stage where this is yet possible.
    When the Department's automation is completed, patrol officers will 
be able to use laptop computers to: write crime and arrest reports; 
transmit and receive criminal history, photographs, maps and other 
data; transmit reports; communicate with dispatchers and others; and 
access information from any Department computer. Much of this 
information will be used to work with community members in their homes 
or at community meetings. Taking advantage of emerging technologies 
will allow police and the community to develop stronger trust and more 
effective partnerships.
    Since a ``wireless'' solution was not yet possible when we began 
the data collection process we decided to collect data on paper forms. 
Officers in the field can easily carry the forms, 4,, by 6,, cards. 
Completing the form for each stop takes less than 20 seconds.
    The ease of completing the form helped to ensure that officers 
fully cooperated with the project. In addition, Chief of Police David 
Bejarano prepared a video explaining the project and executive staff 
made personal presentations at patrol and traffic briefing. Results so 
far have been widespread acceptance of the process. Each day, officers 
turn in the forms, which are forwarded to Records Division for manual 
data entry.
    Part of the development of the data collection process was the 
design and implementation of a database structure. The Department's 
existing staff and already-developed automated systems ensured the 
success of database development.
Data Analysis
    Although there has been media coverage of the racial profiling 
issue, the Department is not aware of any published academic research, 
nor any existing models for methodical, controlled or comprehensive 
studies of this material. Therefore, the Department plans to use the 
vast data it will be collecting during the one-year period to complete 
comprehensive studies and produce meaningful conclusions for the 
Department's and community's benefit.
    Vehicle stop data collection provides a unique opportunity to 
obtain answers to meaningful questions and break new ground in the 
applicability of problem solving and community policing, although 
numerous questions remain. For example, the data will tell us who is 
stopped, why they were stopped, and the results of each stop. What is 
the best way to interpret and make use of that information? What other 
data can be used in comparison?
    Since the Department of Motor Vehicles does not maintain race 
designations, there is no way of knowing the demographics of the 
driving population. Census populations are not an accurate reflection 
of the driving population, because certain segments (e.g., young 
adults) are more likely to drive, and to drive more often and further, 
than others (e.g., the elderly). Some minority groups, most notably 
Southeast Asians and Hispanics, are notoriously undercounted in any 
census. With two of the busiest international border crossing in the 
world, hundreds of thousands of vehicles cross back and forth between 
San Diego and Mexico on a regular basis. Even if motor vehicle records 
could give us valuable information for analysis, an unknown proportion 
of San Diego drivers may not even have a California drivers' license.
    If we do develop comparative driving population estimates, are 
there certain variances that are acceptable? If 12% of the driving 
population is of a particular ethnicity, and 15% of stops are of that 
group, what does this tell us? What if the proportion of vehicle stops 
is lower than the driving population? From a community policing 
perspective, how does the community see the role of the police 
department in traffic stops? What do they expect from the police? What 
statistics and information are important to them? What possible 
operational changes or training practices will address their concerns 
without resulting in unacceptable levels of danger to officers, drivers 
and the general public?
    The Department has engaged prominent researchers, and is seeking 
grants or other sources of funding, in order to answer these questions 
and others, using the comprehensive database that is being developed.
Data Dissemination and Conclusions
    The Department plan is to disseminate the preliminary results of 
the studies in a report and presentation to the City Council 
approximately July 2000. A final report and presentation should be 
disseminated in early 2001. The Department also expects to disseminate 
the information widely to community members through the media and by 
making the information available on its Web site.

                              FUTURE PLANS

    As stated, the Department expects to widely disseminate the results 
of the study. If there are areas that demonstrate a need for 
improvement, the Department will evaluate appropriate operational or 
training changes. A decision about the need to continue collecting 
vehicle stop data into 2001 will be made by Chief Bejarano at the 
conclusion of the first year's study.

                                 COSTS

    The Department estimates that its costs for the collection and 
analysis of vehicle stop data for a one-year study are as follows:

Data Entry....................................................   $40,000
Professional Consultation.....................................    75,000
Department Technical and Analytical Staff Support.............    30,000
Focus Groups, Miscellaneous Supplies/Services.................    10,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   155,000

                            TRANSFERABILITY

    The San Diego Police Department was positioned to begin its data 
collection efforts as early as January 2000 by virtue of having begun 
the implementation of a fully automated system. Other law enforcement 
agencies and organizations that are not yet automated may find it more 
costly or difficult to collect, manually tabulate, complete analysis 
and share relevant data. It is important the Federal Government 
continue to support all efforts in enhancing or expanding the use of 
technology in policing.

                                SUMMARY

    The San Diego Police Department supports the collection of data for 
the purpose of examining racial profiling. We feel we owe it to our 
officers, our community, and the policing profession to take the lead 
in addressing any issues, perceived or real, that stand in the way of 
true community policing practices. We have come too far in developing 
trusting relationships to see much of it lost in the possible 
misconduct of a few officers. We also believe in the philosophy that 
the police need to work closer with the community to prevent crime and 
find real solutions to social disorder that contributes to crime. 
Police officers must accept the challenge to prove their integrity and 
look for every opportunity to improve their performance.

    Senator Ashcroft. Mr. Rodney Watt, please.

                    STATEMENT OF RODNEY WATT

    Mr. Watt. Thank you. My name is Rodney Watt. At the outset, 
I wish to thank the members of this subcommittee for giving me 
the opportunity to be of assistance in its work toward finding 
a solution to our national problem of racial profiling.
    I am currently a police patrol officer for the city of 
Highland Park, IL, which is located on the shore of Lake 
Michigan about 25 miles north of Chicago. I was born in 
Highland Park. I graduated from New Trier High School. I 
obtained a bachelor of science degree and later received a 
master of science degree.
    During training, a rookie police officer in Highland Park 
is assigned one or more field training officers, FTO's, to 
guide him. My curiosity was aroused almost immediately when my 
chief of police told one of my FTO's in my presence, ``Make 
sure that he is enforcing the NUT ordinance.'' The NUT 
ordinance was an unofficial practice that stood for 
``barring''--excuse me for saying this--``niggers uptown.'' We 
were to keep African-Americans away from the central business 
district's parks and beaches so that the community would not 
become nervous. One public park where many Hispanics lived was 
even referred to as, ``south of the border.''
    These were my first indications that something was amiss in 
the Highland Park Police Department's method of dealing with 
racial and ethnic minorities. One of my FTO's taught me to park 
perpendicular to U.S. 41, a main highway from Chicago to 
Milwaukee that splits Highland Park into eastern and western 
halves. Once parked in this manner, a police officer shines his 
bright lights into cars passing in front of him during the 
night, where he sees the race, sex, and even hair color 
instantly able to be seen.
    If the driver belongs to the wrong minority, the officer 
pulls out, stops, and arrests him. Because the driver has done 
nothing wrong at this point, my FTO taught me that, ``The 
Illinois Vehicle Code is an officer's best friend.'' A broken 
tail light, an unlighted license plate light, or alleged 
weaving even in one's own lane is sufficient for a stop. Once a 
motorist is stopped, the officer can hope to make a drunk 
driving, drug, or weapons arrest.
    Accusing a motorist of weaving is a standard favorite, 
enabling an officer to create probable cause and reasonable 
suspicion for a stop. Almost all of my supervisors taught or 
tolerated this improper behavior. One supervisor was known to 
have given Nazi salutes around the police station. The 
supervisor also had an album of Nazi camp songs at his home 
that he used to humiliate a Jewish officer when it was played 
at a party. Another supervisor made derogatory comments about 
many ethnic groups and frequently used the words ``kikes,'' 
``niggers,'' ``spics,'' ``gooks,'' ``melonheads,'' ``tacos,'' 
``beaners,'' and ``wetbacks.'' This type of language 
dehumanizes and insults the citizens, and sends a signal that 
harassment of minorities is justified.
    It greatly troubled me when I soon noticed that those 
engaged in such conduct were the ones who received extra 
training and promotion. I have felt the brunt of the 
administration's anger over my refusal to go along. For 
instance, I have been subject to constant frivolous 
disciplinary proceedings. The worst form of retaliatory conduct 
against me was a death threat made upon me by one of my own 
FTO's. In addition, I received another threat from a hate 
monger. I have been fearful for many months about physical harm 
to myself and my family.
    There are many other types of abuse going on at my police 
department, such as downgrading of crime to make the city look 
safer than it is, sexism, giving out test answers by the 
administration to favored officers, anti-union activity, 
missing weapons, missing drugs with which police dogs are 
trained. All of these matters are related to racial profiling, 
in that a police department that is divided into ``us'' and 
``them'' invariability engages in many types of wrongful 
conduct to keep up the wall of separation between those on the 
inside and those on the outside.
    These and other abuses are detailed in the affidavits of 16 
current and former police department officers and dispatchers 
who are supporting five additional officers who have sued the 
city and disclosed these practices in litigation. All of those 
affidavits have been submitted by me to this subcommittee. Most 
of those affidavits also speak of the fear of retaliation 
inherent in those officers and dispatchers coming forward to 
speak the truth about the abuses.
    The police department also uses code words to identify 
minority motorists who can be stopped. For instance, in the 
material I have submitted today there is a transcript of radio 
transmissions concerning the arrest of one Mexican-American who 
was identified as a ``sombrero.''
    I would like to caution the subcommittee that one part of 
its proposed bill may not work, specifically the part calling 
for the keeping of statistics regarding the race and ethnicity 
of those who are stopped. Officers often work alone in their 
squad cars and they can get around such requirements merely by 
not calling in the stops to the dispatchers, so that no one 
will even know they are stopping a suspect on the road. Without 
knowledge of the stop, the officer may avoid any report at all.
    Finally, Highland Park was founded in 1869. In the past 131 
years, Highland Park has never had an African-American officer 
or employee. This makes the chief's recent statement that he 
has been interested in racial diversity for years ring hollow, 
just as hollow as his denials of racial profiling, which has 
and does exist on the force. My other 20 fellow police 
department employees and those others who are afraid to come 
forward would like these practices ended and would like this 
subcommittee to do what it can to help reach that goal.
    Thank you.
    Senator Ashcroft. Thank you.
    [The prepared statement of Mr. Watt follows:]

                   Prepared Statement of Rodney Watt

    My name is Rodney Watt. At the outset, I wish to thank the members 
of this Sub-Committee for giving me the opportunity to be of assistance 
in its work toward finding a solution to our National problem of racial 
profiling.
    I am currently a police Patrol Officer for the City of Highland 
Park, Illinois, which is located on the shore of Lake Michigan about 25 
miles North of Chicago. I was born in Highland Park, and lived there a 
short time while very young. My family moved to another suburb a few 
miles closer to Chicago, and I graduated from New Trier High School, 
which is often recognized as one of the country's premier high schools. 
I then attended Northern Michigan University, where I obtained a B.S. 
degree, and later received an M.S. degree from Lewis University.
    I attended the Chicago Police Academy, where I was a Class 
Commander in my 14 week course because of my high academic achievement. 
After graduation from the Academy in early 1992, I considered myself 
lucky when I was hired as a Patrol Officer by Highland Park, which has 
close to 60 officers, including those on the supervisory level. 
Probably because of my strong credentials, my supervisors told me that 
I was a ``fair haired boy'' and on the right track. I, in turn, took to 
my training period with great enthusiasm.
    During training, a rookie police officer in Highland Park is 
assigned one or more Field Training Officers (``FTO'') to guide him or 
her. My curiosity was aroused almost immediately, when my Chief told 
one of my FTO's in my presence, ``Make sure that he is enforcing that 
NUT Ordinance.'' Priding myself on having studied Highland Park's 
ordinances, I picked up a book containing the ordinances, and began to 
look for the NUT ordinance. The Chief was highly amused by this, and 
told that FTO that college students think they know so much, but really 
don't, because they were not trained in the school of hard knocks. I 
soon found out that what the Chief was laughing at was my naivete in 
looking up the NUT ordinance at all, because it was not ``official.'' 
Instead, the NUT ordinance was an unofficial one that stood for barring 
(excuse me for saying) ``Niggers Up Town.'' We were to keep African-
Americans away from the central business district, not to mention the 
parks and beaches, so that the community would not become ``nervous.'' 
One public park, near where many Hispanics lived, was even referred to 
as ``South of the Border.''
    These were my first indications that something was amiss in the 
Highland Park Police Department's method of dealing with racial and 
ethnic minorities, but they were hardly my last. One of my FTO's taught 
me to park perpendicularly to U.S. 41, a main highway from Chicago to 
Milwaukee, that splits Highland Park into its Eastern and Western 
halves. Once parked in this manner, a police officer shines his bright 
lights into cars passing in front of him during the night. Once our 
squads were equipped with ``take down'' lights on top, the same thing 
could be done with those very powerful lights on the top of the cars. 
This causes sort of a movie camera or strobe effect, where the driver's 
race, sex, and even hair color is instantly able to be seen. If the 
driver belongs to an unapproved group of citizens, the officer can pull 
out and stop or arrest him or her.
    You are probably wondering how the officer can make an arrest at 
this point, since the driver has done nothing wrong. Well, that is 
another thing my FTO taught me, by telling me that ``the Illinois 
Vehicle Code is an Officer's best friend.'' A broken tail light, an 
unlighted license plate, or alleged ``weaving''--even in one's own 
lane, is sufficient for a stop. Once a motorist is stopped, the officer 
can hope to make a drunk driving, drug, or weapons arrest. Accusing a 
motorist of weaving is a standard favorite enabling an officer to 
create ``probable cause'' and ``reasonable suspicion'' for a stop or an 
arrest at the typewriter, or so my FTO taught me. In short, Highland 
Park Patrol Officers were taught to look not for probable cause, but to 
target minority groups.
    Almost all of my supervisors taught or tolerated this improper 
behavior. One of my supervisors was known to give the Nazi salute 
around the station, even to a Jewish married couple of officers. This 
supervisor also had an album of Nazi ``camp songs'' at his home that he 
used to humiliate one of those Jewish officers when it was played at a 
party. Another supervisor made derogatory comments about many ethnic 
groups, and frequently used the words, ``kike'' and ``nigger'' and 
``spic.'' Another supervisor once told me to do my own work, because he 
would not be my ``nigger.'' One other supervisor frequently used the 
``N'' word, and referred to Asians as ``gooks.'' Yet another supervisor 
referred to African-Americans as ``melonheads.'' I also remember a 
supervisor frequently calling Mexican-Americans ``beaners'' and 
``wetbacks.'' This type of language dehumanizes the insulted citizens, 
and sends the signal that harassment of minorities is justified. 
However, I was a bit dumbfounded by what I was being taught. I refused 
to participate in this sort of conduct, because it went against the my 
family's teachings of tolerance that were an important part of my 
upbringing. It greatly troubled me when I soon noticed that those who 
were not as educated as I was, but who engaged in such conduct, were 
the ones who received extra training and promotions. Of course, the 
Highland Park supervisors are too sophisticated to directly order 
racial profiling. So, they train the recruits they think might ``go 
along'' in this (and other wrongful conduct), and then rewarded those 
who do go along, while punishing those who do not.
    I have felt the brunt of the administration's anger over my refusal 
to go along. For instance, I have been subject to constant frivolous 
disciplinary proceedings. I was suspended for 30 days for refusing to 
make a police report stating that two juveniles had caused an 
``explosion'' in a cab when they set off a foul smelling gag toy. I am 
under investigation for not properly calling in my morning meal break, 
even though I followed the same procedure as every other day in my 9 
year career. Just two weeks ago, the Reverend Jesse L. Jackson, Sr., 
accompanied me to yet another disciplinary hearing concerning whether I 
disobeyed an order not to keep a key to the evidence locker in my 
possession overnight. When the Reverend and I tried to submit to the 
supervisor a lie detector test that I had passed the day before 
concerning the matter, it was flung back in our faces with the comment 
to the Reverend that he should not try to tell the supervisor how to 
run an investigation. Other disciplinary matters are also being pursued 
against me. In addition, I have been denied advancement. I have been a 
certified scuba diver since about 1986, but I have been unable to find 
a place on the Police Department's Dive Team. About a week ago, I asked 
my supervisor for a recommendation for advancement, and he told me ``I 
don't like your lawsuit, and I don't like the people around you,'' so 
he would not give me a recommendation. I was given an interview despite 
my lack of a recommendation, however it was conducted by the same 
supervisor who flung the lie detector test back at the Reverend Jackson 
and myself.
    Of course, the worst form of retaliatory conduct against me was the 
death threat made upon me by one of my former FTO's. In addition, I 
received an anonymous page, which when I called it back, was another 
threat from what appeared to be a white hate monger. I have been 
fearful for many months now about physical harm to myself and my 
family.
    There are many other types of abuses going on at my Police 
Department, such as the downgrading of crime to make the City look 
safer than it is, sexism, the giving out of test answers by the 
administration to favored officers, anti-union activity, missing 
weapons, and missing drugs with which our police dogs are to be 
trained. All of these matters are related to the racial profiling in 
that a Police Department that is divided into ``us and them'' 
invariably engages in many types of wrongful conduct to keep up the 
wall of separate between those on the inside and those on the outside. 
These and other abuses are detailed in the affidavits of 16 current and 
former Police Department officers and dispatchers who are supporting 5 
additional officers who have sued the City and disclosed these 
practices in the litigation. All of those affidavits have been 
submitted by me to this Sub-Committee. Most of those affidavits also 
speak of the fear of retaliation inherent in those officers and 
dispatchers coming forward to speak the truth about all the abuses.
    Some citizens and even some City Counsel members in Highland Park 
have expressed doubt that racial profiling can exist in such an 
affluent suburb. That doubt is not well founded, however. In the 
materials I have submitted today, there is a transcript of the radio 
transmissions concerning the arrest of one suspect. If I were to tell 
you that the suspect who was arrested was ``a hat,'' you likely would 
have no idea what I was talking about. However, when the suspect was 
identified as ``a hat'' on the transcript, all the other officers 
listening understood the code. The ``hat'' was then more closely 
identified as a ``big sombrero,'' which meant, according to the 
transcript, that it was ``probably filled with beer bottles.'' Maybe 
the word, ``sombrero'' gave you a hint of what was meant by the code 
words. A full translation of ``a hat filled with beer bottles'' is that 
there is a Mexican on the highway, so he is fair game to arrest, 
because among Highland Park Police Officers, it is understood that the 
words, ``a hat'' or ``a sombrero'' means there is a Mexican-American on 
the road who may be stopped without probable cause, just to see if he 
is drunk, in which case he may be arrested.
    I would like to caution this Sub-Committee, however, that one part 
of its proposed bill may not work, specifically, that part calling for 
the keeping of statistics regarding the race and ethnicity of those who 
are stopped. Highland Park Police Officers work alone in their squad 
cars, and are taught that if they put aside their concerns for safety, 
they can get around such requirements merely by not calling in their 
stops to the dispatchers, so that no one will even know that they are 
stopping a suspect on the roads. Without knowledge of the stop, the 
officer may avoid any report at all.
    Finally, Highland Park was founded in 1869. In the past 131 years 
since its founding, Highland Park has never had an African-American 
officer, and as the Reverend Jackson observed, it does not even have an 
African-American janitor. This makes the Chief's recent public 
statement that he has been interested in racial diversity on the force 
``for years'' ring hollow--just as hollow as his denials of racial 
profiling--which has, and does exist on the force. My other 20 fellow 
police department employees--and there are others who are afraid to 
come forward--would like these evil practices ended, and would like 
this Sub-Committee to do what it can to help reach that goal.

    Senator Ashcroft. Senator Torricelli is a member of the 
Judiciary Committee and represents the State of New Jersey and 
has asked to introduce the Honorable Leroy Jones.

STATEMENT OF HON. ROBERT G. TORRICELLI, A U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Torricelli. Thank you, Mr. Chairman, very much, and 
thank you very much for holding this hearing. Mr. Chairman, the 
State of New Jersey has the unfortunate distinction of having 
had a problem of racial profiling which was played out before 
the Nation. It also has the distinction, I think, of dealing 
with it first, honestly, and I hope successfully.
    Yesterday, the Attorney General of the United States 
appointed a monitor for the State police in New Jersey to 
assure that the reform of the State police to a new level of 
racial and ethnic sensitivity is accomplished. Assemblyman 
Jones, who appears before you, is one of those who has led this 
effort. A leader of the Black and Latino Caucus in the State 
legislature, he participated in a meeting that I helped arrange 
with Deputy Attorney General Holder a year ago which has led to 
this monitor.
    We are enormously proud in New Jersey that we had a serious 
problem, it persisted, but we have faced it honestly and I 
believe ultimately thoroughly. We are proud of good people in 
the State police. We have many good people who serve with the 
State police and they deserved better than the reputation they 
were getting because of problems of leadership and very 
misguided policies.
    I also, if you will forgive me, Mr. Chairman, in 
introducing Assemblyman Jones simply want to say something 
about the governor of my State, who is not of my party but of 
whom I am very proud that against enormous opposition she faced 
the problem of racial profiling after it had persisted for many 
years and did dismiss the Superintendent of the State Police of 
New Jersey, who deserved to be dismissed.
    Racial profiling cannot be defended. As I believe Professor 
Harris demonstrated, statistically it cannot bear evidence to 
those who suggest, as our former superintendent of the State 
police suggested, that certain ethnic or racial groups 
disproportionately commit crimes. They do not. This has not 
been a proud time for my State before we dealt with this issue. 
Perhaps it is helpful that the State that dealt with it first, 
and I believe most honestly, was a northern State that prided 
itself on racial sensitivity and social enlightenment. It 
provides real evidence that nowhere in the country is there an 
exception to old prejudices and bigotry. We have dealt with it.
    I simply, Mr. Chairman, asked for this moment to introduce 
Assemblyman Jones because he has played such an important role 
in my State in bringing this hopefully to an end.
    Senator Ashcroft. Assemblyman Jones.

             STATEMENT OF HON. LEROY J. JONES, JR.

    Mr. Jones. Thank you very much, Mr. Chairman. Thank you 
very much, Senator Torricelli, and certainly to Senator 
Feingold.
    On behalf of the New Jersey Legislative Black and Latino 
Caucus and the entire family of minority residents in my State, 
let me thank you all for this privilege to provide testimony 
regarding the Traffic Stops Statistics Study Act of 1999.
    Racial profiling has been a silent scourge in New Jersey 
for many minority motorists for a long time. While never, ever 
officially sanctioned, it was the standard operating procedure 
for State troopers to pull over cars containing black and 
Latino occupants.
    As the Nation began to step up its war on drugs over the 
past 20 years, State police developed stealth justification for 
stopping vehicles containing blacks and Latinos because they 
simply fit the profile of likely drug couriers. In our State, 
supervisory officers routinely displayed indifference toward 
complaints registered by law-abiding minority motorists who 
were pulled over by overly aggressive and confrontational 
highway troopers.
    This opened the door to further abuse by ill-intentioned 
troopers who saw an opportunity to intimidate, to abuse, and 
even terrorize minority motorists, and you have heard a little 
bit of that today. It was a travesty on many levels. In our 
community, the ongoing incidence of racial profiling simply 
fosters resentment and anger. In the police profession, there 
was a breakdown in the ethics of upholding the law. There were 
cases of illegal searches, falsified reports of police 
personnel.
    Even court intervention had little impact on the situation. 
In March 1996--and Senator Lautenberg talked about this a 
little bit--a lower court State judge declared that troopers 
patrolling the southern stretches of the New Jersey Turnpike, 
I-95, engaged in racial profiling to stop and arrest minority 
motorists from 1988 to 1991. That case was decided largely on 
the basis of statistical analysis offered by Dr. John Lamberth, 
Chairman of the Psychology Department at Temple University.
    He documented that blacks accounted for between 35 percent 
and 46 percent of motorists stopped, and 73 percent of those 
arrested along the southern end of the turnpike. Now, let me 
just put those numbers in context for you. African-Americans 
constitute 13 percent of the State's population. The percentage 
of black motorists is perhaps even smaller.
    Senators, so deep was the perpetual state of denial about 
racial profiling in my State that the State attorney general's 
office worked for 3 years to overturn that landmark lower court 
decision. Instead of recognizing the need of statistical 
reporting, the State sought to bury the issue.
    Racial profiling, in fact, did not reach a critical mass 
until April 1998, when two State troopers fired 11 shots into a 
van carrying four unarmed young black and Latino men, wounding 
three of them. It became a nationally publicized case. 
Legislators like myself, clergy, and community activists 
stepped forward taking efforts to put an end to the hostile 
environment that existed along our highways.
    We were, however, constantly frustrated by one huge 
impediment, the lack of reporting about the racial 
characteristics of motorists subjected to highway stops. It 
took an enterprising newspaper, gentlemen, with a good lawyer 
to finally shed some light on this problem. On February 10, 
1999, the Star-Ledger of Newark gained access to police records 
showing that minorities made up 75 percent of the people 
arrested along the turnpike during the first 2 months of 1997. 
The figure was inescapably disproportionate and truly alarming.
    The State attorney general's office hastily announced a 
comprehensive investigation of the 2,600-member State trooper 
force. Days later, the U.S. Justice Department revealed that it 
had been investigating racial profiling in New Jersey for over 
1 year.
    Citing the continued lack of statistical information and 
the State's repeated denials, my colleagues and I from the 
Black and Latino Caucus took testimony from racial profiling 
victims like you have done here today. We listened to over 30 
hours of testimony. The human toll was dramatically captured by 
one Dorothy Cobbs, a 52-year-old homemaker from New York. 
Senators, she wept like the young man in the video as she 
recounted her ordeal with State troopers during a stop along 
the Garden State Parkway in 1996. Troopers cursed, spat upon 
her, maced and brutalized her before charging her with multiple 
offenses. Ms. Cobbs later won a $225,000 settlement in a 
Federal civil rights case.
    After the hearings, the Caucus issued a report which I have 
here today and I will respectfully submit to the record.
    [The report referred to is retained in the committee 
files.]
    Mr. Jones. We produced a 32-bill legislative package to 
combat racial profiling and job discrimination. No less than 
five of those bills pertained to issues of reporting and 
compiling information about motor vehicle stops and 
corresponding arrests by troopers who patrol New Jersey's 
highways. We believe, Senators, that reporting and statistical 
analysis are intrinsic in preventing recurrences of 
institutionalized racial profiling. It fosters accountability 
at all levels of law enforcement.
    Clearly, the New Jersey experience is illustrative of why 
the Traffic Stops Statistics Study Act is so critically 
necessary. Racially-motivated traffic stops are liable to 
flourish when there is no adequate scrutiny of what drivers 
police choose to pull over along our highways. In empowering 
the Justice Department to compile and analyze data on traffic 
stops, there may be new light shed on the insidious practice of 
racial profiling, its pervasiveness and its causes.
    The approach you consider here today will help everyone. It 
will discourage unscrupulous police officers from 
indiscriminately engaging in reprehensible conduct, conduct 
that tarnishes the image of their fine profession and drives 
that wedge between them and the people that they have sworn to 
protect and serve.
    Mr. Chairman, members of the committee, that concludes my 
comments and I am certainly prepared to answer any questions 
that you might have with respect to the New Jersey experience.
    [The prepared statement of Mr. Jones follows:]

               Prepared Statement of LeRoy J. Jones, Jr.

    Thank you, Senator Torricelli. On behalf of the New Jersey 
Legislative Black and Latino Caucus and the entire family of minority 
residents in my state, let me thank you for this privilege to provide 
testimony regarding the Traffic Stops Statistics Act of 1999.
    Racial profiling has been a silent scourge for as long as New 
Jersey's minority motorists can remember. While never officially 
sanctioned, it was standard operating procedure for state troopers to 
pull over cars containing black occupants.
    As the nation stepped up its war on drugs over the past 20 years, 
State Police developed stealth justification for stopping vehicles 
containing blacks because they fit the profile of likely drug couriers.
    Supervisory officers routinely displayed indifference toward 
complaints registered by law-abiding minority motorists who were pulled 
over by overly aggressive and confrontational highway troopers.
    This opened the door for further abuse by ill-intentioned troopers 
who saw an opportunity to intimidate, abuse, even terrorize minority 
motorists. It was a travesty on many levels. In the minority community, 
the ongoing incidents of racial profiling fostered resentment and 
anger. In the police profession, there was a breakdown in the ethic of 
upholding the law. There were cases of illegal searches and falsified 
reports by police personnel. Even court intervention had little impact 
on the situation.
    In March 1996, a lower-court state judge declared that troopers 
patrolling the southern stretches of the New Jersey Turnpike engaged in 
racial profiling to stop and arrest minority motorists from 1988 to 
1991. That case was decided largely on the basis of statistical 
analysis offered by Dr. John Lamberth, chairman of the Psychology 
Department at Temple University. He documented that blacks accounted 
for between 35 percent and 46 percent of the motorists stopped and 73 
percent of those arrested along the southern end of the Turnpike.
    Let me put those numbers in context for you: African-Americans 
constitute 13 percent of the New Jersey population; the percentage of 
black motorists is probably even smaller.
    So deep was the perpetual state of denial about racial profiling in 
my state that the state's Attorney General Office worked for three 
years to overturn that landmark lower-court ruling. Instead of 
recognizing the need for more statistical reporting, the state sought 
to bury the issue.
    Racial profiling, in fact, did not reach a critical mass until 
April 23, 1998, when two state troopers fired 11 shots into a van 
carrying four unarmed young black and Latino men, wounding three of 
them. It became a nationally publicized case.
    Minority legislators like myself, clergy, and community activists 
stepped up efforts to put an end to the hostile environment along the 
highways. We were, however, constantly frustrated by one huge 
impediment: a lack of reporting about the racial characteristics of 
motorists subjected to highway stops.
    It took an enterprising newspaper with a good lawyer to finally 
shed some light on the problem. On Feb. 10, 1999, the Star-Ledger of 
Newark gained access to police records showing that minorities made up 
75 percent of the people arrested along the Turnpike during the first 
two months of 1997. The figure was inescapably disproportionate. 
Alarming.
    The state Attorney General's Office hastily announced a 
comprehensive investigation of the 2,600 member state trooper force. 
Days later, the U.S. Justice Department revealed that it had been 
investigating racial profiling in New Jersey for over a year. Citing 
the continued lack of statistical information and the state's repeated 
denials, my colleagues and I in the Black and Latino Caucus took 
testimony from racial profiling victims.
    The human toll was dramatically captured by Dorothy Cobbs, a 52-
year-old homemaker from New York. She wept as she recounted her ordeal 
with state troopers during a stop along the Garden State Parkway in 
1996. Troopers cursed, spat upon, maced and brutalized her before 
charging her with multiple offenses. Mrs. Cobbs later won a $225,000 
settlement in a federal civil rights case.
    After the hearings, the Caucus issued a report and produced a 32-
bill legislative package to combat racial profiling and job 
discrimination. No less than five of the bills pertain to issues of 
reporting and compiling information about motor vehicle stops and 
corresponding arrests by troopers who patrol New Jersey's highways.
    We believe that reporting and statistical analysis are intrinsic to 
preventing recurrences of institutionalized racial profiling. It 
fosters accountability at all levels of the law enforcement process.
    Clearly, the New Jersey experience is illustrative of why the 
Traffic Stops Statistics Study Act is so critically necessary. Racially 
motivated traffic stops are liable to flourish when there is inadequate 
scrutiny of what drivers police choose to pull over along our highways. 
By empowering the Justice Department to compile and analyze data on 
traffic stops, new light might be shed on the insidious practice of 
racial profiling--its pervasiveness, its causes.
    The approach you are considering here will help everyone involved. 
It will discourage unscrupulous police officers from indiscriminately 
engaging in reprehensible conduct--conduct that tarnishes the image of 
their fine profession and drives a wedge between them and the people 
they have sworn to protect and serve.

    Senator Ashcroft. The Senator from Wisconsin is recognized.
    Senator Feingold. Thank you, Mr. Chairman. First, I ask 
unanimous consent that the following statements be entered into 
the record of the hearing: statements from the NAACP, the 
National Black Police Association, and Progressive Policy 
Institute, as well as the statements of two Wisconsin 
constituents, Mr. and Mrs. Trent Jackson, and Ms. Karen Murphy 
Smith.
    Senator Ashcroft. Without objection.
    I would again reiterate our willingness to accept and 
receive testimony and comment from any of you, additionally, 
and including those who could not come today. We are very 
pleased to do that and we will hold the record open for several 
days so that can be achieved.
    [The statements referred to can be found in the appendix.]
    Senator Ashcroft. Go ahead.
    Senator Feingold. Thank you, Mr. Chairman.
    Let me thank all the witnesses. I want to particularly 
thank Mr. Watt, who lives on the other side of the great Packer 
and Bear divide, but on either side of that divide, we would 
say you have guts. You deserve praise, not threats, and I thank 
you.
    Let me begin by asking Professor Harris, you have heard 
testimony from all the witnesses. I would like to invite you to 
respond to what the other witnesses have said. Particularly, I 
would be interested in any responses you have to the testimony 
of Mr. Hughes.
    Mr. Harris. Yes, Senator, I would be glad to respond. My 
response to Mr. Hughes' testimony is that I believe that when 
he says that this type of enforcement merely reflects 
statistical reality, he has fallen victim to the same 
statistical fallacy that I was pointing at.
    The use of arrest statistics does not illuminate drug use. 
It does not illuminate the prevalence of drug trafficking. It 
is a reflection of enforcement. So when we use drug statistics, 
as he did in his testimony, to justify this practice, to call 
it effective, what we are doing is we are caught in a self-
fulfilling prophecy. If we look to those we arrest to determine 
who we arrest in the future, we will continue to look at those 
same people.
    There is a relationship, in short, between where you look 
for things and where you are likely to find them. If you look 
in the cars of African-Americans and Latinos, most often that 
is where you will find the stuff and that is who you will 
arrest. Those arrest statistics will go up, the statistics in 
the prisons will go up. And you will go out and you will do the 
same thing all over again the next day because your experience 
has confirmed what you thought in the first place.
    If we thought that 40-year-old white law professors were 
likely to have more contraband and we could figure out a way to 
identify them from a distance, I guarantee you that within 3 
years the statistics for 40-year-old white law professors would 
show many more arrested. It is that simple. Relying on arrest 
statistics does not tell us enough, and that is why we so 
desperately need the statistics that this bill would provide.
    Senator Feingold. Thank you, professor.
    Mr. Welter, I applaud the commitment and leadership shown 
by the San Diego Police Department on this issue, and the tone 
of your remarks. I mean, you are the example of the law 
enforcement I know in this country, and particularly in my 
State, and I think it is an extremely positive message.
    I guess specifically I would like to know how much time it 
does, in fact, take for an officer to collect this data in 
writing, and how much time do you think it will take for an 
officer to collect data with the wireless computer system once 
it is fully operational?
    Mr. Welter. Thank you, Senator, for the compliment. We 
developed a form that is a pretty simple form to fill out. It 
is similar in data to what the bill calls for, almost 
identical, in fact, and we developed that form several months 
ago. It takes an officer about 20 seconds to fill out the form. 
We also don't require that the officer sign the form and there 
is no information about the driver on the form.
    The form is attached to any documentation, whether it be a 
citation or a warning or an arrest report. And then once it is 
submitted, it is separated at that time so there is no way to 
track it back to either the officer or the person who is 
stopped.
    Once we get our wireless technology up to speed, which I am 
hoping we will get support to do that, we anticipate--right 
now, our officers have laptop computers in their cars. They use 
those computers to do a myriad of things, including working 
with the community on problem-solving, and so on and so forth. 
But the nice part about that technology is we will be able to 
capture that data in even a quicker fashion. We will be able to 
send it automatically over the air waves to the station. We 
won't have to depend on laborious data entry personnel to enter 
all that data.
    In addition, it will be the first step toward our analysis 
process. So we will be able to take that data and separate it, 
and that is the true problem here is how do we analyze the 
data, because I think many times just raw data is not going to 
tell us a lot of things. What we really need to do is get at, 
OK, how does this data either support conclusions or not 
support them, and also how are we going to use this data to do 
something about looking at policies, procedures, operations, 
and relationships.
    Senator Feingold. Thank you, Mr. Welter.
    Back to Professor Harris for just a moment, if you could 
respond to the concern that I think Mr. Watt raised that 
officers will not always report stops.
    Mr. Harris. Yes, and that is a good question, Senator. 
There is always the chance in any statistical or other 
reporting system that it can be manipulated or dodged. The key 
thing is if we are going to have statistical collection to make 
sure that it is thorough and to make sure that there are 
auditing systems of one type or another put into place. These 
can be constructed in many ways. I won't take your time by 
going into the details of any one because we don't want to have 
a one-size-fits-all solution because every department is 
frankly very different.
    It can be done, though; it can be done. It has been done 
for statistics for many other law enforcement purposes. The 
important point to remember is that unless we measure 
something, we can't manage it. You cannot manage what you don't 
measure. We have to take the first steps. I applaud San Diego 
and San Jose and the other cities that have done that, and it 
can be done. It is not an easy problem. Officer Watt raises a 
very good issue. It is something we have to think about in 
advance, but it can be done.
    Senator Feingold. Thank you, professor, and thank you, Mr. 
Chairman.
    Senator Ashcroft. Senator Torricelli.
    Senator Torricelli. Thank you, Mr. Chairman. I will only 
take a minute. Mr. Chairman, like Senator Feingold, I want to 
note the powerful testimony I have heard today from Mr. Watt. I 
will feel good when racial profiling is eliminated in our 
country, but I will feel even better if it is eliminated 
because white police officers played a role in bringing it to 
an end.
    You are a man of extraordinary courage, and I was very 
moved and extremely pleased by your testimony, as I was by 
yours, Chief. I thank you for being here and the role that you 
have played.
    I wanted to just ask a couple of things, and perhaps, 
Professor Harris, I could start with you on this. Last year, I 
had an amendment included in the omnibus appropriations bill 
for $7 million to install video cameras in police cars. In my 
conversations with Governor Whitman of New Jersey, one of the 
things we agreed to do is she will use State money to start 
putting video cameras in State trooper cars on the turnpike. I 
agreed to try to get additional Federal money to help ensure 
that as many police cars in the state get video cameras as 
possible. It is my belief that this was not only in the 
interest of the motorists so that there was a record of who was 
stopped and whether they were treated fairly, because as 
Assemblyman Jones noted, not only were people being stopped, 
but they were being abused, but also in the interest of State 
troopers as it provides them a defense against false 
accusations. While there is a legitimate problem of profiling, 
that charge can also then be seized upon by people who are 
committing crimes and used as an excuse to complain.
    Could you comment on the use of these video cameras?
    Mr. Harris. Senator Torricelli, I think that is an 
excellent issue you have put your finger on. The use of these 
cameras, while not a panacea, certainly help advance both our 
factual knowledge, our ability to monitor and supervise 
behavior if we are police administrators, and it will protect 
officers against false claims. As you say, I think that is 
something that is a real benefit to the police officers 
involved.
    Also, it can serve as evidence of crimes in criminal court. 
I can still remember the first time as a young prosecutor when 
I was in criminal court watching a video of a DWI suspect. I 
mean, no testimony was necessary at all. Just watching the 
videotape of that man slouching on his car was enough. So these 
camera systems can do a number of things. They can help us 
address racial profiling, they can make for better 
administration. They can even make the statistics gathering 
easier and they are good for law enforcement all around.
    Senator Torricelli. Assemblyman Jones, while it took New 
Jersey a long time to come to terms with the problem of racial 
profiling and the State government was in denial through 
several administrations, are you now convinced that we are at a 
point where there is a general acceptance of the extent of the 
problem and of the need to address it? Have we reached near 
consensus in the State of New Jersey at this point?
    Mr. Jones. Senator, I believe that recent polls have 
determined that there has been acceptance of the fact that 
racial profiling is real and it exists. And the issue that was 
glaringly obvious was that was not necessarily a reality in the 
white community. But I believe because of New Jersey's 
experience that that now has been elevated to a reality in the 
white community.
    Senator Torricelli. Well, the process began when the U.S. 
Justice Department became involved first in monitoring the 
State police and finally in appointing a federal monitor which 
culminated yesterday in Mr. Rivas' appointment. I was pleased 
with Mr. Rivas' appointment and I think he seems well 
qualified. He seems to have the confidence of law enforcement, 
and yet I believe he will be sensitive and work closely with 
the leadership in the minority community.
    Do you share confidence in this process?
    Mr. Jones. Absolutely, very, very pleased with the Deputy 
AG's actions to date. Let me just say that I am also encouraged 
by the appointment of a new Superintendent of the New Jersey 
State Police. And I do believe that inasmuch as we are very 
early in the process and we have not been able to measure that 
progress just because of time----
    Senator Torricelli. But certainly the State troopers 
themselves feel better about themselves now and about their 
relationship with people in the State and their mission. I 
think this has not only been reassuring to the members of the 
minority community, but in my own estimation helpful to State 
troopers.
    Mr. Jones. I believe so. I believe that the rank and file 
will go through a healing period because obviously there were 
some morale issues as a result of all that was going on. But I 
am encouraged that as we continue to take steps forward that 
those things will heal.
    Senator Torricelli. And my colleagues should know we can 
feel very good about the role of the Justice Department. If New 
Jersey is to be the test case where we dealt with this issue 
first and came to some fair solution, the U.S. Justice 
Department handled this promptly, thoroughly, and fairly, and I 
was extremely pleased.
    Mr. Chairman, thank you for allowing me to join you today 
and for holding this hearing.
    Senator Ashcroft. Thank you very much.
    I want to thank the members of the panel, all of you, for 
coming, and I won't reiterate remarks that have already been 
made. I really feel like I need to ask Mr. Hughes if he has 
comments that he would like to make because the questioning has 
focused on the rest of the panelists and I think, in fairness, 
I want to give him an opportunity to make some statements.
    May I just indicate some areas of interest that I have, and 
this is one of these topics that we could probably ask 
questions on for a long time. You seem to raise the distinction 
between--criminal drug interdiction profiling was one phrase 
you used, and racial profiling. I guess what I would ask is, is 
there a possibility that law enforcement can continue to use 
profiling as an enforcement tool, or should or should not, 
absent race? I think a profile usually is more than one 
characteristic.
    So can you kind of address that? I am not an expert in 
police work, but it seems to me that there are some profiling 
things that might be helpful in enforcement, and is it possible 
that we could use that without infringing the integrity of 
American citizens who need to be treated equally based on race?
    Mr. Hughes. Yes, sir, definitely so. Criminal profiling is 
a good thing. Like I stated, it is a multitude of indicators or 
characteristics. Race is not one of these. First of all, you 
have to have probable cause for a motor vehicle stop. Second of 
all, if you look at DEA statistics--and I disagree with 
Professor Harris. He suggests that we ignore or do away with 
criminal statistics, criminal profiling. What would he suggest 
to replace these? How would we develop the profile if all 
statistics are not considered?
    If you talk to African-American police chiefs, two of the 
country's most notable, Bernie Parks in L.A. and Ruben 
Greenberg in Charleston, SC, they will echo the same sentiments 
as I have stated here today. It is reason, not race. You 
enforce the laws, you stop crime. You can't have race come in 
and say, well, we are enforcing crime on race. You have to 
enforce the crime and then you keep statistics on the person 
that you arrest, or persons that you arrest.
    I agree with the professor that you can play with 
statistics. I have seen it done in the State police. And I am 
not saying the Maryland State Police did not have problems. 
They had some problems, also, and they have cleaned them up. 
And I am not saying we don't have bad cops. We do have bad 
cops, African-American, Hispanic, caucasian. And you are not 
going to solve deep-rooted family prejudices with this Traffic 
Statistics Act. You are always going to have those; you are 
always going to have isolated cases. I have heard some here 
today that I have heard before and I was appalled by them also. 
They are going to continue.
    I would find it very difficult for me to stop and go 
through the litany of questions that are in this Traffic 
Statistics Act and ask anyone here, with the mixed marriages 
and all today, are you African-American, or are you caucasian, 
or are you Latino? Right away, that is going to set off a 
confrontation for that officer.
    And another thing: traffic on Interstate 95, with the 
statistics that I have seen within the Maryland State Police 
when I was there, it was ludicrous. I mean, it is an interstate 
highway. My God, you know, you have individuals from New York 
to Florida. You can't base the statistics in Maryland or New 
Jersey on the population of ethnicity for that ethnic group in 
that specific State. You just can't do it.
    So I think we are overreacting to a problem. And I am not 
saying not to correct the problem. Please correct the problem, 
but don't go overboard and don't broad-brush all law 
enforcement for the actions of a few. Most police departments 
do keep good records, and I think it is incumbent upon 
governors and mayors to look at it. You know, if the police 
chief is not doing his job, fire him, terminate him or her. But 
I agree with you, Senator, on that comment.
    Senator Ashcroft. Well, I wanted to try and make it clear 
that there is a broader issue about profiling generally. Racial 
profiling, it seems to me, is a very much more narrow issue and 
much more problematic.
    Mr. Welter, thank you for coming from San Diego to help us. 
As a sort of pioneer in this arena, you can help enlighten us. 
Do you have any way of identifying the neighborhood in which a 
stop is made, and do you try to correlate the racial 
composition of the neighborhood vis-a-vis the stop or anything 
like that in the data that you are keeping?
    Mr. Welter. You know, that is part of the problem with the 
data collection and the way that it is being collected. And, 
again, we don't have a way--obviously, one neighborhood has a 
different ethnic or racial makeup than another, certainly. But 
then you also throw in the variables of what is the driving age 
or the number of people that drive in that particular ethnic or 
racial makeup. So statistics and the raw numbers--this is why 
we are seeking expert research consultants to help us with our 
analysis because it is a very difficult process, and I don't 
have the answer to that question, Senator.
    Senator Ashcroft. Well, I think it is very easy to come to 
quick conclusions from data, but we wouldn't want to do that, I 
don't think, recklessly because what we are trying to avoid is 
a reckless, quick conclusion based on something else that 
doesn't lead us to the truth.
    Mr. Welter. We are capturing the division where the stop is 
made. In our city, we have eight divisions that are very broad 
and very diverse. In fact, in one community there are 30-some 
different languages spoken. So to try to figure out anything in 
regard to ethnic or racial breakdown in that community will be 
very difficult.
    Senator Ashcroft. Well, let me thank all of you for your 
patience. We have spent a little extra time.
    Did you want to make some closing remarks?
    Senator Feingold. One sentence, Mr. Chairman. I just want 
the record to be clear, and I am glad that you gave Mr. Hughes 
a chance to give his opinion. The legislation does not call for 
the officer to inquire about a person's race or background. It 
merely asks the officer to give their perception. So the notion 
that there would be a confrontation on that point is mistaken. 
That is not a part of the legislation.
    Thank you, Mr. Chairman, and thank you again for your 
tremendous cooperation and all the time you have been willing 
to devote to this.
    Senator Ashcroft. I think this has been a very informative, 
productive hearing. I want to thank all of the witnesses. Every 
witness has brought something to this table that wouldn't 
otherwise have been here. I am grateful for that.
    This does continue to be an issue of national concern to 
citizens and officials of all persuasions. We have a situation 
where we have a Republican governor like John Rowland of 
Connecticut signing legislation that will require the 
collection of this kind of data, and a Democratic governor like 
Gray Davis of California vetoing it because he believes it is 
too burdensome for officers. So there are broad views.
    We have heard some very, very serious stories about 
individuals and their experiences, and there are some different 
views on how best to address the issue. But I think in large 
measure the idea that race becomes the basis upon which someone 
is arrested--I would hope that we all understand that that is 
not an appropriate basis for an arrest.
    I hope that the members who are here today have found this 
as useful as I have, and as I mentioned at the beginning of 
this hearing, I think the Traffic Stops Statistics Study Act is 
at least a good point of departure for getting a better picture 
of what the scope and depth of this issue is. I look forward to 
working with Senator Feingold and other cosponsors of the 
legislation to see if we can make it legislation which is 
valuable, meaningful, and worthy of support.
    With that, I want to thank you all for being here and 
commend you for your willingness to provide us with this 
information.
    [Whereupon, at 4:31 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2780A.001
    
    [GRAPHIC] [TIFF OMITTED] T2780A.002
    
    [GRAPHIC] [TIFF OMITTED] T2780A.003
    
    [GRAPHIC] [TIFF OMITTED] T2780A.004
    
                 Additional Submissions for the Record

                              ----------                              


   Prepared Statement of Mr. Hilary O. Shelton, Director, Washington 
   Bureau of the National Association for the Advancement of Colored 
                                 People

    Thank you, Senator Ashcroft, for agreeing to hold this hearing and 
to you, Senator Feingold, for asking me to submit a statement on behalf 
of the NAACP for the record.
    Racial profiling is an extremely disturbing and alarmingly 
prevalent practice in America today. The fact of the matter is, if you 
are a person of color living in the United States, there are law 
enforcement officials that look at you differently, and with a greater 
level of suspicion. They always have, and until something is done to 
raise the level of accountability, they will continue to do so.
    The result of this bias is that ethnic minorities are stopped 
walking on the streets, while driving their cars, while trying to 
travel through airports, or while trying to enter their homes, at 
disproportionate rates. Furthermore, because of this increased 
suspicion, people of color are, as we see time and again, treated much 
more aggressively and with much more force than their Caucasian 
counterparts.
    It is difficult for Americans of color not to have their faith in 
the United States Justice system challenged almost daily when we know 
from experience that we are treated differently because of the color of 
our skin.
    Over the past few years, the practice of racial profiling has 
received much more attention, in the media and elsewhere, than ever 
before. This increased attention is, in some ways, a double-edged 
sword. While it is satisfying to have our concerns and anecdotes 
validated by state-sponsored studies and nationally recognized 
newspapers, it is also frustrating that more is not being done to 
address this insidious problem.
    In Maryland, Florida, New Jersey and throughout this nation we have 
the empirical evidence to validate the fact that racial profiling is a 
common, even pervasive tool, of law enforcement officials at all 
levels. Yet what has been done to change the way these law enforcement 
officials perform their duties? Relatively little. In some ways, 
admitting there is a problem but not having the political courage to 
address it is even more frustrating to those of us who are stopped 
while walking, driving, trying to board an airplane or sitting on a 
park bench simply because of the color of our skin. It tells us that 
the powers that be, the politicians and the justice system, still think 
that people of color are, by nature, less trustful and it is therefore 
okay to treat them with increased suspicion. It is degrading, 
demoralizing, and in the end it will make it harder for us as a nation 
to meet the challenges of the future together.
    The legislation before Congress, S. 821 and H.R. 1443, is a small 
step that nevertheless must be taken. We need a national study to try 
to determine the depth of the problem. The studies that have been 
conducted to date, while extremely helpful and illuminating, have all 
been of sufficiently small scale that some may try to argue that they 
reflect local biases or training.
    I can tell you that in my capacity with the NAACP I have had cause 
to travel throughout this nation and wherever I go, regardless of the 
size of the crowd, there is invariably one person in every meeting who 
has recently been stopped by an officer of the law simply because of 
the color of his or her skin.
    Racial profiling is a national problem, it occurs at all levels of 
law enforcement in all corners of this nation, and it deserves--in 
fact, it requires--a federal response.
    I therefore urge the esteemed members of this subcommittee, and 
indeed of this austere body, to act now to ensure that S. 821 becomes 
law sooner rather than later. Let us begin to address racial profiling 
in a real and concrete way, not simply with words.
    In conclusion, I would like to reiterate a statement I made at the 
beginning of my comments. It is difficult for Americans of color not to 
have their faith in the United States Justice system challenged almost 
daily when we know from experience that we are treated differently 
because of the color of our skin. If Americans want our nation to 
continue to lead the world economically, politically, and morally, we 
must first make sure that our own moral fabric is not marred. We must 
make sure that the words ``Equal Justice for All'' are practice, not 
just words.
                                 ______
                                 

 Prepared Statement of John Cohen, Director, Community Crime Fighting 
                 Project, Progressive Policy Institute

    Law enforcement agencies around the country are reassessing the 
controversial tactic of racial profiling, in which police stop and 
question people primarily due to their race. The Progressive Policy 
Institute (PPI) believes it is time to end racial profiling and replace 
it with innovative crime-fighting strategies that marry information 
technology and community-oriented policing.
    The following report, entitled Eliminating Racial Profiling: A 
Third Way Approach, is a product of the new Community Crime Fighting 
Project, whose mission is to modernize America's criminal justice 
system by harnessing new technologies to progressive, community-based 
strategies for preventing crime and improving public safety.
    Eliminating Racial Profiling: A Third Way Approach challenges the 
assumption that racial profiling is simply a matter of prejudice. But 
it also demolishes the claim that profiling is an effective tool of law 
enforcement. On the contrary, profiling is emblematic of an obsolete 
style of ``random'' or ``reactive'' policing in which officers ride 
around in cars awaiting emergency calls.
    Instead of racial profiling, the police must do a better job of 
criminal profiling--making timely use of information that links 
suspects to actual crimes, not merely to statistical probabilities. 
Since the most valuable information comes from people in crime-ridden 
areas, tactics like racial profiling--which breed mistrust and outright 
hostility between police and poor communities--are counterproductive. 
To reduce crime and improve relations between minority communities and 
the police, the paper proposes four key strategies:
          Deploy technology more effectively. Develop and use 
        information technology systems to put accurate and timely 
        information about criminal activity in the hands of the police, 
        facilitating decision based on data instead of race.
          Concentrate on ``hot spots.'' Crime is heavily concentrated 
        in specific geographic areas. Public Safety plans should be 
        coordinated and brought to bear on these ``hot spots.''
          Focus on high-risk offenders. A relatively small number of 
        people are responsible for a majority of crimes. Crime fighters 
        need to target these dangerous people.
          Improve police recruitment and training. Enhance the quality 
        of police forces with stringent hiring standards and train 
        officers to identify true indicators of criminal activity.

                              INTRODUTION

    Until recently, African-American drivers on the New Jersey Turnpike 
stood a much greater chance than white drivers of being stopped by the 
State Police for a random drug search. This practice--an example of 
racial profiling--ended abruptly last year when public outrage forced 
the removal of the State Police Superintendent.
    The outcome in New jersey was, however, the exception rather than 
the rule. In fact, law enforcement agencies throughout the nation 
commonly use tactics that subject members of certain minority groups to 
closer scrutiny than others. When a police officer detains and 
investigates a person or group of people primarily because of their 
race--absent of any information linking them to criminal activity--that 
officer is engaged in racial profiling.
    For example, for several years, police have known that African-
American gang members from New York City fly to Florida to buy cocaine. 
These gang members then use rental cars to transport the cocaine back 
to various locations in the Northeastern United States. Aware of this 
pattern, police officers from various agencies have adopted an 
enforcement approach in which they select primarily cars driven by 
African-American males traveling northbound on Interstate 95 to stop 
and search for drugs. While these stops have occasionally led to 
seizures of illegal drugs, they also resulted in individuals who are 
not involved in illegal activity being stopped and detained.
    Racial profiling is not limited to enforcement activities on the 
highway. An African-American actor is presently suing the City of New 
York following his arrest in the lobby of his apartment building. He 
was arrested, along with five other African-American males, during a 
police operation intended to arrest suspected drug dealers. The actor 
was placed into custody for five hours and strip searched, even though 
he was not in possession of any drugs or involved in any criminal 
activity.
    If racial profiling were a matter of simple bigotry, it would be 
easy to condemn and ban. But law enforcement officials, including some 
African-American police chiefs in big cities, defend such tactics as an 
effective way to target their limited resources on likely lawbreakers. 
They maintain that profiling is based not on prejudice but 
probabilities--the statistical reality that young minority men are 
disproportionately likely to commit (and be the victim of) crimes. 
Citing these facts, the courts have repeatedly upheld the 
constitutionality of routinely using race as a criteria for selecting 
the targets of enforcement action.
    Of course, there are situations in which police must take race or 
ethnicity into account to do their jobs effectively. An obvious example 
is when skin color is part of a description of specific suspects 
committing specific crimes. In addition, such descriptions help police 
narrow the pool of potential suspects and concentrate their enforcement 
efforts. Let's say that a police department has knowledge that jewelry 
store salespeople are being robbed. The robberies occur just after the 
store closes when the sales personnel are leaving work. Witnesses 
describe the suspects as male, Hispanic adults. Police are also told 
that prior to past robberies, witnesses have observed several Hispanic 
males seated in a car that matches the description of what is later to 
be determined as the suspect vehicle. Based on this scenario, a police 
officer would be justified in investigating a vehicle containing a 
group of Hispanic males parked adjacent to a jewelry store at closing 
time. And even though the criteria used by police to target this 
vehicle includes that the occupants are Hispanic, the police are not 
using ``racial profiling.'' However, if police officers from this 
department--in an effort to stop these robberies--made it a practice to 
stop any and all vehicles occupied by male Hispanics, anywhere in the 
city, at any time, they would be engaged in racial profiling.
    The well-founded belief that authorities use racial profiles to 
justify more intensive observation and questioning of people of color 
has fed escalating tensions between police and minority communities. 
Racial profiling has triggered widespread complaints among minority 
men, including many middle-class professionals, of police harassment 
based solely on their skin color.
    Political opposition to racial profiling is mounting. President 
Clinton recently called the practice ``morally indefensible'' and order 
federal law enforcement officials to collect information on the race 
and sex of people they stop. Vice President Al Gore and his rival for 
the Democratic nomination, former Sen. Bill Bradley, have promised to 
ban racial profiling by federal authorities.
    Progressives should press for an end to profiling on both civic and 
practical grounds. First, racial profiling corrodes the presumption of 
innocence to which all American citizens are entitled. It is always 
dangerous to stray from the bedrock liberal principle that individuals 
must be judged on their own merits, not on their class, race, ethnic 
background, or gender. Second, whatever gains the police may reap from 
profiling are overwhelmed by its costs: alienating law-abiding citizens 
and reinforcing the view in poor communities of the police as an 
occupying force rather than a common instrument for self-defense.
    Moreover, police now have an alternative: new, community-based 
strategies buttressed by real time access to information that can help 
them target people who have actually committed crimes as opposed to 
people who happen to be members of racial or ethnic minorities. After 
all, profiling uses race as a proxy for criminal intent or culpability 
because police often lack specific information about specific 
individuals. Modern information systems and strong police community 
interaction that foster the exchange of information will ensure that 
police make decisions based on facts and data instead of race.
    The problem with racial profiling is not that it targets 
``dangerous people in dangerous places.'' It is that it targets 
inaccurately and in ways that breed resentment and mistrust between the 
police and poor communities. What we need is the right kind of 
targeting, based on better information about lawbreakers and closer 
cooperation between the police and the community. In this paper, we 
propose a Third Way: replace racial profiling with new tools that will 
help the police to make better judgments, deploy their resources more 
strategically, and most important of all, enlist citizens in crime-
riddled neighborhoods in their own self-defense.
    Specifically, we propose strategies to:
          Deploy information technology more effectively. We must 
        develop and deploy information technology systems to put 
        accurate, timely information about the location of criminal 
        activity and the people involved in it in the hands of cops on 
        the street, permitting them to make decisions based on data 
        instead of race. The technology exists to dramatically improve 
        the collection, processing, and spreading of information within 
        the entire criminal justice system, but it has not been 
        deployed. These same advances can make it easier for citizens 
        to provide police with information about crime-related 
        problems.
          Concentrate on ``hot spots.'' Our crime-fighting strategies 
        should recognize and respond to the well-documented fact that 
        crime, and especially violent crime, is heavily concentrated in 
        certain geographic areas. The actions of police, prosecutors, 
        parole officers--indeed, every aspect of the criminal justice 
        system--should be coordinated and brought to bear on these 
        crime ``hot spots.''
          Focus on high-risk offenders. A relatively small number of 
        people are responsible for a majority of crimes. As in ``hot 
        spots,'' we need to target the criminal justice system's full 
        panoply of resources on these dangerous people.
          Improve police recruitment and training. We need to enhance 
        the quality of our police forces with more stringent hiring 
        standards and train officers to identify the conditions, 
        trends, and behaviors that are true indicators of criminal 
        activity.

                        RACE AND LAW ENFORCEMENT

    In the early part of this century, racial discrimination was 
codified in many state laws and the police were expected to enforce 
what most Americans today regard as unjust laws. Over the past three 
decades, there have been systematic efforts to eliminate blatant 
bigotry from the nation's criminal justice system. Outright 
discrimination is clearly much less prevalent than in the past. 
Nonetheless, there are still many Americans, particularly racial and 
ethnic minorities, who are convinced that police unfairly target them.
    Undoubtedly, there are still people in our criminal justice system 
who are influenced by racial or ethnic prejudice. Just as surely, some 
instances of profiling, or of excessive force, can be attributed to a 
racist outlook. When racial prejudice prevents anyone in the criminal 
justice system from treating all citizens in a fair and equal manner, 
the only solution is to remove such people from positions of public 
trust.
    But the routine use of racial profiling today has more to do with 
techniques of ``modern'' policing than old-fashioned bias. In the 
middle part of this century, police officials instituted a new model of 
``professional policing'' in an effort to deal with corruption. Under 
this model, police officers were taken off the streets and placed in 
radio-dispatched patrol cars, controlled and monitored from a 
centralized location. Officers were responsible for large geographical 
areas and were evaluated based on such performance measures as number 
of arrests, number of calls for service handled, and response times. 
Departments became 911 driven, and officers were discouraged from 
forming close bonds with the community. The result: police officers 
became detached from the communities they served.
    Today, many police departments (even many of those that promote 
community-oriented policing) still emphasize random or reactive 
tactics. Rarely do police officers (or their supervisors) begin their 
day with a specific problem to solve and a defined, information-driven 
solution to that problem. Generally, police officers randomly drive 
around a loosely defined beat area, responding to calls for service, or 
using a set of nonspecific criteria to decide which people and cars to 
stop. This culture of random policing has alienated police from the 
communities they are charged with protecting, fostering an ``us vs. 
them'' mentality in which racial profiling and charges of racially-
inspired police brutality flourish.
    The authors of this paper know from personal experience that most 
police officers are hard-working, decent people who are struggling to 
be effective with minimal resources and under difficult conditions. 
They are held accountable for preventing crime, but they are seldom 
provided up-to-date information regarding crime trends and conditions 
influencing crime. This operational environment requires police 
officers to make discretionary judgments about who to stop and when to 
detain people. Lacking reliable information and sometimes training in 
how to establish proper ``probably cause,'' officers often rely on 
``hunches'' or other superficial criteria--such as a minority person 
traveling in ``the wrong neighborhood''--to justify detaining and 
questioning an individual. They believe that they are making a rational 
decision based on their experience; that they are simply doing their 
job.
    Some legal and law enforcement experts argue that the use of racial 
profiling is an effective method of strategically addressing specific 
crime problems. They believe that the most effective use of their 
limited resources is to focus on minorities because they are 
statistically more likely to be involved in crime. They further argue 
that racial profiling is appropriate when the race of an individual is 
one of a number of legitimate factors used by police to decide whom to 
stop and question.
    Yet their core premise--that racial profiling is an effective and 
efficient way to catch criminals--is fatally flawed. When police use 
race-based profile resources, they often devote time and attention to 
individuals who are not involved in illegal activity--leaving actual 
criminals free to continue committing crimes. Assuming that all members 
of a race are legitimate targets for police action because they have 
the same skin color as individuals engaged in criminal activity is not 
a sound assumption on which to base an enforcement strategy.\1\ The 
vast majority of serial killers are white. Yet no one would argue that 
because all white people are potentially serial killers, they should be 
subject to random police stops. From a law enforcement perspective, the 
use of race is not the most effective method for deciding whether a 
person may be potentially violating the law.
    Tough law enforcement does not require that the police treat some 
citizens unfairly. Indeed, some of the most effective community-
oriented policing initiatives combine the goal of curbing crime with a 
commitment to treat every person with the utmost respect, regardless of 
the circumstances. Communities that have embraced this philosophy of 
policing have not only realized dramatic reductions in crime, they've 
also seen citizen complaints against the police plummet. San Diego, for 
example, has achieved a reduction in crime statistically equal to that 
achieved in New York City through a crime strategy based on problem 
solving and community mobilization. Rochester, NY, has adopted an 
aggressive crime reduction strategy with a commitment by the chief of 
police that every citizen will be treated with maximum respect. 
Rochester also has witnessed both a substantial reduction in crime and 
in citizen complaints. Reducing Crime and Ending Racial Profiling--A 
Third Way To Approach Racial Profiling is inconsistent with the basic 
freedoms and rights afforded in our democracy. It erodes the foundation 
of trust between communities and public authorities. Worst of all, it 
inflames racial and ethnic strife and undermines America's progress 
toward color-blind justice.
    Improving the relationship between minority groups and police is 
one of the greatest challenges confronting our criminal justice system. 
According to Washington, D.C., Police Chief Charles Ramsey, ``Race 
relations between the police and the community is one of the 
fundamental things that we must work through and `get right' if we are 
to have any hope of significant and lasting progress on stopping 
illegal drugs, reducing youth crime, and improving public safety.'' 
Acknowledging the gravity of this problem, U.S. Attorney General Janet 
Reno and police executives from throughout the country have held three 
recent meetings on the subject of profiling and race relations. But no 
clear strategy has emerged for resolving this complex issue.
    Without community support, tougher law enforcement can only go so 
far. If we are to make deeper inroads into crime, we must employ 
enforcement strategies that treat all law-abiding Americans with 
respect. We also must move beyond police tactics that have officers 
driving or walking around at random hoping to find crime, or stopping 
people or cars based solely on ``hunches.'' There is growing evidence 
that communities can reap significant decreases in crime when police 
work closely with community members (business leaders, clergy and 
residents) to identify local conditions that breed disorder and to 
craft information-driven strategies to prevent crime.
    In addition to the overriding imperative of better community 
support, the progressive alternative to racial profiling is based on 
the following four key strategies.
Use Technology to Enable the Police and Increase Citizen Participation
    Whether in an inner city neighborhood or on an interstate highway, 
the use of accurate and timely information allows police to identify 
both the location of criminal activity and the people involved in it. 
Information plays a key role in the identification of ``hot spots'' and 
the repeat offenders that the criminal justice system should target. If 
state troopers have information about specific people or vehicles 
involved in the transportation of illegal drugs, they will not have to 
rely on race or ethnic profiles.
    Advances in technology promise to significantly change the way we 
address crime in our cities, towns, and on our highways. The 
information technology revolution has improved the ability of people in 
the criminal justice system to collect, process, and disseminate 
information. Linked information systems, wireless data technology, and 
systems that link the community with police will provide police the 
critical information needed to identify trends and situations that 
demand law enforcement focus. Police officers can now access 
information and images of persons who are wanted for crimes via laptop 
computers in their police cars. Additionally, officers can use these 
same laptops to file reports and complete other administrative tasks. 
This allows them to stay in the field longer. Information and 
communication systems will link regional agencies and enable multi-
agency efforts to target the locations where crimes occur and the 
people who commit them. The same information systems also can monitor 
the performance of police officers, highlighting patterns of behavior 
that may signal bad decision-making.
    These advances will make it easier for citizens to provide 
information to police regarding crime-related problems. For example, 
some police departments are using the Internet to enable people to file 
police reports and to get information regarding criminal activity in 
their neighborhoods. Other departments are using advanced 
telecommunications technology in conjunction with an easy-to-remember, 
non-emergency number (311) to improve the response to both emergency 
and non-emergency calls for service, and to create discretionary time 
for community-oriented policing.
    Unfortunately, the criminal justice community has been slow to 
exploit the full potential of the new technologies. Many agencies can't 
afford cutting edge technology; others have senior executives who don't 
grasp how technology can leverage existing criminal justice resources 
toward more effective policing. The federal government should launch an 
educational campaign to raise awareness among federal, state, and local 
criminal justice agencies about what new information tools are 
available and how they can be a ``force multiplier'' for police.
Concentrate on Crime ``Hot Spots''
    Research confirms what Americans instinctively understand: crime is 
heavily concentrated in certain geographical locations. A small number 
of addresses tend to generate a large amount of crime, and these 
addresses tend to be clustered in particular neighborhoods. Some 
studies have indicated that as much as 50 percent of all crime occurs 
at about 3 percent of addresses. For violent crime, this concentration 
is even more pronounced. The pattern holds true for urban, rural, and 
suburban settings. It is therefore crucial for law enforcement 
authorities and community leaders to cooperate in targeting resources 
on those hot spots where most crime takes place. Efforts by police and 
prosecutors to target hot spots should also be coordinated with other 
public and community agencies, such as those responsible for after 
school programs, housing, and drug treatment. Maryland Lt. Governor 
Kathleen Kennedy Townsend has spearheaded a statewide ``HotSpots'' 
program that should be a model for the nation. State grants initially 
supported 36 multi agency and community-based efforts to reclaim the 
neighborhoods hardest hit by crime and drugs. The state assists crime-
ridden communities in developing a comprehensive strategy that includes 
community mobilization, community-oriented policing, community 
probation,\2\ and delinquency prevention.
    This information-driven approach has had dramatic results. HotSpot 
locations recorded significant decreases in serious crime that doubled 
both national and state averages, leading Maryland to double the number 
of HotSpots communities that receive state funds.\3\
Focus on High-Risk Offenders
    Research also has shown that a small proportion of high-risk 
offenders accounts for a large proportion of crime. An exhaustive study 
of career criminals conducted by the National Academy of Sciences found 
that while half of all offenders commit more than one crime per year, 
10 percent of offenders committed over 100 crimes per year. A study in 
Baltimore found that almost 60 percent of adults arrested are on some 
type of criminal justice supervision (probation and parole) at the time 
of their arrest.
    Incredibly, however, many police departments continue to employ 
crime control strategies that involve the random search for people 
committing crime when it is clear that the majority of crime is 
committed by individuals who are not only well known to the law 
enforcement community, but who are also under criminal justice 
supervision.
    Some jurisdictions have realized impressive reductions in crime by 
targeting these high-risk individuals. Boston, for example, quelled a 
severe epidemic of youth violence with a multi-faceted approach 
involving government and the community. The police identified violence-
prone youth, who were then contacted as well by social workers, 
probation officers, and church leaders. These youths quickly discovered 
that they were being closely monitored not only by law enforcement 
officials, but by a caring community. Coupled with this initiative was 
an expanded gun enforcement effort to track down those who were selling 
guns to youths. The results were impressive. For two years, there were 
no gun related homicides committed against or by a person under the age 
of 18. Additionally, Boston substantially reduced its level of youth 
violence through these collaborative initiatives.
    A success like Boston's shows that it is not only assertive police 
action that can reduce disorder and violence. Community-backed 
approaches work better than reliance solely on police action.
Strengthen Police Training and Accountability
    Police officers hired to protect our communities must recognize 
that treating citizens with respect is the highest priority of the 
profession. Police departments must redouble efforts to screen 
applicants for this ability and eliminate those who lack it. While 
hiring requirements should be set locally based on the specific needs 
of specific communities, departments across the nation are exploring 
residency \4\ and mandatory education requirements as ways to enhance 
the quality of their law enforcement officers.
    Many police agencies have begun requiring an associate's degree as 
a minimum academic credential while others require or offer signing and 
retention bonuses for people with bachelor's degrees. It is generally 
agreed that applicants with higher levels of education have better 
communications skills and show greater versatility in problem-solving. 
However, such requirements often make it difficult to recruit minority 
officers, since there is intense competition in the job market for 
minority candidates with college degrees.
    Law enforcement agencies traditionally have tended to recruit 
college students majoring in criminal justice or criminology. Many 
police agencies will also provide continuing education benefits to 
their officers only for criminal justice studies. To widen the pool of 
potential recruits, law enforcement should look also to students with a 
broader educational focus.
    Everywhere, the quality of police training must be dramatically 
improved. Law enforcement professionals must be trained to identify 
conditions, trends, and behaviors that are true indicators of criminal 
activity. They must also be trained to understand and articulate the 
cornerstone principles of American justice, such as the doctrine of 
probable cause. Police training must focus on improving the quality of 
decisionmaking and use of discretion. We must invest more in innovative 
training techniques, such as interactive software programs that present 
trainees with scenarios and evaluate their reactions.
    Police executives must be willing to bring minority representatives 
into full collaboration as they develop policies and programs aimed at 
lessening racial tension. Police strategies and tactics should be 
developed with community input, so the community is aware of what 
objectives are being sought and how the strategies will work. Police 
must not only tell the community what they are doing, but must learn 
what true collaboration means. Community oversight boards and federal 
supervision over local police focus attention on this issue but do not 
foster collaboration and therefore, in themselves, are not the answer. 
Most importantly, we must remember that this is not just a problem for 
police. Federal, state, and local government officials (in the 
legislative and executive branches) must provide the leadership, the 
ideas, and the commitment needed to spark a new revolution in criminal 
justice practices, learning from what has been successful and 
abandoning strategies that have failed.
    Finally, leadership matters. Racial tensions between the police and 
communities are low where police executives take a strong stand against 
discriminatory or biased actions and hold their police officers 
strictly accountable when they violate such strictures. Police officers 
will not become involved in situations that increase racial tensions if 
police managers make it clear that inappropriate police behavior will 
not be tolerated.

                               CONCLUSION

    Today's welcome reduction in crime allow many Americans to feel 
safer in their communities. Yet some Americans--particularly 
minorities--live with fear daily, not just of crime but also of abuse 
at the hands of police.
    A progressive anti-crime strategy, therefore, should strive toward 
two key aims: reducing crime and improving relations between minority 
communities and the police. Fortunately, these goals are compatible and 
mutually reinforcing. There is simply no need for Americans to choose 
between greater public safety and policing methods that fail to treat 
all citizens with equal respect. It is, therefore, time to end racial 
profiling and replace it with information-driven strategies--enabled by 
the new tools of technology and grounded in strong community support--
that constitute a Third Way approach to public safety for the 21st 
century.

                                AUTHORS

    John D. Cohen is director of PPI's Community Crime Fighting 
Project. A former police officer and White House policy advisor, Mr. 
Cohen is president and CEO of PSComm, LLC, a strategic marketing and 
consulting firm that advises police and other law enforcement agencies.
    Janet J. Lennon is an attorney in New York and serves as adjunct 
professor at Pace University, advisor to the Metropolitan Black Bar 
Association, and director for the Bedford Stuyvesant Legal Services 
Corporation. Ms. Lennon previously served as both a deputy commissioner 
and as special counsel to the police commissioner in the New York City 
Police Department, and has held various prosecutorial positions in New 
York. Ms. Lennon is also a former president of the National Black 
Prosecutors Association.
    Robert Wasserman is chairman of PSComm, LLC, and also serves as 
senior international law enforcement advisor to the U.S. Department of 
State. Mr. Wasserman has over 20 years of law enforcement experience, 
and has held numerous executive-level appointed and consulting 
positions within international and American law enforcement agencies 
including the United Nations, the White House Office of National Drug 
Control Policy, the New York City Police Department, and the 
Massachusetts Port Authority.

                                ENDNOTES

    1. A recent report released by the National Institute of Justice 
found that it is the social and economic status of a neighborhood, not 
the racial or ethnic makeup, that is a key contributor to a community's 
subculture of crime and violence.
    2. Community prosecution involves having prosecutors focus their 
activities based on the location of a crime, not the type of crime. 
Under community prosecution, a prosecutor will have responsibility for 
working with police and community members to solve problems and 
prosecute most arrests for crimes in that community.
    3. From July through December 1998, Baltimore City, HotSpots 
reported a 31 percent decrease in serious crime as compared to an 11 
percent decrease citywide. Statewide, for the same period, HotSpots 
reported a 20 percent decrease in crime compared to a 10 percent 
decrease in non-HotSpots.
    4. Calls for police officers to live in the communities they police 
tend to reflect the desire for police officers to show greater 
sensitivity to community issues and concerns. However, others believe 
that the quality of policing is important, not where the officer 
resides. In addition, residency requirements make police recruitment 
more difficult, and are subject to various state laws that prohibit 
this criterion.
                                 ______
                                 

             Prepared Statement of Trent and Kelly Jackson

    As I begin to write to all of you who might read this letter, my 
eyes swell up with tears for I am almost at loss as to where to begin. 
The problem of racial profiling has always been something my husband 
and I have wanted to help make the public aware of--for ourselves but 
most importantly for the people who cannot speak for fear of their 
lives. We only wish we had more than a couple of hours to write this 
letter to you but we will do our best to explain briefly the corruption 
we have experienced within the law enforcement agencies due to racial 
issues.
    My husband, Trent Jackson, is a 33-year-old African-American. From 
the material we sent, you will see that he is not only a successful 
black male in society's terms but that he is a man of integrity and a 
true leader in his community. He is full of charisma and is a favorite 
for local television and radio interviews as well as public speaking 
engagements nationally. Some of you should remember him as a basketball 
player for the University of Wisconsin-Madison from 1985 to 1989.
    Trent is fortunate that he has lived the life that he has when it 
comes to the problems he personally has had with the law enforcement 
agencies. It has made his experiences a great deal less dramatic than 
his fellow African-Americans who live in the inner city but Trent is 
still terrified of the police. I am also scared. I am afraid that one 
day he could be accused of something he never did, beaten, or even 
killed. These thoughts will be justified when you read some of Trent's 
personal experiences.
    Also, I would like to inform you that I am a 31-year-old white 
female and have worked as a model internationally as you will also see 
from the material that was sent. The reason that this information is 
pertinent is because we believe some of the incidents have happened 
because we are a ``mixed'' couple.
    As my husband and I recalled some of the many racial profiling 
incidents that have happened to him, we can guarantee one thing--that 
racial profiling is not made of isolated incidents. It happens all over 
the country and it is no prejudice of the size of the law enforcement 
agency.
    Follwing is a list of some of the racial profiling incidents:
          1. One day Trent had dropped me off for an hour at my 
        modeling agency in downtown Chicago and went around the block 
        to White Hen pantry to buy a newspaper to read. He was stalled 
        by cashiers long enough for two policemen to come through the 
        doors and arrest him. They pushed him into their squad car and 
        handcuffed him to the bar while they checked his license. At 
        the time, I believe we were living in Miami. Apparently, the 
        White Hen pantry has been robbed a few days earlier and what do 
        you know, the police and the cashier thought their burglar had 
        returned to the store.(?) They eventually let him go but were 
        extremely rude with no apologies--the usual treatment for a 
        black male.
          2. Another incident with the Chicago police was when were 
        were living in the Gold Coast district of Chicago which if you 
        don't know, is an expensive part of town. Trent was walking 
        back to our condominium by himself carrying a bag of food when 
        the Chicago police paddy wagon drove up to him and asked him 
        what he was doing in that district. They then begin to provoke 
        him with racial remarks and obscenities.
          3. In Madison, Wisconsin, Trent was again waiting in the car 
        for me at a modeling agency late one night. They asked him to 
        get out of his car, questioned him about whose car it was, 
        searched it, and did the usual harassing. (This was about 12 
        years ago when they didn't know who he was.)
          4. When we were living in Miami, we lived on an island called 
        Bay Harbor Island, where once again Trent was harrassed because 
        the police did not believe he lived there. He would be stopped 
        for no apparent reason except for the police to search the car 
        and harrass him. This happened numerous times. One time he was 
        stopped and issued a speeding ticket even though he wasn't 
        speeding. It was an excuse to check the car he was driving. 
        This police officer threatened to plant drugs on him . . .
          5. One time in Miami, Trent was waiting in the car while I 
        ran upstairs to an apartment room of a photographer and his 
        assistant to pick up my pictures. I returned to the car with 
        the photographer's assistant (Rich) to find Trent with his 
        hands up on the top of the car with two policemen's gun pointed 
        at him. Our friend Rich, had reported a burglary of his 
        photographic equipment the day before and the police once again 
        acted as if they believed that the ``burglars'' would return to 
        the place of the crime and actually sit in their car in front 
        of the building. As it is needless to say how Trent felt, Rich 
        was furious because he told them it was two men and Trent was 
        nothing near the description of either one.(?)
          6. Two weeks ago in Santa Barbara, California, Trent and I 
        were vacationing and visiting my biological father and his 
        family. One day, Trent drove my father's red Volvo downtown and 
        dropped me off at a store and told me he would wait around the 
        block. A few minutes later, a policeman pulled him over and 
        questioned him about whose car it was,etc. After checking 
        everything out, he then issued Trent a ticket for not wearing 
        his seatbelt while Trent sat there with his seatbelt on. Trent 
        pleaded with him for his reasoning for this ticket and he said 
        that he saw him let a young lady out of the car and that he 
        wasn't wearing a seatbelt at that time which was of course not 
        true. Basically, we believe that this was a case where the 
        police officer saw that I was white, etc. and wanted to harrass 
        him and since he need a reason for pulling him over, he issued 
        him a ticket that was inaccurate.
    We could gone on and on but it is late and I am sure that these 
examples are enough. In the future, Trent would welcome the chance to 
speak directly to all of you about his experiences.
    In summary, we desperately urge everyone to help pass the long 
overdue bill on racial profiling. This is a huge problem that needs to 
be addressed immediately to help save the innocent lives of minorities 
and provide more security for them when they are face-to-face with the 
law enforcement personnel.
    On a personal note, I pray that one day my husband will feel safe 
when he has to reach into the glove compartment for identification. I 
pray that he will be treated with the same dignity and respect as other 
law-abiding citizens regardless of color--that he will not be demeaned 
in front of his family. I pray that one day the personality of the 
police force will not be the first determining factor when we choose 
our place of residence.
                                 ______
                                 

                    Police Reign of Terror Must End

             (By Civil Rights Activist--Karen Murphy-Smith)

    For one reason or another, citizens here have put up with some bad, 
coarsened, derelict, Law Enforcement Officers (LEOs) from the Milwaukee 
Police Department and surrounding Municipal Police Agencies. Instead of 
safeguarding the lives and property of citizens--these LEOs bring 
injury to the innocent, violating their liberties and constitutional 
rights. They stray away from the Law Enforcement Code of Ethics 
bringing animosity, prejudices, and pre-conceived ethnic notions to 
their perspective agencies.
    We'll have discourteous LEOs, police brutality, Driving While Black 
or Brown (DWB), racial profiling and other atrocities as long as:
          (1) Good LEOs who witness these atrocities choose not to 
        ``blow-the-whistle'';
          (2) Citizens take a ``see no evil, hear no evil, speak no 
        evil'' attitude when asked for help;
          (3) Some Social Justice and Civil Rights Organizations remain 
        slothful to act on citizen's complaints;
          (4) The Citizen Complaint Process is cumbersome, lengthy, and 
        expensive; and
          (5) Less than 2% of Milwaukee area Attorney's take-on Police 
        Departments.
          The bottom-line they'll continue to reign terror as long as 
        we let them. It's up to us to hold them accountable to a 
        standard of their own choosing the Law Enforcement Code of 
        Ethics. Most citizens are familiar with the Law Enforcement 
        Code of Ethics, which states:
          ``As a law enforcement officer, my fundamental duty is to 
        serve mankind to safeguard lives and property to protect the 
        innocent against deception, the weak against violence or 
        disorder, and to respect the constitutional rights of all men 
        to liberty, equality and justice.
          ``I will keep my private life unsullied as an example to all; 
        maintain courageous calm in the face of danger, scorn, or 
        ridicule; develop self-restraint; and be constantly mindful of 
        the welfare of others. Honest in thought and deed in both my 
        personal and official life, I will be exemplary in obeying the 
        laws of the land and the regulations of my department. Whatever 
        I see or hear of a confidential nature or that is confided in 
        me in my official capacity will be kept ever secret unless 
        revelation is necessary in the performance of my duty.
          ``I will never act officiously or permit personal feelings, 
        prejudices, animosities or friendships to influence my 
        decisions. With no compromise for crime and with relentless 
        prosecution of criminals, I will enforce the law courteously 
        and appropriately without fear or favor, malice or ill will, 
        never employing unnecessary force or violence and never 
        accepting gratuities.
          ``I recognize the badge of my office as a symbol of public 
        faith, and I accept it as a public trust to be held so long as 
        I am true to the ethics of the police service. I will 
        constantly strive to my chosen profession--law enforcement.''
          It's beyond me how a LEO can swear by the Law Enforcement 
        Code of Ethics and commit crimes against humanity like some we 
        have documented.
          --A Black Family return home to find three White Burglars. 
        The Family called the Milwaukee Police Department (MPD). When 
        the Police arrived, instead of arresting the three Burglars, 
        the Police pushed and shoved the Daughter around. When the 
        Father went to his Daughter's aid, both the Police and two of 
        the Burglars beat the Father into unconsciousness. Police let 
        the Burglars go free and arrested and charged the Family.
          --A Black Woman and her Niece drove down a north-side street 
        when they were pulled over by the Milwaukee Police Department 
        (MPD). The car was surrounded. Two Policeman approached the car 
        shouting obscenities and literally put guns to the women's 
        heads. After about an half hour, the Women were offered no 
        explanation and allowed to drive away.
          --A Black Teen and his 8-year old brother drove home one 
        night from an athletic event. The Teen noticed that his 
        headlight was broken and put on his 4-way flashers. A Glendale, 
        WI Policeman stopped the car on north Green Bay Road. The 
        Glendale Policeman ticketed the Teen and made the Brothers walk 
        to the Glendale Police Department in the dark, where the Teen 
        called his Mother.
          --A Black Woman was driving home from her job in Mequon, WI 
        and listening to her car radio one morning. As she stopped at a 
        light she noticed that a Mequon Police squad was there too. 
        While laughing out loud at (Ms. Leonard--a character on WKKV-
        100 FM Radio Doug Banks' Show), she glanced into the Mequon 
        Police squad and saw the Policeman pick his nose. When the 
        light turned green she continued on her way. A half block down 
        the road the Woman was pulled over by that Mequon Policeman who 
        asked her, ``What was so funny back there at the light?''
          --A Black Man and his Cousin went out to a nightclub in 
        Waukesha, WI. ``Calling It A Night'' the Cousin went out to 
        start the car as the Man grabbed his coat. Once outside the Man 
        heard a verbal argument between his Cousin and another Patron. 
        The Man was breaking-up the altercation, when he was rushed by 
        several Waukesha Policemen who beat him with night-sticks, 
        arrested him and jailed him after taking him to an area 
        hospital for treatment of injuries he sustained during the 
        beating. The Man was later released but was hospitalized for an 
        additional three days.
          An ex-police officer posted the following related to this 
        subject on a newsgroup http://thebird.org/copwatch/
        linkcop.html:
          ``I am an ex-police officer. I am ex because I tried my best 
        to live up to the standards that the code of ethics tries to 
        spell out. I was shunned by other officers. I was told to 
        arrest `racial expletives deleted' instead of `bothering' the 
        townspeople. I loved my job dearly but had to leave due to 
        harassment from other officers. I am sure there are many good 
        officers and good departments out there. But when you are 
        dealing with something as precious as a persons rights and 
        their very lives there should be zero tolerance for anyone who 
        puts on a badge and gun and doesn't want to `protect and 
        serve'. I am hopeful someday I may return to my chosen 
        profession but have been blackballed so far. I will keep trying 
        since I believe serving the public, regardless of race or sex 
        or religion is worth it. Thanks for letting me put in my two 
        cents worth.''
    For these reasons, the Angela Davis Cop Watch and Campaign Against 
Racial Profiling is planning a May 20th Public Speak-Out Hearing. The 
goal of which is to mobilize citizens to present testimony and evidence 
of police brutality, racial profiling, Driving While Black or Brown, 
and other atrocities to national and international organizations like: 
Amnesty International, the Ad hoc Coalition Against Racism and Police 
Brutality, the Civil Rights Commission (Midwestern Region), the Black 
Radical Congress, the United Council of University of Wisconsin 
Students, the National Association For The Advancement of Colored 
People, Rep. John Conyers, U.S. Vice President Gore, U.S. Attorney 
General Reno, the National Institute of Justice, the Bureau of Justice 
Statistics, the Police Complaint Center, the National Police 
Accountability Project, and the Rainbow Push Coalition.
                                 ______
                                 
                         National Black Police Association,
                                    Washington, DC, March 29, 2000.
Senator Russell Feingold,
Senate Judiciary Committee, Subcommittee on the Constitution, 
        Federalism and Property Rights, Senate Dirksen Office Bldg., 
        Washington, DC.
    Dear Senator Feingold: The National Black Police Association is an 
advocacy organization that represents over 35,000 African-American men 
and women in Law Enforcement and other areas of the Criminal Justice 
System. Also, the National Black Police Association is involved in the 
examination and analysis of criminal justice policy and practices that 
have negative impact on African-American law enforcement and the 
communities they serve.
    The National Black Police Association would like to express its 
support for your Bill S. 821, that will provide for the collection of 
data on traffic stops. ``The Traffic Stops Statistics Study Act of 
1999'' will provide us with information we need to properly examine the 
issue of whether or not people of color are victims of racist law 
enforcement officers or polices.
    In closing, the National Black Police Association supports S. 821 
without any reservation and is looking forward to working with you for 
its passage.
            Sincerely,
                                         Ronald E. Hampton,
                                                Executive Director.

                                <all>

</pre></body></html>
